 OFFICE OF INSPECTOR GENERAL


SEMIANNUAL REPORT TO CONGRESS
  APRIL 1, 2013 – SEPTEMBER 30, 2013




DEDICATION                    RESPONSE   OVERSIGHT




                                         U.S. DEPARTMENT
                                         OF HOUSING
                                         AND URBAN
                                         DEVELOPMENT
OUR MISSION
 As the Office of Inspector General (OIG) for the U.S. Department of

Housing and Urban Development (HUD), we remain an independent and

 objective organization, conducting and supervising audits, evaluations,

and investigations relating to the Department’s programs and operations.

• We promote economy, efficiency, and effectiveness in these programs

    and operations as we also prevent and detect fraud, abuse, and

 mismanagement. • We are committed to keeping the HUD Secretary,

           Congress, and our stakeholders fully and currently

      informed about problems and deficiencies and the necessity

                 for and progress of corrective action.
  OUR VALUES
    1       Collaboration: The commitment to work jointly with HUD,
    Congress, and our stakeholders for the benefit of all citizens.
        2   Accountability: The obligation and willingness to accept
  responsibility and account for our actions.       3   Integrity: The firm
    adherence to high moral and professional standards, honesty,
   and fairness in all that we do. Acting with integrity is a core job
   responsibility for every employee.      4   Stewardship: The careful
 and responsible management of that which has been entrusted to
  our care.      5   Diversity: The promotion of high standards of equal
employment opportunity for employees and job applicants at all levels
        so that our workforce is reflective of our Country’s citizens.
     OUR VISION
     1   To promote fiscal responsibility and financial accountability in
HUD programs and operations,           2      To improve the execution of and
 accountability for grant funds,      3       To strengthen the soundness of
 public and Indian housing programs,                4   To protect the integrity of
    housing insurance and guarantee programs,                 5   To assist HUD in
         determining whether it is successful in achieving its goals,
6    To look ahead for emerging trends or weaknesses that create risk
and program inefficiencies,      7   To produce innovative work products
that are timely and of high quality,           8   To benchmark best practices
    as a means to guide HUD, and          9   To have a significant impact on
                   improving the way HUD does business.
 Diversity and Equal Opportunity
      The promotion of high standards of equal
  employment opportunity for employees and job
   applicants at all levels. HUD OIG reaffirms its
commitment to nondiscrimination in the workplace
     and the recruitment of qualified employees
   without prejudice regarding their gender, race,
 religion, color, national origin, sexual orientation,
    disability, or other classification protected by
 law. HUD OIG is committed and proactive in the
prevention of discrimination and ensuring freedom
    from retaliation for participating in the equal
  employment opportunity process in accordance
    with departmental policies and procedures.
PROFILE OF PERFORMANCE
 Audit profile of performance for the period April 1, 2013, to September 30, 2013
 RESULTS                                                       THIS REPORTING PERIOD                      FISCAL YEAR 2013

 Recommendations that funds be put to                                $449,671,330                          $1,189,182,593
 better use
 Recommended questioned costs                                        $175,287,800                            $945,701,227
 Collections from audits                                              $33,864,609                          $1,054,946,663
 Administrative sanctions                                                    1                                      2
 Subpoenas                                                                  96                                     207

 Investigation profile of performance for the period April 1, 2013, to September 30, 2013
 RESULTS                                                       THIS REPORTING PERIOD                      FISCAL YEAR 2013

 Recoveries and receivables                                           $84,323,769                            $159,309,255
 Arrests                                                                    235                                    431
 Indictments and informations                                               298                                    523
 Convictions, pleas, and pretrial diversions                                244                                    514
 Civil actions                                                              24                                      45
 Total administrative sanctions                                             139                                    251
    Suspensions                                                             46                                      97
    Debarments                                                              55                                     105
    Removal from program participation                                       6                                      17
 Systemic implication reports                                                1                                      8
 Personnel actions      1
                                                                            28                                      44
 Search warrants                                                            36                                      69
 Subpoenas                                                                  497                                    976


 Hotline profile of performance for the period April 1, 2013, to September 30, 2013

 RESULTS                                                       THIS REPORTING PERIOD

 Funds Put to better use                                             $57,939,4812                               $59,510,652
 Recoveries and receivables                                             $776,571                                 $929,141
 Hotline complaints processed related to OIG                                708                                    1,408
 mission


1 Personnel actions include reprimands, suspensions, demotions, or termination of the employees of Federal,
  State, or local governments or of Federal contractors and grantees as the result of OIG activities.
2 This
     reporting period saw a significant jump in the funds put to better use due to recommendations found
  in Audit Report: 2013-LA-1008.
DURING THIS REPORTING PERIOD,



WE HAD NEARLY $450 MILLION IN FUNDS



PUT TO BETTER USE, QUESTIONED COSTS



OF $175 MILLION, NEARLY $34 MILLION IN



COLLECTIONS FROM AUDITS, AND MORE



THAN $84 MILLION IN RECOVERIES DUE TO



OUR INVESTIGATIVE EFFORTS.
A M E S S AG E F R O M I N S P E C T O R G E N E R A L D AV I D A . M O N T OYA



IT IS WITH A SENSE OF SINCERE GRATITUDE AND COMMENDATION
TO OUR STAFF that I present to you the U.S. Department of Housing and Urban Development (HUD),
Office of Inspector General’s (OIG) Semiannual Report to Congress for the second half of fiscal year 2013.
This report is the culmination of amazing efforts by a dedicated group of auditors, investigators, evaluators,
attorneys, and various support staff. I am grateful to be surrounded by a remarkable and talented staff.


                                        Despite a very challenging              Office of Public and Indian Housing (PIH) programs have
                                        budget environment and            long been a source of concern to OIG, and we are focusing our
                                        managing the effects              work products over the next year on spotlighting issues with
                                        of budget cuts due to             these programs to help develop solutions. By way of example,
                                        sequestration, we were            we audited the Harris County Housing Authority (Houston, TX)
                                        able to successfully              to determine whether the Authority’s procurement, expenses,
                                        manage our resources              and financial records complied with HUD’s requirements. The
                                        without having to resort          Authority’s management and board of commissioners (1)
                                        to staff furloughs or             failed to establish a control environment designed to provide
                                        layoffs. Over a year ago,         reasonable assurance that the Authority complied with Federal
                                        in anticipation of reduced        requirements; (2) failed to enact policies and procedures to
                                        funding and our desire            ensure the integrity of financial operations and compliance with
                                        to be good stewards               procurement requirements and neglected their management and
                                        and cost conscious of             oversight responsibilities; (3) wasted Authority funds, at times for
                                        our program, we began             personal gain; (4) circumvented existing internal controls; and
                                        to reduce our staffing            (5) manipulated accounting records. As a result, the Authority
                                        levels through attrition,         incurred questioned costs of more than $27 million. Further, the
consolidated regional offices, and closed offices or canceled             Authority’s former executive director and board put the Authority
planned office openings. By realigning our limited resources to           in a precarious financial position, and the Authority did not have
better focus on where HUD program dollars are disbursed and               sufficient funds to repay a $3.8 million debt due to HUD. More
where HUD’s greatest challenges exist, we continue to address             troubling was that the Authority did not maintain accounting
congressional mandates and priorities and issue products that             records that supported its sources and uses of funds or justified
address the systemic concerns faced by HUD.                               accounting entries in its books and records.

     During what could only be described as a trying and                        Our investigative activity in the PIH program area also
uncertain reporting period, we amazingly had nearly $450 million          continues to be significant. Of continuing concern is the level
in funds put to better use, questioned costs of $175 million, nearly      of public corruption exhibited by some local government
$34 million in collections from audits, and more than $84 million         officials entrusted to administer these programs. To highlight a
in recoveries due to our investigative efforts. We also had 298           recent example, the former executive director of the Chelsea,
indictments and informations, 244 convictions, and 235 arrests            MA, Housing Authority pled guilty and was sentenced to 36
during this reporting period. These results can only be described         months in prison, followed by 2 years supervised release, for
as extraordinary work by dedicated public servants who, even in           falsely reporting his salary in annual budgets required by HUD
the face of uncertainty, rise to levels of effort that make me proud      and the Massachusetts Department of Housing and Community
to be their Inspector General. Their efforts have contributed to          Development. He was also indicted by the Commonwealth of
better accountability of HUD programs and operations, which               Massachusetts for unlawfully soliciting contributions from State
benefits all Americans.                                                   employees and other individuals to support multiple political
                                                                          campaigns.
     Our high-profile audit and investigative work continues to
target HUD’s high-risk areas. In particular, civil fraud investigations         Since its creation in 1974, HUD OIG has been a leader in the
continue to be an area of emphasis in addressing fraud against the        effort to fight waste, fraud, and abuse in nearly 300 HUD programs,
Federal Housing Administration’s (FHA) single-family programs.            along with its oversight of American Recovery and Reinvestment
During the reporting period, I testified about the state of these         Act stimulus funding, disaster recovery, and the recent financial
programs and our concerns about the level of oversight and risk           crisis. I would once again like to express my appreciation to
taken on by FHA and the effect on its financial health. To help           Congress and the Department for their sustained commitment
recover FHA’s losses, OIG continues to aggressively review lender         to addressing the top challenges facing HUD’s programs. I also
origination and underwriting practices, working closely with the          extend my sincere appreciation and admiration to the staff of
U.S. Department of Justice, U.S. Attorney’s Offices, and HUD’s            HUD OIG for its dedication and commitment to our mission and
Office of General Counsel. In the past year, joint efforts have           conducting its work in the most outstanding fashion.
resulted in nearly $1.3 billion in settlements and court-ordered
judgments. Mortgage-related fraud will continue to be an
important area of emphasis, as we complete an initiative begun
in early 2012 to focus on the underwriting practices of the largest
FHA-approved lenders.
                                                                               David A. Montoya | Inspector General
TRENDING
SUPERSTORM SANDY                           complaints and investigations. Three        nationwide and pursuing civil actions
The destruction and aftermath of           training sessions were provided to          and administrative sanctions against
Superstorm Sandy will continue to          HUD personnel, grantees, and other          entities and individuals that commit
be a focus and challenge for the U.S.      law enforcement partners tasked             fraud against HUD.
Department of Housing and Urban            with investigating disaster fraud.              The Joint Civil Fraud Division
Development, Office of Inspector           Lessons learned from previous disaster      pursues civil actions and administrative
General (HUD OIG).  Congress               programs were highlighted as well as        sanctions under a variety of statutes,
provided $16 billion in supplemental       tips on identifying fraud. A total of       including the False Claims Act; Program
appropriations through HUD’s               10 outreach sessions were conducted         Fraud Civil Remedies Act; and Financial
Community Development Block                with grantees and administrators of         Institutions Reform, Recovery, and
Grant (CDBG) Disaster Recovery             Superstorm Sandy funds in the New           Enforcement Act. The division also
program to help communities recover        York and New Jersey areas. Grantees         pursues debarments, suspensions,
from the superstorm.  To address the       were briefed on the mission of the          and limited denials of participation.
enormous task of enforcement and           HUD OIG Offices of Investigation and        Besides the more traditional use of civil
oversight, we have designated Regions      Audit, and fraud identification and         and administrative tools, the division
2 and 3 to perform the bulk of Sandy       prevention steps were discussed.            is pursuing referrals to State boards
oversight.  Our audit, investigative,                                                  of licensing agencies for entities and
and evaluation staff will provide                                                      individuals that commit civil fraud to
a continuing and comprehensive                                                         the detriment of HUD (for example,
review of the expenditure of funds and     CIVIL FRAUD                                 independent public accountants,
administration.                            Civil fraud investigations continue to be   notaries, attorneys, etc.).
    HUD OIG has been working jointly       an area of emphasis. In 2010, HUD OIG           The division works closely with
with HUD’s disaster staff to ensure        created a separate and distinct team of     the U.S. Department of Justice, U.S.
that the lessons learned from previous     employees, who focused solely on civil      Attorney’s Offices, and HUD’s Office
disasters will be considered in the        fraud. Recently, HUD OIG enhanced           of General Counsel to investigate
approval of the grantees’ work plans       the group by dedicating investigative       and convey civil cases. The
and HUD’s disaster guidance.               expertise and renaming it the Joint         partnerships forged between the
During this reporting period, the Office   Civil Fraud Division. This division         division and prosecutors have yielded
of Investigation opened a total of four    is tasked with investigating fraud          unprecedented outcomes. In the
past year, joint efforts have resulted in nearly
$1.3 billion in settlements and court-ordered
                                                      TABLE OF CONTENTS
judgments. Mortgage-related fraud will continue
                                                      Chapter 1 – Single-Family Programs....................................8
to be an important area of investigation, as the
                                                      Audit......................................................................................................8
division is currently conducting a number of
                                                      Investigation...................................................................................... 14
mortgage fraud-related cases. Additionally,
the Joint Civil Fraud Division is expanding its       Chapter 2 – Public and Indian Housing Programs............ 17
focus to conduct more investigative work in           Audit.................................................................................................... 17
HUD’s other main program areas of community           Investigation...................................................................................... 21
planning and development, public housing, and
                                                      Chapter 3 – Multifamily Housing Programs......................22
multifamily housing with an emphasis on grant
                                                      Audit....................................................................................................22
fraud.
                                                      Investigation......................................................................................24

                                                      Chapter 4 – Community Planning
JOINT INITIATIVES                                     and Development Programs................................................25
As part of its strategic plan this year, OIG          Audit....................................................................................................25
identified nine initiatives that are being            Investigation...................................................................................... 31
worked jointly between its Offices of Audit and
                                                      Chapter 5 – American Recovery and
Investigation. These initiatives were selected as
                                                      Reinvestment Act of 2009....................................................33
they are some of the most intractable problems
                                                      Audit....................................................................................................33
that OIG repeatedly finds in its work. Therefore,
                                                      Investigation......................................................................................38
the joint working groups are looking for root
causes. This initiative is also focused on bringing   Chapter 6 – Disaster Relief Programs................................39
together diverse skill sets from the Offices of       Audit....................................................................................................39
Audit and Investigation, in hopes of developing       Investigation......................................................................................42
new approaches to these longstanding issues.
                                                      Chapter 7 – Other Significant Audits and
The initiatives are
                                                      Investigations and the OIG Hotline....................................43
    •	 FHA appraisals and high-risk appraisers,
                                                      Audit....................................................................................................43
    •	 Strengthening HUD’s real estate-owned
         program,                                     Chapter 8 – Legislation, Regulation,
    •	 Community planning and development             and Other Directives............................................................ 46
         program oversight and grantee                Notices and Policy Issuances........................................................46
         performance,
                                                      Chapter 9 – Audit Resolution............................................. 49
    •	 Review of lender oversight,
                                                      Audit Reports Issued Before the Start
    •	 Operation Home Rules – Englewood Joint
                                                      of the Period With No Management Decision
         Initiative,
                                                      as of March 31, 2013........................................................................49
    •	 City of Detroit MI’s Neighborhood
                                                      Significantly Revised Management Decisions............................58
         Stabilization Program-funded
                                                      Significant Management Decisions
         demolition activities,
                                                      With Which OIG Disagrees.............................................................64
    •	 Community planning and development
         subrecipients and developers,                Federal Financial Management

    •	 Multifamily housing programs, and              Improvement Act of 1996..............................................................65
    •	 Preforeclosure sales.                          Appendix 1 – Peer Review Reporting.................................68

                                                      Appendix 2 – Audit Reports Issued.....................................69
    The impact of these initiatives is under
review and will be reported in a later report.        Appendix 3 – Tables..............................................................75

                                                      OIG Telephone Directory.....................................................89

                                                      Acronyms List........................................................................92

                                                      Reporting Requirements......................................................93
SEMIANNUAL REPORT TO CONGRESS




         ONE        SINGLE-FAMILY PROGRAMS




       The Federal Housing Administration (FHA) single-family programs provide mortgage insurance to mortgage
       lenders that, in turn, provide financing to enable individuals and families to purchase, rehabilitate, or construct
       homes. Some of the highlights from this semiannual period are noted below.


       AUDIT


       STRATEGIC INITIATIVE 1: CONTRIBUTE TO THE REDUCTION OF FRAUD IN
       SINGLE-FAMILY INSURANCE PROGRAMS


         KEY PROGRAM RESULTS                      14 audits

         QUESTIONED COSTS                         $37,506,724

         FUNDS PUT TO BETTER USE                  $255,590,322



       REVIEW OF PAID CLAIMS THAT LACKED CONTACT OR COLLECTION ACTIVITIES
       WITH COBORROWERS
       The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), audited
       HUD’s Office of Single Family Housing to determine whether lenders contacted all borrowers on each FHA
       loan before proceeding to claim.
           HUD paid claims on approximately 2,109 FHA loans when the lenders did not contact, attempt collection
       from, or otherwise include all borrowers during the loss mitigation process. As a result, HUD could not ensure
       that the FHA insurance fund paid proper claims.
           OIG recommended that HUD (1) strengthen monitoring to check for proper contact with each borrower
       during loan servicing, (2) enhance data collection to begin collecting information on each coborrower, and
       (3) educate lenders and remind them of their responsibility to contact all borrowers during servicing. (Audit
       Report: 2013-KC-0004)




8
                                                                                         CHAPTER ONE SINGLE-FAMILY PROGRAMS




REVIEW OF LOANS UNDERWRITTEN BY THE LENDING COMPANY
HUD OIG audited The Lending Company, Inc., in Phoenix, AZ, to determine whether The Lending Company
complied with HUD requirements when it used gift programs, originated and underwrote FHA loans, and
implemented its quality control functions.
   The Lending Company used gift programs through two nonprofit organizations that did not comply
with HUD’s requirements. It approved 789 FHA-insured loans that contained unallowable gifts. As a result,
725 loans put the FHA mortgage insurance fund at risk for losses, and losses of more than $284,000 were
incurred for 7 loans. Further, The Lending Company did not always originate and approve FHA-insured loans
in accordance with HUD requirements. Specifically, 28 of the 31 loans reviewed contained underwriting
deficiencies, with 9 containing material underwriting deficiencies that impacted the insurability of the loans.
As a result, HUD incurred losses of nearly $422,000 for five loans. The remaining four loans with material
underwriting deficiencies also had an unallowable gift. Lastly, The Lending Company did not always follow
HUD quality control requirements. As a result, the FHA mortgage insurance fund was placed at an increased
risk for losses.
     OIG recommended that HUD determine legal sufficiency and if legally sufficient, pursue civil remedies,
civil money penalties, or other administrative action against The Lending Company, its principals, or both for
incorrectly certifying to the integrity of the data or that due diligence was exercised during the origination of
FHA-insured mortgages. OIG also recommended that HUD require The Lending Company to (1) indemnify
HUD against losses for the 725 FHA-insured loans with an unallowable gift in the amount of $97.3 million,
thereby putting an estimated loss to HUD of $55.4 million to better use; (2) reimburse the FHA insurance fund
for the losses resulting from the amount of claims and associated expenses paid on 7 loans that contained
an unallowable gift; (3) support or repay the FHA insurance fund nearly $5,500 for the loss mitigation claims
paid as of April 30, 2013, on 7 loans that contained an unallowable gift; (4) reimburse the FHA insurance fund
for the losses resulting from the amount of claims and associated expenses paid on 5 loans with material
underwriting deficiencies; (5) pay down the principal balance by more than $1,100 for the 1 overinsured loan
as a result of an excessive seller contribution; (6) fully implement its quality control plan and provide HUD
with periodic reports for 12 months to ensure that its quality control reviews are conducted in accordance
with HUD requirements; and (7) provide training to ensure that its quality control staff is aware of HUD’s
quality control program requirements. (Audit Report: 2013-LA-1008)



REVIEW OF PROHIBITED RESTRICTIVE COVENANTS
HUD OIG conducted a limited review of FHA loans underwritten by Pulte Mortgage, LLC, in Englewood,
CO, to determine the extent to which Pulte Mortgage failed to prevent the recording of prohibited
restrictive covenants with potential liens in connection with FHA-insured loans closed between January 1,
2008, and December 31, 2011.
     Pulte Mortgage did not follow HUD requirements regarding free assumability and liens when it
underwrote loans that had executed and recorded agreements between Pulte Homes and the FHA
borrower, containing prohibited restrictive covenants and liens in connection with FHA-insured
properties.  As a result of a projection, 1,106 FHA-insured loans (181 claim loans and 925 active loans)
were found with a corresponding prohibited restrictive covenant with a potential lien recorded with
the applicable county recording office, and Pulte Mortgage placed the FHA fund at unnecessary risk for
potential losses.




                                                                                                                         9
SEMIANNUAL REPORT TO CONGRESS




           OIG recommended that HUD determine legal sufficiency and if legally sufficient, pursue civil
       remedies, civil money penalties, or other administrative action against Pulte Mortgage, its principals, or
       both for incorrectly certifying to the integrity of the data or that due diligence was exercised during the
       origination of FHA-insured mortgages.  OIG also recommended that HUD require Pulte Mortgage to (1)
       reimburse the FHA fund for more than $9.9 million in actual losses resulting from the amount of claims
       and associated expenses paid on 82 loans that contained prohibited restrictive covenants and liens, (2)
       support the eligibility of nearly $11.9 million in claims paid or execute an indemnification agreement
       requiring any unsupported amounts to be repaid for claims paid on 99 loans for which HUD has paid
       claims but has not sold the properties, (3) analyze all FHA loans originated (including the 11 active loans
       identified in the sample) or underwritten beginning January 1, 2008, and nullify all active restrictive
       covenants or execute indemnification agreements that prohibit it from submitting claims on those loans
       identified, and (4) follow 24 CFR (Code of Federal Regulations) 203.32 and 203.41 by excluding restrictive
       language and prohibited liens for all new FHA-insured loan originations and ensure that policies and
       procedures reflect FHA requirements. The 11 active loans with prohibited restrictive covenants had a
       total unpaid mortgage balance of more than $2.3 million, which carries a potential loss of more than $1.3
       million that could be put to better use. (Audit Memorandum: 2013-LA-1802)



       HUD OIG conducted a limited review of FHA loans underwritten by CTX Mortgage Company, LLC, in Dallas
       TX, to determine the extent to which CTX Mortgage failed to prevent the recording of prohibited restrictive
       covenants with potential liens in connection with FHA-insured loans closed between January 1, 2008, and
       December 31, 2011. 
           CTX Mortgage did not follow HUD requirements regarding free assumability and liens when it
       underwrote loans that had executed and recorded agreements between sellers and the FHA borrower,
       containing prohibited restrictive covenants and potential liens in connection with FHA-insured
       properties.  As a result of a projection, 683 FHA-insured loans (128 claim loans and 555 active loans)
       were found with a corresponding prohibited restrictive covenant with a potential lien recorded with
       the applicable county recording office, and CTX Mortgage placed the FHA fund at unnecessary risk for
       potential losses.
           OIG recommended that HUD determine legal sufficiency and if legally sufficient, pursue civil
       remedies, civil money penalties, or other administrative action against CTX Mortgage, its principals,
       or both for incorrectly certifying to the integrity of the data or that due diligence was exercised during
       the origination of FHA-insured mortgages.  OIG also recommended that HUD require CTX Mortgage
       to (1) reimburse the FHA fund for the nearly $5.3 million in actual losses resulting from the amount of
       claims and associated expenses paid on 51 loans that contained prohibited restrictive covenants and
       potential liens, (2) support the eligibility of nearly $8 million in claims paid or execute an indemnification
       agreement requiring any unsupported amounts to be repaid for claims paid on 77 loans for which HUD has
       paid claims but has not sold the properties, and (3) analyze all FHA loans originated (including the 8 active
       loans identified in the sample) or underwritten beginning January 1, 2008, and nullify all active restrictive
       covenants or execute indemnification agreements that prohibit it from submitting claims on those loans
       identified.  The eight active loans with prohibited restrictive covenants had a total unpaid mortgage
       balance of nearly $1.6 million, which carries a potential loss of more than $892,000 that could be put to
       better use. (Audit Memorandum: 2013-LA-1803)




10
                                                                                     CHAPTER ONE SINGLE-FAMILY PROGRAMS




HUD OIG conducted a limited review of HUD’s oversight of loans underwritten by HUD-approved FHA
lenders to summarize recently completed OIG external audits and determine the extent to which HUD had
identified and discouraged prohibited restrictive covenant agreements.
    Seven audits of six FHA lenders demonstrated that HUD needs to strengthen its oversight of prohibited
restrictive covenants in connection with FHA-insured properties. HUD has regulations in place to prevent
prohibited restrictions on conveyance of FHA-insured properties; however, 4 recent OIG audits, 2 of
which are mentioned above, found an estimated 2,479 loans with prohibited restrictive covenants. As a
result, FHA insured ineligible loans and incurred unnecessary losses. With the six lenders reviewed, OIG
identified more than $67 million in potential losses that would not have otherwise occurred, putting the
FHA fund at unnecessary risk.
    OIG recommended that HUD (1) reinforce its regulatory requirements concerning restrictive covenant
agreements to the industry, including lenders and builders; (2) develop and implement specific review
procedures to identify prohibited restrictive covenants during Homeownership Center loan reviews
and provide education to Homeownership Center personnel to reiterate the importance of identifying
the various types of prohibited restrictive covenant agreements; (3) develop and implement specific
procedures detailing penalties and corrective actions that can be applied consistently to each violating
lender and builder; and (4) develop and implement procedures for tracking loans identified with prohibited
restrictive covenants, including the type of restriction. (Audit Memorandum: 2013-LA-0803)



REVIEW OF THE PREFORECLOSURE SALE PROGRAM
HUD OIG audited the FHA Preforeclosure Sale Program claim process to determine whether HUD paid
ineligible preforeclosure sale claims that did not meet the net sales proceeds requirements.
    FHA paid preforeclosure sale claims that did not meet the sales proceeds criteria and were, therefore,
not eligible. Of 95 claims reviewed, paid from September 1, 2011, through November 30, 2012, 47 did
not meet the minimum net sales proceeds criteria or were approved based upon variances without a
documented justification. A projection of these results showed that HUD paid an estimated $404 million
in claims for 4,457 preforeclosure claims that did not meet the Program requirements. Sales proceeds were
deficient in these cases by an estimated amount of $8.62 million.
    OIG recommended that HUD (1) design and implement controls to ensure that lenders comply with
the Program’s minimum sales proceeds requirements to put nearly $6.9 million to better use, (2) evaluate
the risk associated with HUD’s claim system controls over data reasonableness and consider additional
measures to address this risk, (3) immediately discontinue the practice of approving variance requests
without a valid documented justification, and (4) design and implement controls to evaluate the quality
of preforeclosure sale claim property valuations and detect or prevent possible Program abuse involving
undervaluation. (Audit Report: 2013-LA-0002)



HUD OIG audited the Utah Housing Corporation in West Valley City, UT, to determine whether the
Corporation properly determined that borrowers were eligible to participate in FHA’s Preforeclosure Sale
Program. 
    The Corporation did not always properly determine that borrowers were eligible to participate in the
Program.  Of the 39 preforeclosure sales reviewed, it inappropriately approved 3 borrowers who had more
than one FHA-insured loan and 2 borrowers who did not meet the definition of facing imminent default




                                                                                                                    11
SEMIANNUAL REPORT TO CONGRESS




       at the time of approval.  Additionally, the Corporation did not independently verify expenses used in the
       financial analysis of these 5 borrowers plus an additional 32 borrowers.  As a result, the FHA insurance
       fund paid out more than $213,000 for ineligible claims, $1.5 million for unsupported claims, and $37,000 for
       inappropriate lender incentive fees.
           OIG recommended that HUD (1) require the Corporation to reimburse HUD for the five claims
       paid totaling more than $213,000 and the associated $5,000 in lender incentive fees received, (2) review
       for Program eligibility the 32 claims paid without proper support totaling more than $1. 5 million and
       require the Corporation to reimburse HUD for those without support plus the associated $32,000 in lender
       incentive fees received, and (3) require the Corporation to develop and implement policies and procedures
       to ensure proper determination of borrower eligibility before approval for the Program. (Audit Report:
       2013-DE-1001)



       REVIEW OF FHA DEFAULT DATA
       HUD OIG audited HUD’s Office of Single Family Housing to determine whether it had effective controls in
       place to ensure that lenders reported default information on FHA-insured loans accurately and in a timely
       manner.
           HUD did not have effective controls to ensure that lenders reported default information accurately and
       in a timely manner. HUD’s controls included only minimal system error codes; basic monitoring of error
       code rates, nonreporting, and underreporting; and lender servicing reviews examining a sample of default
       information at selected lenders. HUD also did not have an adequate penalty process in place to deter future
       issues. As a result, the default data were not always accurate and timely.
           OIG recommended that HUD (1) develop and implement a data management policy outlining detailed
       procedures for review of the default data; (2) resume reviews of the default data; (3) implement additional
       system error checks; and (4) implement a progressive penalty process for pursuing administrative action
       against lenders that fail to report, underreport, and submit inaccurate or unsupported data. (Audit Report:
       2013-KC-0003)



       CORRECTIVE ACTION VERIFICATION OF THE UNDERWRITING REVIEW OF 15 LENDERS
       HUD OIG completed a corrective action verification of a recommendation made to HUD, pertaining to
       OIG’s underwriting review of 15 FHA lenders in Audit Memorandum 2011-CF-1801, issued March 2, 2011, to
       determine whether HUD had appropriately implemented corrective actions to close recommendation 1A.
       The audit memorandum contained the following recommendation for HUD’s Deputy Assistant Secretary of
       Single Family Housing:


           1A. Develop and implement procedures to review a statistical or risk-based selection of loans for which
           FHA paid a claim on the mortgage insurance within the first two years of endorsement, to verify that
           the loans met FHA requirements and were qualified for insurance. These procedures should include a
           requirement for HUD to seek appropriate civil and administrative remedies to recover losses incurred
           on loans not qualified for FHA insurance. 




12
                                                                                       CHAPTER ONE SINGLE-FAMILY PROGRAMS




    In response to recommendation 1A, HUD’s management decision stated that it would alter its claim
case selection tool to select all loans for which FHA paid a claim on the mortgage insurance within the first
24 months from the beginning amortization date. HUD stated that its Quality Assurance Division personnel
would review these loans to ensure that each loan was underwritten in compliance with FHA requirements
and was eligible for FHA insurance endorsement. Any material violation of FHA requirements would result in
an indemnification request or referral to the Mortgagee Review Board for imposition of civil money penalties
or other administrative action.
    HUD had not adequately implemented corrective action to close recommendation 1A of Audit
Memorandum 2011-CF-1801. Specifically, (1) HUD’s claim case selection tool did not select all claims for
review, (2) HUD did not have adequate systems in place for tracking the status of the claim file review and
indemnification requests, and (3) HUD did not review loans in a timely manner.
    OIG recommended that HUD reopen Audit Memorandum 2011-CF-1801 recommendation 1A in HUD’s
Audit Resolution Corrective Action Tracking System and that it remain open until fully implemented.
(Audit Memorandum: 2013-LA-0804)




                                                                                                                      13
SEMIANNUAL REPORT TO CONGRESS




       INVESTIGATION

         PROGRAM RESULTS

         ADMINISTRATIVE-CIVIL ACTIONS                            79

         CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                   89

         FINANCIAL RECOVERIES                                    $75,614,318




       PRISON SENTENCE FOR REAL ESTATE BROKER IN $2 MILLION SCHEME
       A former real estate broker was sentenced to 37 months in prison and ordered to pay more than $2.3 million
       in restitution, including $1.7 million restitution to HUD, for his involvement in a scheme to defraud financial
       institutions. The defendant recruited buyers to obtain mortgages; directed those buyers to provide false
       information on mortgage loan applications to include fraudulent pay stubs, Internal Revenue Service Forms
       W-2, gift letters, and verification of employment forms; and arranged for the fraudulent verification of the
       false information. The scheme involved more than 30 mortgage loans, and the defendant received substantial
       monetary payments in return for recruiting buyers. The investigation was initiated after a referral from HUD’s
       Quality Assurance Division and was conducted jointly with the Federal Housing Finance Agency (FHFA) OIG
       and the U.S. Postal Inspection Service (USPIS). (St. Louis, MO)



       COUNSELOR USED REVERSE MORTGAGES TO SCAM ELDERLY
       The owner of an unapproved housing counseling service was sentenced to 5 months home confinement
       and 24 months probation and ordered to pay $68,889 in restitution after an earlier guilty plea for false
       statements. Using her counseling service, the defendant recruited seniors for the purpose of initiating home
       equity conversion mortgage (HECM) transactions. The defendant would then manipulate the seniors into
       placing second deeds on their properties, which would allow the counselor to fraudulently obtain the reverse
       mortgage proceeds intended for the seniors. This investigation was conducted jointly with USPIS and the
       Federal Bureau of Investigation (FBI). (Memphis, TN)



       REALTER INCARCERATED FOR UNDISCLOSED KICKBACKS
       The owner of a South Florida real estate brokerage company devised a scheme to bolster her own
       commissions by obtaining fraudulent employment documents to qualify borrowers and concealing a
       system of “incentive payments” between the sellers and buyers in property transactions. The defendant was
       sentenced in U.S. District Court to 24 months incarceration and 60 months supervised release and ordered to
       pay $397,162 in restitution to HUD. (Lehigh Acres, FL)



       NY REAL ESTATE BROKER SENTENCED TO 70 MONTHS IN PRISON FOR FRAUD
       A real estate broker pled guilty and was sentenced to 70 months incarceration and 36 months supervised
       release, ordered to pay more than $1.5 million in restitution to HUD, and ordered to forfeit more than $7.5




14
                                                                                       CHAPTER ONE SINGLE-FAMILY PROGRAMS




million for orchestrating a multimillion-dollar scheme to fraudulently “flip” distressed properties. From
March 2008 through December 2011, the defendant purchased distressed properties, resold the properties
through his real estate business at inflated prices, and assisted unqualified FHA borrowers by extinguishing
the borrowers’ debts to make them appear more creditworthy. In a parallel civil suit, the defendant was
ordered to pay $2.2 million in damages and a $500,000 civil monetary penalty. (New York, NY)



REAL ESTATE INVESTOR SENTENCED
A real estate investor was sentenced to 1 year in prison and 2 years supervised release and ordered to pay
$425,845 in restitution, including $92,187 to HUD, for her part in multiple mortgage frauds. She was also
suspended from participation in procurement and nonprocurement transactions as a participant or principal
with HUD and throughout the Executive Branch of the Federal Government. The defendant participated in
a scheme to purchase foreclosed-upon properties, obtain inflated appraisals, and resell those properties to
unqualified borrowers using 17 fraudulently obtained mortgage loans totaling more than $1 million. The
defendant also used an inflated appraisal to place a false lien against one property to fraudulently obtain
$50,000 in proceeds from a HECM loan. The investigation led to the arrest and conviction of multiple
individuals in both related and unrelated schemes, including a prominent local attorney, who was charged
with money laundering. (Kansas City, KS)



MORTGAGE COMPANY MANAGER SENTENCED TO 48 MONTHS IN PRISON
A former mortgage company manager was sentenced to 48 months incarceration and ordered to pay $451,805
in restitution to HUD for his part in a conspiracy to defraud mortgage lenders. The defendant falsified
information on mortgage loan applications and created fraudulent documentation to obtain mortgage
loans for unqualified borrowers, which generated thousands of dollars in commissions for himself and his
employees. The investigation was conducted jointly with FHFA OIG and the Federal Deposit Insurance
Corporation OIG. (Allentown, PA)



HUD COUNSELOR IMPERSONATOR DEFRAUDS DISTRESSED HOMEOWNERS
A Los Angeles resident, who falsely claimed to be a HUD counselor associated with a legitimate HUD
counseling agency, was sentenced to 2 years incarceration and ordered to pay $357,177 to the victims of
the scheme. The defendant operated a business and a Web site to solicit homeowners in distress who
sought assistance with modifying their mortgages. The defendant then charged the distressed homeowners
advance fees for services not rendered. An immigration detainer has also been placed on the defendant for
deportation proceedings and possible removal from the United States. This investigation was conducted
jointly with the California Department of Justice and California State Franchise Tax Board. (Los Angeles, CA)



TELEMARKETING FIRM DEFRAUDS CLIENTS
The owner of a mortgage loan modification telemarketing business, tasked with helping homeowners modify
their mortgages and avoid foreclosure, was sentenced to 57 months incarceration and 36 months supervised
release and ordered to pay more than $1.1 million in restitution to victimized homeowners. Between 2009 and
2011, an estimated 124 distressed homeowners seeking assistance from the Home Affordable Modification




                                                                                                                      15
SEMIANNUAL REPORT TO CONGRESS




       Program were defrauded and forced to pay advance fees with little or no service provided. This investigation
       was conducted jointly with USPIS. (San Diego, CA)



       ST. LOUIS MAN USED REVERSE MORTGAGE TO DEFRAUD ELDERLY WOMAN
       A former loan officer pled guilty to one count of conspiracy to commit wire fraud for his role in a mortgage
       fraud scheme. As a loan officer, he conspired with other loan officers, loan processors, and underwriters
       to submit fraudulent employment information on at least 44 unqualified borrowers to make them appear
       qualified for FHA-insured mortgages. Many of those mortgages went into default after the borrowers failed to
       pay the mortgages, resulting in a loss of more than $5.7 million to HUD. (Miami, FL)



       MORTGAGE FRAUD FUGITIVE BROUGHT TO JUSTICE
       A St. Louis resident was sentenced to 18 months in prison and 3 years probation and ordered to pay $89,245 in
       restitution for fraudulently obtaining a HECM loan on an elderly woman’s property and stealing the proceeds.
       HUD OIG received a referral from the office of Senator Claire McCaskill, indicating that in approximately July
       2008, the defendant befriended the elderly woman to gain her confidence, then accessed her bank accounts
       and obtained a HECM loan on her residence. The investigation revealed that the defendant informed the
       mortgage company that he was using the HECM proceeds to pay for home rehabilitation and living expenses
       for the victim, but he used more than $70,000 for his own purposes, including an automobile and illegal drugs.
       The defendant was also convicted of theft of Supplemental Security Income benefits. This investigation was
       conducted jointly with the Social Security Administration OIG, FHFA OIG, and USPIS. (St. Louis, MO)




16
                                                                                    CHAPTER TWO PUBLIC AND INDIAN HOUSNG PROGRAMS




          TWO         PUBLIC AND INDIAN HOUSNG
                      PROGRAMS



The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to more than
4,100 public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
programs. HUD also provides assistance directly to PHAs’ resident organizations to encourage increased resident
management entities and resident skills programs. Programs administered by PHAs are designed to enable low-
income families, the elderly, and persons with disabilities to obtain and reside in housing that is safe, decent,
sanitary, and in good repair. Some of the highlights from this semiannual period are noted below.


AUDIT


STRATEGIC INITIATIVE 2: CONTRIBUTE TO THE REDUCTION OF ERRONEOUS
PAYMENTS IN RENTAL ASSISTANCE


  KEY PROGRAM RESULTS                          25 audits3

  QUESTIONED COSTS                             $63,272,668

  FUNDS PUT TO BETTER USE                      $13,217,874



PUBLIC HOUSING
HUD’s Office of Inspector General (OIG), audited the Harris County Housing Authority in Houston, TX,
to determine whether the Authority’s procurement, expenses, and financial records complied with HUD’s
requirements.
     The Authority’s management and board of commissioners failed to establish a control environment
designed to provide reasonable assurance that the Authority complied with Federal requirements.  They
failed to enact policies and procedures to ensure the integrity of financial operations and compliance with
procurement requirements.  They neglected their management and oversight responsibilities; wasted
Authority funds, at times for personal gain; circumvented existing internal controls; and manipulated
accounting records.  As a result, the Authority incurred questioned costs of more than $27 million.  Further,
the Authority’s former executive director and board put the Authority in a precarious financial position, and

3 The total public and Indian Housing audits, questioned costs, and funds put to better use amounts include any American
  Recovery and Reinvestment Act of 2009 (seven audits) type audits conducted in the public and indian housing area. The
  writeups for these audits may be showin in chapter 5 of this semiannual report.




                                                                                                                              17
SEMIANNUAL REPORT TO CONGRESS




       the Authority did not have sufficient funds to repay a $3.8 million debt to HUD.  In addition, the Authority did
       not maintain accounting records that supported its sources and uses of funds or justified accounting entries
       in its books and records.
           OIG recommended that HUD (1) determine whether the Authority is in significant default of its annual
       contributions contract, (2) take appropriate administrative actions against the Authority’s former executive
       director and board members responsible for the mismanagement, and (3) require the Authority to repay $4.5
       million in ineligible costs and support or repay more than $23 million in questioned costs. (Audit Report: 
       2013-FW-1006)



       HUD OIG audited the public housing program of the Stark Metropolitan Housing Authority in Canton,
       OH, to determine whether the Authority followed HUD’s requirements and its own policies regarding the
       administration of its program.
           The Authority inappropriately used public housing operating and capital funds to pay ineligible expenses
       for its commercial development and two nonprofit developments.  Further, it did not (1) support that public
       housing operating and capital funds used to pay expenses such as salaries, utilities, and maintenance
       costs for its developments were from fees earned by its cost center for managing its projects or engaging in
       business activities; (2) charge and collect appropriate market rent from its developments; and (3) ensure that
       it obligated capital funds for eligible expenditures.  As a result, HUD and the Authority lacked assurance that
       more than $10.5 million in public housing operating and capital funds was used to benefit low- and moderate-
       income residents and more than $320,000 was available for eligible public housing purposes. 
           Additionally, the Authority inappropriately executed an oil and gas lease that encumbered project assets
       without HUD’s approval.  It received proceeds from the agreement.  HUD lacked assurance that its interests in
       the Authority’s project assets were protected.
           OIG recommended that HUD require the Authority to (1) reimburse its operating and capital fund more
       than $6.3 million from non-Federal funds for its inappropriate use of the funds, (2) support its use of funds
       to pay expenses for its developments or reimburse its operating and capital fund nearly $4.2 million from
       non-Federal funds, (3) charge and collect more than $263,000 in appropriate market rents, (4) deobligate
       more than $57,000 in capital funds used for ineligible expenditures, and (5) support that more than $356,000
       in proceeds was not derived from the encumbrance of public housing property.  HUD should also consider a
       declaration of substantial default based on the issues cited. (Audit Report: 2013-CH-1003)



       HUD OIG audited the Jefferson County Housing Authority in Wheat Ridge, CO, to determine whether the
       Authority followed HUD disposition procedures and used its sales proceeds properly.
           The Authority did not follow required disposition procedures and did not use its sales proceeds properly.
       It did not follow HUD procedures regarding the sale requirements, the use of sales proceeds, the distribution
       of the remaining project reserves, the placement of Section 8 tenants, the reporting of its use of sales proceeds,
       and the sale of units to an affiliated nonprofit entity.
           OIG recommended that HUD require the Authority to (1) recover more than $6.4 million in ineligible
       costs associated with its disposition process from non-Federal sources, (2) place the correct number of




18
                                                                             CHAPTER TWO PUBLIC AND INDIAN HOUSNG PROGRAMS




Section 8 tenants into units purchased, (3) submit required reports, and (4) implement conflict-of-interest
restrictions. In addition, OIG recommended that HUD refer the Authority to the Departmental Enforcement
Center for appropriate administrative and civil actions if necessary. (Audit Report: 2013-DE-1005)



HUD OIG audited the Philadelphia Housing Authority in Philadelphia, PA, to determine whether the
Authority complied with Federal lobbying disclosure requirements and restrictions.
    The Authority engaged in the prohibited practice of using Federal funds for lobbying; however, a former
executive director, whose employment was terminated effective September 23, 2010, certified that it did not
do so. The former executive director also falsely certified on at least five occasions that the Authority did not
use non-Federal funds for lobbying activities.
    OIG recommended that HUD pursue remedies under the Program Fraud Civil Remedies Act and take
administrative action up to and including debarment against the Authority’s former executive director for
falsely certifying to HUD that the Authority did not participate in lobbying activities. OIG also recommended
that HUD ensure that responsible Authority officials are formally trained in lobbying disclosure requirements
and restrictions and that all future HUD monitoring of the Authority covers compliance with Federal lobbying
disclosure requirements and restrictions. (Audit Memorandum: 2013-PH-1803)



HUD OIG audited HUD’s oversight of its Moving to Work Demonstration program to determine whether HUD
had implemented adequate program controls to effectively monitor participant agencies’ performance and
ensure that they met statutory program goals and requirements.
    HUD had implemented program monitoring procedures; however, its program oversight was inadequate
because it had not (1) implemented programwide performance indicators, (2) evaluated agencies’ programs
according to its policy, (3) evaluated agencies’ compliance with key statutory requirements, (4) verified
agencies’ self-reported performance data, and (5) performed required annual program risk assessments. As
a result, HUD was unable to demonstrate program results. Also, HUD had limited ability to assess agencies’
compliance with statutory program goals and lacked assurance that agencies met key statutory requirements.
    OIG recommended that HUD establish and implement policies to improve its administration of the
program and ensure that agencies meet statutory goals and requirements before further program expansion.
(Audit Report: 2013-PH-0004)



SECTION 8 HOUSING CHOICE VOUCHER PROGRAM
HUD OIG audited the Housing Choice Voucher program of the Charleston-Kanawha Housing Authority in
Charleston, WV, to determine whether the Authority ensured that its program units met HUD housing quality
standards and whether it applied the appropriate payment standard when calculating housing assistance. 
    The Authority did not conduct adequate inspections to ensure that its program units met housing quality
standards as required.  Of 66 program units inspected, 47 did not meet HUD’s housing quality standards. 
Further, 20 of the 47 units were in material noncompliance with housing quality standards.  The Authority
disbursed more than $22,000 in housing assistance payments and received nearly $900 in administrative fees
for these 20 units.
    Also, the Authority did not always apply the correct payment standard when calculating housing
assistance payments.  From September 2012 to January 2013, it made ineligible housing assistance payments




                                                                                                                       19
SEMIANNUAL REPORT TO CONGRESS




       totaling nearly $15,000 for 34 tenants that it recertified using a new software program. 
           OIG recommended that HUD require the Authority to (1) reimburse its program from non-Federal funds
       for the 20 units that materially failed to meet HUD’s housing quality standards; (2) implement procedures and
       controls to ensure that program units meet housing quality standards, thereby ensuring that an estimated $3.2
       million in program funds is expended for units that are decent, safe, and sanitary; (3) reimburse its program
       from non-Federal funds for the ineligible overpayment of housing assistance; and (4) correct the flaw in its
       software program to ensure that the payment standard is properly determined to avoid making overpayments
       of more than $228,000 in future housing assistance. (Audit Report: 2013-PH-1005)



       HUD OIG audited HUD’s Housing Choice Voucher program to determine whether HUD’s guidance for
       optimizing and stabilizing housing choice voucher utilization had been implemented effectively by field
       offices and public housing agencies.
           HUD officials had generally implemented the guidance for optimizing and stabilizing housing choice
       voucher utilization through HUD’s utilization protocol.  However, some utilization protocol controls had
       not been implemented.  In addition, opportunities existed to strengthen controls to ensure stable optimal
       utilization.
           OIG recommended that HUD (1) implement procedures outlining the responsibilities and expectations
       of each person involved in the improvement of utilization performance, (2) develop procedures that would
       require providing concise information to public housing agencies regarding their utilization performance
       issues, (3) establish procedures requiring that information affecting utilization performance be accessible to
       the HUD field officials responsible for analyzing utilization performance, (4) establish procedures to address
       public housing agencies that fail to improve their utilization performance, and (5) ensure that HUD officials
       receive and analyze utilization information in a timely manner. (Audit Report: 2013-NY-0002)



       HUD OIG audited HUD’s Housing Choice Voucher program to determine whether oversubsidization
       continued to exist in the program.
           HUD had made progress in reducing oversubsidization in the Housing Choice Voucher program, but the
       problem continued to exist. Of 100 households reviewed, 13 were oversubsidized. As a result, an estimated
       $1.1 million in excess subsidy payments was not available for other households seeking housing choice
       voucher assistance.
           OIG recommended that HUD provide guidance to PHAs on the data analytic tools available and the
       specific procedures to help detect and monitor oversubsidized households, improper payment standards, and
       reporting errors to put these funds to better use. (Audit Report: 2013-KC-0005)




20
                                                                           CHAPTER TWO PUBLIC AND INDIAN HOUSNG PROGRAMS




INVESTIGATION

 PROGRAM RESULTS

  ADMINISTRATIVE-CIVIL ACTIONS                            56

  CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                   103

  FINANCIAL RECOVERIES                                    $3,906,288



FORMER NEWARK POLICE OFFICER IMPRISONED FOR SECTION 8 FRAUD
A former Newark, NJ, police officer was sentenced to 3 months incarceration and 24 months supervised
release and ordered to pay $60,000 in restitution to HUD for theft of Section 8 rental assistance from the
Newark Housing Authority. From 2006 through 2011, the defendant leased property to a Section 8 tenant and
concealed that he and the Section 8 tenant were married and resided together. (Newark, NJ)



CHELSEA HOUSING EXECUTIVE DIRECTOR SENTENCED TO PRISON
The former executive director of the Chelsea Housing Authority was sentenced to 36 months incarceration,
followed by 24 months supervised release, and ordered to pay a $4,000 fine. The defendant had previously
pled guilty to falsifying reports to HUD and the Massachusetts Department of Housing and Community
Development to conceal his inflated salary. This investigation was conducted jointly with the Federal Bureau
of Investigation (FBI), the Massachusetts State Police, and the Massachusetts Office of Inspector General.
(Boston, MA)



AFTER FEDERAL TRIAL, DEVELOPER CONVICTED OF EMBEZZLEMENT
The owner of a property development company that received HUD Indian Housing Block Grant funds
from the Navajo Housing Authority was convicted on two counts of embezzlement from an Indian tribal
organization. Between June 2002 and November 2006, the defendant misapplied and converted funds for his
own use from the Fort Defiance Housing Corporation, a subrecipient of Indian Housing Block Grant funds
through the Authority, a Navajo Indian tribal organization. The defendant assumed control of the Corporation
and submitted grant payment requests to the Authority for specific construction costs. He then used the
money, approximately $2 million, for personal expenses, including gambling and thoroughbred racehorse
training. (Las Vegas, NV)



HOUSING AUTHORITY DIRECTOR SENTENCED FOR KICKBACK SCHEME
The former operations director of the North Bergen Housing Authority was sentenced to 46 months
incarceration and 36 months supervised release after entering a plea of guilty to extorting maintenance
workers under contract to the Authority. Between February 2008 and June 2011, workers were compensated
for approximately 80 days of unauthorized vacation, and the defendant falsified records and required the
workers to return a portion of their unauthorized compensation to him.  HUD suffered a loss of $12,498 from the
scheme. This investigation was conducted jointly with the FBI and the U.S. Attorney’s Office.  (Essex County, NJ)




                                                                                                                     21
SEMIANNUAL REPORT TO CONGRESS




               THREE         MULTIFAMILY HOUSING PROGRAMS




       In addition to multifamily housing developments with U.S. Department of Housing and Urban Development
       (HUD)-insured mortgages, the Department owns multifamily projects acquired through defaulted mortgages,
       subsidizes rents for low-income households, finances the construction or rehabilitation of rental housing, and
       provides support services for the elderly and handicapped. Some of the highlights from this semiannual period
       are shown below.


       AUDIT


       STRATEGIC INITIATIVE 2: CONTRIBUTE TO THE REDUCTION OF ERRONEOUS
       PAYMENTS IN RENTAL ASSISTANCE


         KEY PROGRAM RESULTS                          8 audits4

         QUESTIONED COSTS                             $4,054,081

         FUNDS PUT TO BETTER USE                      $31,148,477



       OVERSIGHT OF SUBSIDIZED PROPERTIES
       HUD’s Office of Inspector General (OIG) audited the multifamily project-based Section 8 program for new-
       regulation projects administered by the Michigan State Housing Development Authority in Lansing, MI, to
       determine whether the Authority administered its program in accordance with HUD’s requirements.
           The Authority did not comply with HUD’s requirements regarding the administration of its multifamily
       project-based Section 8 program for new-regulation projects. Specifically, it failed to use program residual
       receipts to reduce or offset housing assistance payments for new-regulation projects. As a result, nearly $31.6
       million in unused or excess project funds was not available for HUD to offset future subsidy expenditures.
           The Authority did not remit unused or excess funds upon termination of the housing assistance payments
       contracts for three new-regulation projects. As a result, more than $1.2 million in unused or excess project
       funds was not available for HUD to achieve program savings.


       4 The total multifamily audits, questioned costs, and funds put to better use amounts include any American Recovery and
         Reinvestment Act of 2009 (one audit) type audits conducted in the multifamily area. The writeups for these audits may be
         shown in chapter 5 of this semiannual report.




22
                                                                                CHAPTER THREE MULTIFAMILY HOUSING PROGRAMS




The Authority inappropriately disbursed replacement reserves for four projects. As a result, more than
$290,000 was not available to benefit its multifamily projects. Further, its projects lost more than $175,000 in
interest income.
    OIG recommended that HUD require the Authority to (1) ensure that program residual receipts are
used instead of seeking unnecessary housing subsidies, (2) reimburse HUD and the U.S. Treasury for the
projects with terminated program contracts, (3) reimburse its project’s escrow accounts for the inappropriate
disbursements of replacement reserves, and (4) implement adequate controls to address the findings cited.
(Audit Report: 2013-CH-1011)



HUD OIG audited HUD’s servicing of multifamily projects with HUD-held mortgages to determine whether
HUD (1) obtained, documented, and reviewed monthly accounting reports and (2) collected monthly net cash
payments from multifamily projects that required these submissions.
    HUD did not always obtain, document, and review monthly accounting reports for projects with
defaulted Federal Housing Administration (FHA)-insured mortgages that were assigned to HUD and projects
with defaulted Section 202 direct loans made by HUD.  For monthly accounting reports that were obtained,
HUD staff lacked the knowledge and expertise needed to adequately review the reports.  HUD also did not
ensure that projects remitted net cash after the mortgage default and after HUD accepted a full or partial
assignment of the FHA-insured mortgage.  Inadequate monitoring of these projects increased the risk of loss
to the FHA insurance fund.
    OIG recommended that HUD (1) ensure that it has controls in place to follow the requirements regarding
obtaining and documenting the receipt and review of monthly accounting reports, (2) provide its staff with
training on the monthly accounting report review process and analysis, (3) ensure that projects remit monthly
net cash, and (4) follow HUD requirements regarding net cash remittance. (Audit Report: 2013-LA-0001)




                                                                                                                      23
SEMIANNUAL REPORT TO CONGRESS




       INVESTIGATION

        PROGRAM RESULTS

         ADMINISTRATIVE-CIVIL ACTIONS                            9

         CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                   32

         FINANCIAL RECOVERIES                                    $2,063,483




       HOUSING PROJECT BOOKKEEPER GETS 30 MONTHS FOR EMBEZZLEMENT
       The former bookkeeper of a HUD Section 202 (Supportive Housing for the Elderly) housing project was
       sentenced to 30 months incarceration and ordered to pay $654,193 in restitution to HUD after an earlier guilty
       plea for embezzlement. From 2005 through 2012, the defendant forged the executive director’s signature
       and fraudulently issued checks totaling $654,193 to herself from the housing project’s accounts. She also
       attempted to conceal the thefts by altering and falsifying bank statements by cutting and pasting vendor
       checks on top of the checks she wrote to herself and making counterfeit copies of the bank statements,
       which were submitted to the board of directors for review. This investigation was conducted jointly with the
       Mayfield Heights, OH, Police Department. (Cleveland, OH)



       PROPERTY OWNER AND HUD OFFICIAL INCARCERATED IN BRIBERY CASE
       The owner of a multifamily housing project and the former director of HUD’s Office of Multifamily Housing,
       St. Louis field office, were sentenced to prison for their roles in a bribery scheme. The housing project owner
       and a partner paid bribes totaling approximately $38,000 to the HUD official in exchange for the HUD official’s
       approving a loan and increasing loan amounts. The HUD official underwrote and processed the loan after
       a private lender could not recommend approval of the loan; directed HUD staff to sign certain documents
       necessary for the loan to proceed to him for approval; approved a waiver allowing the use of letters of credit
       in lieu of a cash downpayment, which the coconspirators did not have; and waived certain inspections of
       the property. The housing project owner was sentenced to 6 months incarceration and 6 months home
       confinement and ordered to pay $96,996 in restitution. The former HUD official was sentenced to 18 months
       incarceration. (Saint Louis, MO)




24
                                                                      CHAPTER FOUR COMMUNITY PLANNING AND DEVELOPMENT PROGRAMS




         FOUR         COMMUNIT Y PL ANNING AND
                      DEVELOPMENT PROGRAMS



The Office of Community Planning and Development (CPD) seeks to develop viable communities by promoting
integrated approaches that provide decent housing, suitable living environments, and expanded economic
opportunities for low- and moderate-income persons. The primary means toward this end is the development
of partnerships among all levels of government and the private sector. Some of the highlights from this
semiannual period are shown below.


AUDIT


STRATEGIC INITIATIVE 3: CONTRIBUTE TO THE STRENGTHENING OF COMMUNITIES


  KEY PROGRAM RESULTS                       25 audits5

  QUESTIONED COSTS                          $33,617,497

  FUNDS PUT TO BETTER USE                   $55,572,809



The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), audited
the Community Development Block Grant (CDBG) program, the HOME Investment Partnerships Program
(HOME), and economic development programs. While OIG’s objectives varied by auditee, the majority of
the reviews were to determine whether the grant funds were administered for eligible activities and that the
auditee met program objectives.




5 The total CPD audits, questioned costs, and funds put to better use amounts include any American Recovery and
  Reinvestment Act of 2009 (eight audits) and disaster recovery (two audits) type audits conducted in the CPD area. The
  writeups for these audits may be shown in chapters 5 and 6 of this semiannual report.




                                                                                                                           25
SEMIANNUAL REPORT TO CONGRESS




       COMMUNITY DEVELOPMENT BLOCK GRANT PROGRAMS
       HUD OIG audited HUD’s monitoring of grantee compliance with the CDBG timeliness spending requirement
       and found that HUD’s guidance for ensuring compliance with the CDBG timeliness spending requirement
       was not always implemented effectively by local HUD offices.  In addition, HUD officials did not adequately
       document their rationale for not sanctioning untimely grantees. As a result, more than $8.3 million in CDBG
       funds that could have been reduced from the following year’s funding of 10 untimely grantees was not. 
           OIG recommended that HUD (1) strengthen controls over procedures relating to the HUD Entitlement
       Communities Division monthly timeliness report, (2) strengthen CDBG timeliness spending grantee
       notification procedures to ensure that the notification of new untimely grantees becomes a higher priority,
       (3) establish procedures requiring documentation of its rationale for not sanctioning grantees not complying
       with the CDBG timeliness spending requirement, and (4) establish procedures pertaining to grantees that
       minimally do not comply with the timeliness spending requirement. (Audit Report: 2013-NY-0003)



       HUD OIG audited the City of Worcester, MA’s administration of its CDBG program and found that the City
       did not properly administer its CDBG program.  Specifically, it did not (1) ensure that costs paid for under
       the City’s affordable housing, public service, and code enforcement activities were eligible and supported; (2)
       document or show that a national objective was met for several of the activities reviewed; (3) ensure that the
       public service cap of 15 percent was not exceeded; and (4) ensure that the contracted CDBG revolving loan
       fund was administered effectively and efficiently and in accordance with HUD regulations.  As a result, the
       City paid more than $2.2 million in ineligible costs and more than $4 million in unsupported costs and must
       reallocate more than $153,000 in unexpended CDBG funds to other eligible CDBG activities. 
           OIG recommended that HUD instruct the City to (1) repay more than $1.9 million in CDBG program
       funds that was expended for ineligible activities and the more than $298,000 that was expended over the
       CDBG 15 percent public service cap, (2) provide documentation to support that CDBG program funds were
       expended for eligible activities and used for eligible loans that met a national objective, and (3) reallocate the
       unexpended funds to be used for other eligible CDBG activities. (Audit Report: 2013-BO-1002)



       HUD OIG audited the City of Auburn, NY’s CDBG program and found that City officials (1) were slow in
       expending the City’s revolving loan funds and maintained an excessive balance of program income, (2) made
       unnecessary draws from the City’s CDBG entitlement funding, (3) had weaknesses in accounting controls
       related to the City’s revolving loan program income accounts, and (4) did not report program income to HUD
       accurately or in a timely manner. City officials also did not always (1) maintain sufficient documentation to
       support that all CDBG-funded activities met their stated objectives and that costs were eligible, (2) perform
       adequate monitoring or oversight of the funded activities, and (3) fully use the available funds for program
       administration.
           OIG recommended that HUD instruct City officials to (1) expend more than $2.4 million in CDBG
       program income or reprogram the funds to other eligible program activities, (2) provide documentation to
       support the nearly $178,000 shortage in program income or repay any unsupported amount from non-Federal
       funds, (3) provide documentation to justify more than $949,000 in unsupported costs and repay any amount
       determined to be ineligible from non-Federal funds, and (4) establish and implement controls and procedures
       to ensure the proper administration of the program. (Audit Report: 2013-NY-1010)




26
                                                              CHAPTER FOUR COMMUNITY PLANNING AND DEVELOPMENT PROGRAMS




HUD OIG audited the City of Hawthorne, CA’s CDBG and CDBG-Recovery Act (CDBG-R) program and found
that the City did not adequately support its cost allocations to its CDBG program activities in accordance
with applicable HUD rules and requirements. It was unable to properly support more than $1.6 million in
employee salaries allocated to its CDBG program activities, incurred more than $34,000 in ineligible CDBG
program costs, and incurred nearly $13,000 in unsupported CDBG program expenses. No issues were
identified regarding the City’s use of its CDBG-R program funds.
    OIG recommended that HUD require the City to (1) provide adequate support for the salary costs or repay
the CDBG program from non-Federal funds, (2) repay the program for the ineligible administration expenses
from HOME funds, (3) provide support for the unsupported administration costs or repay the program from
HOME funds, (4) develop written policies and procedures for its salary and administrative allocation, and (5)
provide training to CDBG employees on program requirements. (Audit Report: 2013-LA-1010)



HOME INVESTMENT PARTNERSHIPS PROGRAM
HUD OIG audited Essex County, NJ’s HOME program and found that the County’s HOME program was
not always administered in compliance with program requirements. Specifically, (1) HOME funds were
not always committed and expended in a timely manner as required, (2) program income was not always
expended or reported properly, (3) HOME funds were expended on ineligible and unsupported costs, and
(4) HOME match contribution funds were ineligible and from unsupported sources. Consequently, (1)
nearly $857,000 was not committed and expended as required, (2) nearly $64,000 in program income was
not recorded in Integrated Disbursement and Information System (IDIS), (3) more than $73,000 and more
than $66,000 in the HOME funds were expended on ineligible and unsupported activities, respectively,
(4) more than $1,500 was paid by HOME tenants in excess of HOME low-rent limits, (5) more than $1.1
million in entitlement funds drawn down was unsupported based upon ineligible match contributions,
and (6) ineligible match contributions of more than $16 million were reported that could be used for future
drawdowns of HOME entitlement funds.
    OIG recommended that HUD recapture the funds that were not committed and expended as
required and instruct County officials to (1) record the unrecorded program income, (2) reimburse the
HOME program for ineligible disbursements, (3) reimburse tenants of HOME-assisted units, (4) provide
documentation for unsupported costs and drawdowns, and (5) remove the ineligible reported match
contributions. (Audit Report: 2013-NY-1009)



HUD OIG audited the HOME program of the Puerto Rico Housing Finance Authority in San Juan, PR, and
found that the Authority did not support $18.4 million in HOME commitments with a valid grant agreement,
did not disburse more than $284,000 in HOME funds within HUD-established timeframes, and could
not account for more than $89,000 in program funds.  In addition, it did not report program income and
recaptured funds to HUD in a timely manner and reported other inaccurate information concerning HOME-
funded activities.  As a result, HUD had no assurance that the Authority met HOME program commitment
and disbursement requirements.
    OIG recommended that HUD require the Authority to (1) demonstrate that HOME commitments are
properly supported or deobligate, reprogram, and put to better use the unexpended commitments with




                                                                                                                   27
SEMIANNUAL REPORT TO CONGRESS




       expired grant agreements; (2) put to better use more than $153,000 in unexpended funds maintained in its
       local bank account; (3) remit to its treasury account nearly $131,000 in repayment funds; (4) support the
       unaccounted for program income and recaptured funds; and (5) develop and implement an internal control
       plan to ensure that only supported and accurate information is reported to HUD. (Audit Report: 2013-AT-
       1006)



       HUD OIG audited the HOME program of the County of Santa Barbara, CA, and found that the County
       demonstrated that expenditures totaling more than $3.9 million related to rental housing project costs were
       eligible and adequately supported.  However, it incurred more than $3.5 million in unsupported and ineligible
       HOME costs.  In addition, it did not perform the required monitoring of its community housing development
       organizations or conduct required onsite inspections of its HOME-funded rental housing properties. 
           OIG recommended that HUD require the County to (1) support more than $3.1 million in expenses
       or repay the program; (2) repay more than $444,000 in ineligible expenses from non-Federal sources; and
       (3) update and implement its written monitoring, record-keeping, and payment processing policies and
       procedures as well as controls to ensure compliance with required HOME program rules and requirements.
       (Audit Report: 2013-LA-1007)



       HUD OIG audited the Nassau County, NY, Office of Community Development’s administration of its HOME
       program and found that County officials did not commit HOME funds in accordance with HUD rules and
       regulations, disburse HOME funds for eligible activities, and use HOME funds for eligible administrative
       and planning costs.  Specifically, they (1) did not provide adequate supporting documents showing that all
       funds were appropriately committed, (2) charged ineligible and unsupported costs to the program, (3) had
       weaknesses in their administrative controls, (4) did not monitor subrecipients and home buyers, and (5)
       published inaccurate criteria on the County’s HOME Web site. Consequently, HUD could not be assured that
       the County properly committed more than $2.3 million HOME funds for fiscal years 2009 and 2010, disbursed
       more than $269,000 in HOME expenditures, and administered its HOME program in accordance with
       requirements.
           OIG recommended that HUD instruct County officials to (1) provide documentation to justify nearly
       $191,000 in unsupported administrative, planning, and project delivery costs; (2) reimburse from non-
       Federal funds nearly $79,000 for ineligible home-buyer rehabilitation and demolition costs; (3) provide
       contracts to support commitments of more than $2.3 million in HOME funds; (4) strengthen administrative
       and monitoring controls; and (5) ensure that accurate information is posted to its program Web sites. (Audit
       Report: 2013-NY-1006)




28
                                                               CHAPTER FOUR COMMUNITY PLANNING AND DEVELOPMENT PROGRAMS




HUD OIG audited the City of West Palm Beach, FL’s HOME program and found that the City did not always
administer its HOME program in accordance with applicable HUD requirements. Specifically, it did not
properly commit HOME funds or accurately report activity information in IDIS. This deficiency resulted in
more than $559,000 in HOME funds not being properly committed because activities were committed after
the 24-month deadline, and two activities totaling $1 million were canceled, but the funds were not made
available for other eligible HOME activities.
    In addition, the City did not ensure that it charged adequately supported and eligible expenditures to
the program. These expenditures were related to project delivery and operating costs. As a result, the City
charged the HOME program more than $1.2 million in unsupported costs and nearly $230,000 in ineligible
costs.
    OIG recommended that HUD require the City to (1) recapture more than $559,000 in HOME funds that
it did not commit by the 24-month statutory deadline, (2) reprogram more than $988,000 in canceled activity
funds and determine whether nearly $12,000 drawn down was for eligible expenditures, (3) provide support
or reimburse its program for the unsupported $1.2 million in expenditures from non-Federal funds, and (4)
reimburse nearly $230,000 ineligible costs from non-Federal funds. (Audit Report: 2013-AT-1008)



HUD OIG audited the City of Hawthorne, CA, and found that the City used nearly $1.6 million of its 2004 and
2005 HOME funds for ineligible activities, which were not repaid to the HOME program. It informed HUD
that it would use the funds for various items, including a HOME tenant-based rental program; however, it
used its HOME funds to cover shortfalls in Section 8 rental assistance payments. Although no HOME funds
were used for the Section 8 program in later years, the City had not developed written policies and procedures
for its HOME program.
    OIG recommended that HUD require the City to (1) repay the HOME program account for ineligible
HOME funds that were used for Section 8 housing assistance payments and (2) develop and implement
written policies and procedures for the HOME program. (Audit Report: 2013-LA-1009)



ECONOMIC DEVELOPMENT PROGRAMS
HUD OIG audited HUD’s controls over the Brownfield and Round II Empowerment Zone programs and
found that HUD did not have adequate procedures to ensure the effectiveness of its Brownfield Economic
Development Initiative. It did not fully implement plans to improve monitoring and did not identify and
terminate in a timely manner projects that grantees did not start. As a result, the Brownfield program was
not always effective. In addition, HUD unnecessarily delayed returning at least $22.4 million in unneeded
Brownfield funds to the U.S. Treasury and needs to return an additional $5.16 million for projects that
grantees did not start.




                                                                                                                    29
SEMIANNUAL REPORT TO CONGRESS




           HUD’s Round II Empowerment Zone Performance Measurement System (PERMS) contained
       unsupported and inaccurate program results. Grantees generally could not support economic development
       results and some expense eligibility, and one inaccurately reported a program achievement. As a result, for
       the three grantees reviewed, HUD could not rely on grantee-submitted PERMS information for determining
       the effectiveness of the program, and grantees could not support nearly $2.2 million in expenses.
           OIG recommended that HUD (1) clarify requirements and responsibilities for reporting and monitoring
       Brownfield project performance and progress, (2) identify and terminate Brownfield projects that grantees
       did not start and return the unneeded funds to the U.S. Treasury, and (3) require Columbia-Sumpter County,
       SC, and Miami-Dade County, FL, to support their Round II Empowerment Zone expenses or repay the U.S.
       Treasury from non-Federal funds. (Audit Report: 2013-AT-0003)




30
                                                              CHAPTER FOUR COMMUNITY PLANNING AND DEVELOPMENT PROGRAMS




INVESTIGATION

 PROGRAM RESULTS

  ADMINISTRATIVE-CIVIL ACTIONS                          19

  CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                 20

  FINANCIAL RECOVERIES                                  $2,739,681



FORMER NONPROFIT DIRECTOR SENTENCED FOR $1 MILLION THEFT
The former executive director of a Maine nonprofit was sentenced to 30 months incarceration for embezzling
from the agency he oversaw. The agency received approximately $30 million in Federal funds, including more
than $1 million in HUD funds from the Neighborhood Stabilization Program and the Housing Choice Voucher
program. The defendant was also sentenced to 36 months supervised release and ordered to pay restitution
in the amount of more than $1.3 million to the nonprofit and its insurers. This investigation was conducted
jointly with the U.S. Department of Health and Human Services OIG, the U.S. Department of Agriculture
OIG, the U.S. Department of Transportation OIG, and the Internal Revenue Service’s Criminal Investigation
Division (IRS-CID). (Portland, ME)



FORMER BAYOU LA BATRE MAYOR SENTENCED FOR CORRUPTION
The former mayor of Bayou La Batre, AL, was sentenced to 15 months incarceration and 36 months supervised
release and ordered to pay $27,300 in restitution to the Federal Emergency Management Agency (FEMA) after
being convicted on fraud and corruption charges. While mayor of Bayou La Batre, the defendant corruptly
influenced the city’s use of FEMA funds to purchase a property in which he had a financial interest. The
defendant was previously indicted for obstructing and impeding HUD OIG auditors attempting to review the
defendant’s interference in the administration of more than $36.7 million in CDBG funds. This investigation
was conducted jointly with the Federal Bureau of Investigation (FBI) and the Alabama Attorney General’s
Office. (Mobile, AL)



FORMER NASSAU COUNTY OFFICIAL SENTENCED TO PRISON FOR THEFT
The former fiscal manager for the Nassau County Office of Housing and Community Development was
sentenced to 18 months incarceration and 36 months supervised release and ordered to pay $122,250 in
restitution.  The defendant pled guilty to theft of government funds after orchestrating a scheme in which
he created a fictitious landlord with no tenant to pay himself $5,000 per month in rental subsidy payments
intended for low-income families. This investigation was conducted jointly with the U.S. Attorney’s Office of
the Eastern District of New York. (Central Islip, NY)




                                                                                                                   31
SEMIANNUAL REPORT TO CONGRESS




       PRISON TERM FOR NEW YORK CITY OFFICIAL IN BRIBERY CASE
       The former director of construction services for the New York City Department of Housing Preservation and
       Development was sentenced to 18 months incarceration and 36 months supervised release and ordered to
       pay a $5,000 fine and $30,000 in restitution to the City of New York for his guilty plea to bribery charges. From
       2007 through 2009, the defendant received $30,000 in bribes from a construction contractor in exchange
       for providing the contractor confidential Department inspection reports. This investigation was conducted
       jointly with the New York City Department of Investigation, the FBI, the U.S. Department of Labor OIG, and
       IRS-CID. (Brooklyn, NY)




32
                                                               CHAPTER FIVE AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009




        FIVE       AMERICAN RECOVERY AND
                   REINVESTMENT ACT OF 2009



The U.S. Department of Housing and Urban Development (HUD) has received $13.61 billion in funding under
the American Recovery and Reinvestment Act of 2009 (ARRA) in several housing program areas. Table 1 shows
the HUD program areas receiving funding and the amounts appropriated to each program.


AUDIT


TABLE 1: HUD PROGRAMS RECEIVING ARRA FUNDING

HUD PROGRAM OFFICE                 PROGRAM AREA                                       FUNDING AMOUNT

                                   Public Housing Capital Fund                            $4,000,000,000
Office of Public and Indian
Housing
                                   Native American Housing Block Grant                      $510,000,000


                                   Community Development Block Grant                      $1,000,000,000

                                   Neighborhood Stabilization Program                     $2,000,000,000
Office of Community Planning
and Development                    HOME Investment Partnerships Program-Tax               $2,250,000,000
                                   Credit Assistance Program

                                   Homelessness Prevention Fund                           $1,500,000,000


                                   Assisted Housing Stability Grant                       $2,000,000,000
Office of Multifamily Housing
                                   Green Retrofit Grant                                    $250,000,000

Office of Healthy Homes and        Lead Hazard Reduction
                                                                                           $100,000,000
Lead Hazard Control                Demonstration Program

                                                                                          $13,610,000,000




                                                                                                                      33
SEMIANNUAL REPORT TO CONGRESS




       OFFICE OF AUDIT ACTIVITIES
       The Office of Audit’s overall oversight objectives for HUD funding under ARRA are to determine whether


         •	 Funds are awarded and distributed in a prompt, fair, and reasonable manner;
         •	 The recipients and uses of all funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner;
         •	 Funds are used for authorized purposes, and instances of fraud, waste, error, and abuse are mitigated;
         •	 Projects funded under ARRA avoid unnecessary delays and cost overruns; and
         •	 Program goals are achieved, including specific program outcomes and improved results on broader
           economic indicators.


       In the prior semiannual reporting periods, HUD’s office of Inspector General (OIG) reviewed HUD’s front-
       end risk assessments, audited HUD’s formula allocation dictated in ARRA programs, assessed the capacity
       of selected grantees to effectively administer ARRA funds, and assessed grantee expenditures and HUD’s
       oversight activities. During this semiannual reporting period, our audits continue to focus on grantee
       expenditures and HUD’s oversight activities.



       STRATEGIC INITIATIVE 3: CONTRIBUTE TO THE STRENGTHENING OF COMMUNITIES


         KEY PROGRAM RESULTS                          18 audits6

         QUESTIONED COSTS                             $63,257,081

         FUNDS PUT TO BETTER USE                      $863,436



       OFFICE OF FAIR HOUSING AND EQUAL OPPORTUNITY AUDIT
       HUD OIG audited HUD’s oversight of Section 3 of the Housing and Urban Development Act of 1968 to
       determine whether HUD enforced the requirements of the Section 3 program for ARRA Public Housing
       Capital Fund recipients.
           HUD did not enforce the reporting requirements of the Section 3 program for ARRA Public Housing
       Capital Fund recipients.  Specifically, HUD failed to collect Section 3 summary reports from all housing
       authorities by the required deadline and verify their accuracy and did not sanction housing authorities that
       failed to submit the required reporting information.  As a result, 1,650 housing authorities did not provide
       HUD and the general public with adequate employment and contracting information.
           OIG recommended that HUD (1) implement the new Section 3 summary reports submission and tracking
       system, (2) establish procedures to follow up on missing and inaccurate information in Section 3 summary
       reports, (3) publish final regulations, (4) require housing authorities to support $26 million in payments,
       (5) establish policies and procedures that implement a system of escalating administrative measures to
       be applied against housing authorities that do not submit a Section 3 summary report, and (6) establish a
       methodology to incorporate Section 3 compliance into risk assessments. (Audit Report:  2013-KC-0002)


       6 The total ARRA-related audits consist of community planning and development, public and Indian housing, multifamily, and
         other audits. The questioned costs and funds put to better use amounts relate only to ARRA-related costs.




34
                                                                     CHAPTER FIVE AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009




OFFICE OF HEALTHY HOMES AND LEAD HAZARD CONTROL AUDITS AND REVIEWS
HUD OIG audited the City of Spokane, WA’s Lead-Based Paint Hazard Control program funded by ARRA
to determine whether the City complied with procurement, matching, and reporting requirements when
executing its grant. 
        The City failed to ensure cost reasonableness for four lead hazard control contracts.  In addition, it did
not maintain adequate records of its matching contributions, nor did it accurately report the final total
expenditure amount, the number of jobs created, and the amount of its vendor payments in FederalReporting.
gov. 
        OIG recommended that HUD require the City to (1) conduct cost analyses for the four contracts totaling
more than $1.1 million and reimburse any unsupported amount, (2) support more than $426,000 in eligible
matching funds or return almost $1.4 million in grant funds, (3) make the necessary changes to the reported
final total expenditure and final vendor payment figures, and (4) obtain training on HUD’s procurement and
matching requirements. (Audit Report: 2013-SE-1003)



OFFICE OF PUBLIC AND INDIAN HOUSING AUDITS AND REVIEWS
HUD OIG audited the Housing Authority of the City of El Paso, TX, to determine whether the Authority
properly (1) obligated and spent its formula ARRA grant funds, (2) obtained its formula ARRA contracts, and
(3) reported results in an accurate and timely manner.
        The Authority (1) improperly obligated ARRA funds totaling nearly $2.68 million after the statutory
obligation deadline; (2) properly spent the remainder of the funds, which totaled nearly $10 million, by the
statutory expenditure deadline; (3) improperly documented its bid evaluations of and may have improperly
obtained 11 roofing contracts totaling nearly $5.87 million; and (4) properly reported its Recovery Act results
accurately and in a timely manner.
        OIG recommended that HUD require the Authority to (1) repay the improperly obligated ARRA funds to
the U.S. Treasury or provide eligible costs that it obligated and expensed before the deadlines and (2) support
or repay the ARRA funds used for the 11 contracts that it did not show were properly procured. (Audit Report: 
2013-FW-1004)



HUD OIG audited the Public Housing and ARRA Capital Fund programs administered by the Lowell Housing
Authority in Lowell, MA, including its force account activities, to determine whether the Authority (1)
administered its force account modernization program in accordance with HUD rules and regulations and (2)
followed HUD procurement regulations and its own procurement policy.
        The Authority did not always operate its force account modernization program in compliance with HUD
regulations. In addition, Authority officials did not always follow proper procurement procedures. As a result,
more than $6.7 million in Federal capital funds and $2.5 million in ARRA funds expended for the force account
program were unsupported. Further, Authority officials could not assure HUD that their procurement process
was fair and equitable and that they obtained the most favorable prices or best quality for items totaling more
than $2.2 million, including nearly $263,000 in ARRA funds charged to Federal programs.
        OIG recommended that HUD require Authority officials to (1) conduct an independent cost analysis for
each of the 14 force account activities for which the Authority failed to perform initial cost estimates and (2)
maintain construction records and modernization files to ensure that the capital and ARRA funds charged
to Federal programs were reasonable and supported. In addition, OIG recommended that Authority officials




                                                                                                                            35
SEMIANNUAL REPORT TO CONGRESS




       conduct a review to determine whether the procurement costs charged to the Public Housing and ARRA
       Capital Fund programs were reasonable and supported. (Audit Report: 2013-BO-1003)



       OFFICE OF COMMUNITY PLANNING AND DEVELOPMENT AUDITS AND REVIEWS
       COMMUNITY DEVELOPMENT BLOCK GRANT-RECOVERY
       HUD OIG audited the City of San Bernardino, CA’s Community Development Block Grant (CDBG) and
       CDBG-Recovery Act (CDBG-R) programs to determine whether the City administered its CDBG and CDBG-R
       program funds in accordance with applicable HUD requirements.
           The City did not operate in accordance with HUD rules and regulations.  It used nearly $48,000 in CDBG
       funds for ineligible expenditures and lacked supporting documentation for more than $7.1 million.  The
       City also did not report nearly $169,000 in program income and did not adequately support its procurement
       activities for nearly $952,000 in ARRA funds it received.
           OIG recommended that HUD require the City to (1) repay the ineligible expenses from non-Federal
       sources, (2) support the unsupported expenses or repay the program, (3) remit the unreported program
       income, and (4) demonstrate the reasonableness of the ARRA funds used in the procurement of two contracts. 
       OIG also recommended that HUD pursue civil remedies, civil money penalties, or other administrative action,
       as appropriate, against the City for intentionally not reporting CDBG program income.  (Audit Report: 2013-
       LA-1004)



       NEIGHBORHOOD STABILIZATION PROGRAM
       HUD OIG audited the City of Santa Ana, CA’s Neighborhood Stabilization Program 2 (NSP2) to determine
       whether the City administered its program funds in accordance with applicable HUD rules and requirements;
       specifically, whether the City administered its program to ensure that funds were used for eligible activities.
           The City did not administer its NSP2 funds to meet the objectives of ensuring that funds were used
       for eligible activities and returning single-family homes to productive use according to HUD rules and
       requirements.  The City incurred more than $1 million in costs that were either ineligible or could have been
       better used to maximize its program.  Specifically, it reimbursed its developer more than $669,000 in NSP2
       funds for ineligible costs and at least $375,000 for unnecessary bank charges.
           OIG recommended that HUD require the City to (1) repay nearly $670,000 in ineligible costs; (2) establish
       and implement more effective policies, procedures, and controls for its program; and (3) ensure that all City
       personnel who review and monitor NSP2 activities are trained to identify questioned costs. (Audit Report:
       2013-LA-1006)



       HOMELESSNESS PREVENTION AND RAPID RE-HOUSING PROGRAM
       HUD OIG audited Supportive Housing Program and ARRA Homelessness Prevention and Rapid Re-Housing
       Program grants administered by Community Advocates in Milwaukee, WI, to determine whether Community
       Advocates properly administered its Supportive Housing Program and ARRA grants in accordance with HUD,
       ARRA, and its own requirements.
           Community Advocates did not properly administer its Supportive Housing Program and ARRA grant
       funds. Specifically, it did not (1) ensure that Supportive Housing Program funds were used for eligible
       activities and (2) maintain documentation to support required match contributions. It also failed to maintain




36
                                                             CHAPTER FIVE AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009




a financial management system that separately tracked the source and application of ARRA funds and lacked
sufficient documentation to support the allocation of operating costs. As a result, HUD and Community
Advocates lacked assurance that more than $1.7 million in funds for Community Advocates’ Supportive
Housing Program and ARRA grants were used in accordance with Federal requirements.
    OIG recommended that HUD require Community Advocates to (1) provide supporting documentation
or reimburse HUD more than $632,000 from non-Federal funds and (2) provide supporting documentation
or reimburse HUD nearly $1.1 million for transmission to the U.S. Treasury. OIG further recommended that
HUD ensure that Community Advocates implements adequate procedures and controls to address the issues
identified. (Audit Report: 2013-CH-1008)




                                                                                                                    37
SEMIANNUAL REPORT TO CONGRESS




       INVESTIGATION

       COLUMBUS URBAN LEAGUE EMPLOYEE GUILTY OF FRAUD AND THEFT
       The former director of education services at the Columbus Urban League pled guilty to bank fraud and
       aggravated identity theft. From 2004 to 2010 the League received $1.2 million in HUD CDBG funds, including
       ARRA funds earmarked for the Community Outreach Program and Education Program. During that time, the
       defendant prepared false invoices, which purported that contractors had performed work for the League, and
       intercepted payment checks, which had been prepared for those contractors. The defendant diverted payments
       totaling $85,181 into his own accounts. This investigation was worked jointly with the U.S. Department of Labor
       OIG and the Columbus, OH, Police Department. (Columbus, OH)




38
                                                                                          CHAPTER SIX DISASTER RELIEF PROGRAMS




          SIX        DISASTER RELIEF PROGRAMS




As a result of the high number of disasters, Congress has regularly provided supplemental appropriations through
the U.S. Department of Housing and Urban Development’s (HUD) Community Development Block Grant (CDBG)
program to help communities recover from natural and man-made disasters. HUD has used the CDBG program
because it is a flexible program that allows CDBG Disaster Recovery grants to address a wide range of challenges.
Over the past several years, disaster funding for HUD has exceeded $35 billion. These active disaster grants
nationwide have approximately $30.1 billion in obligations and $24 billion in disbursements.


AUDIT


A breakdown is provided as follows:


  •	 Of the total $16 billion ($15.18 billion after sequester) that was provided for Superstorm Sandy, $5.9 billion
    has been allocated for the recovery area, and approximately $1.2 billion has been obligated, with $190.7
    million disbursed for the period ending September 30, 2013.
  •	 Of the $19.6 billion that was provided for Hurricanes Katrina, Rita, and Wilma, $17.9 billion, or 91 percent
    of the funds, has been disbursed for the period ending September 30, 2013.
  •	 Of the $6.1 billion that was provided for Hurricanes Ike, Gustav, and Dolly, $2.8 billion, or 45 percent of the
    funds, has been disbursed for the period ending September 30, 2013.
  •	 Of the $3.4 billion provided for the “9-11” disaster in New York, $2.97 billion, or 86 percent, has been
    disbursed for the period ending September 30, 2013.
  •	 Of the $795 million remaining for all other active disasters, $261 million, or 33 percent of the funds, has
    been disbursed for the period ending September 30, 2013.



In the wake of the Superstorm Sandy, HUD’s Office of Inspector General (OIG) received $10 million from
the Sandy Emergency Supplemental appropriation for the necessary costs of overseeing and auditing the
disaster funds made available. Superstorm Sandy was the deadliest and most destructive hurricane of the
2012 Atlantic hurricane season, as well as the second costliest hurricane in U.S. history. As a result, Sandy
was blamed for at least 181 deaths in the United States, including 68 in New York and 71 in New Jersey, and
property damages estimated at $65 billion.
    Keeping up with communities in the recovery process can be a challenging position for HUD. HUD OIG




                                                                                                                          39
SEMIANNUAL REPORT TO CONGRESS




       continues to take steps to ensure that the Department remains diligent in assisting communities with their
       recovery efforts.
           Despite the substantial loss of life and significant property damage caused by Superstorm Sandy, recovery
       programs were slow to get up and running. Even with these delays, HUD OIG’s Office of Audit has been
       diligent in its oversight responsibilities regarding the Sandy Disaster Recovery programs. The Office of Audit
       has held two strategic planning meetings, participated in a HUD-sponsored disaster training program, held
       an in-house disaster training course for auditors involved in disaster reviews, performed auditability surveys
       on six Sandy grantees, and started a congressionally requested review of the Marketing and Tourism program
       in New Jersey. It has two ongoing audits of other disaster grantees (one in the State of Texas and one in Joplin,
       MO) and is in the process of starting three additional audit reviews, two in the State of New Jersey and one in
       the State of New York. These jobs will start in November 2013.



       STRATEGIC INITIATIVE 3: CONTRIBUTE TO THE STRENGTHENING OF COMMUNITIES


         KEY PROGRAM RESULTS                        2 audits7

         QUESTIONED COSTS                           $0

         FUNDS PUT TO BETTER USE                    $0



       HUD OIG audited the State of Iowa’s monitoring of the City of Cedar Rapids’ voluntary property acquisition
       program to determine whether the State monitored the City’s program in accordance with its approved
       Disaster Recovery action plans.
           The State did not monitor the City’s voluntary property acquisition program in accordance with its
       approved Disaster Recovery action plans.  Its monitoring checklists did not include all of its procurement
       requirements, such as cost reasonableness and all required contract provisions.
           OIG recommended that HUD require the State to update its monitoring checklists to include elements
       of 24 CFR (Code of Federal Regulations) 85.36(f) and all of the required contract provisions found at 24 CFR
       85.36(i). (Audit Report: 2013-KC-1002)



       HUD OIG audited the Lower Manhattan Development Corporation’s (LMDC) administration of the $2.783
       billion in CDBG Disaster Recovery Assistance funds awarded to the State of New York in the aftermath of the
       September 11, 2001, terrorist attacks on the World Trade Center in New York City, NY.  The objective of this
       audit was to determine whether LMDC officials (1) disbursed CDBG Disaster Recovery Assistance funds in
       accordance with the guidelines established under HUD-approved partial action plans for the Community
       and Cultural Enhancements, East Side K-8 School, and Other World Trade Center Area Improvements; (2)
       maintained a financial management system that adequately safeguarded the funds and prevented misuse;
       and (3) had a plan for the allocated program funds that remained unspent. 




       7 The disaster grant program reviews are community planning and development audits.




40
                                                                                    CHAPTER SIX DISASTER RELIEF PROGRAMS




    LMDC (1) generally disbursed CDBG Disaster Recovery Assistance funds in accordance with the
guidelines established under the HUD-approved partial action plans and applicable laws and regulations
for the programs subject to OIG’s review, (2) had a financial management system in place that adequately
safeguarded funds and prevented misuse, and (3) had a plan for the allocated program funds that remained
unspent.
    OIG made no recommendations, and no further action is needed. (Audit Report: 2013-NY-1008)




                                                                                                                    41
SEMIANNUAL REPORT TO CONGRESS




       INVESTIGATION

       The Office of Investigation (OI) investigates allegations of fraud involving HUD disaster program funds and
       conducts oversight throughout the funding process to deter fraud.



       FRAUD AWARENESS AND PREVENTION
       OI coordinates training for local, State, and Federal oversight entities to include law enforcement, prosecutors,
       State licensing entities, insurance companies, and other oversight organizations.


         •	 Fraud awareness and prevention training is provided to grant administrators, grantees, and subgrantees.
         •	 OI works with partners to provide public education for disaster victims.
         •	 In conjunction with the U.S. Department of Justice (DOJ), OI uses the National Center for Disaster Fraud
           (NCDF) to prepare fraud awareness campaigns to educate the public about potential suspicious activity
           and to monitor reports to the NCDF hotline. This activity includes the use of posters, flyers, mailings, and
           television and bill board advertisements.
         •	 OI provides guidance to HUD and grantees on legal warnings to be incorporated into grant documents to
           deter potential fraud.



       INVESTIGATING ALLEGATIONS OF FRAUD
       Investigating allegations of fraud starts immediately after funding has been obligated and continues for
       years after the final disbursement of disaster funding. OI works with its law enforcement partners to ensure
       vigorous oversight of the funds and pursue criminal or civil prosecutions when merited. These funds will be
       used by individual grant recipients as well as many public officials, subgrantees, and contractors. Experience
       has shown that there are vulnerabilities in all areas of disaster grant funding that may be subject to fraud.
       These investigations can be fairly straightforward or extremely complex.
           Successful fraud prevention starts through coordination with OI’s partners. OI has worked extensively
       with others in the OIG community to avoid conflict and ensure cooperation in all of its endeavors. A majority
       of fraud allegations come through the OIG fraud hotline and DOJ NCDF. OI provides onsite resources to
       NCDF to coordinate any HUD-related information that comes through its hotline. Specifically, it has a special
       agent and a forensic auditor in Baton Rouge, LA, assigned to NCDF to evaluate incoming fraud leads. OI also
       works with private monitors and oversight entities that grantees hire to ensure that they look at the areas
       that OI has identified as being most vulnerable and report any fraud concerns that they detect. OI dedicates
       significant resources to the investigation of these allegations. The appropriate investigative technique is
       determined by the nature of the allegation. If warranted, OI’s investigative work is referred to Federal, State, or
       local prosecutors for consideration of criminal or civil action.




42
                                                                           CHAPTER SEVEN OTHER SIGNIFICANT AUDITS AND INVESTIGATIONS




        SEVEN         OTHER SIGNIFICANT AUDITS
                      AND INVESTIGATIONS



AUDIT

STRATEGIC INITIATIVE 4: CONTRIBUTE TO IMPROVING HUD’S EXECUTION
OF AND ACCOUNTABILITY FOR FISCAL RESPONSIBILITIES AS A RELEVANT AND
PROBLEM-SOLVING ADVISOR TO THE DEPARTMENT


  KEY PROGRAM RESULTS                          13 audits8

  QUESTIONED COSTS                             $29,037,233

  FUNDS PUT TO BETTER USE                      $1,983,773


The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General’s (OIG) more
significant audits are discussed below.



REVIEW OF LEAD HAZARD CONTROL
HUD OIG conducted a limited scope internal review of the Office of Healthy Homes and Lead Hazard Control
to determine whether Healthy Homes allowed excessive administrative costs to be charged to the Lead-Based
Paint Hazard Control grant program.  
     Healthy Homes did not have an adequate system in place to ensure that grantees did not spend more
than 10 percent of their Lead Hazard Control grant funds on administrative costs.   As a result, Healthy
Homes lacked assurance that grantees did not charge excessive administrative costs to their Lead Hazard
Control grants. Healthy Homes’ management agreed to strengthen the controls over Lead Hazard Control
administrative costs. 
     OIG recommended that Healthy Homes (1) require grantees to submit, during the Lead Hazard Control
grant negotiations, detailed documentation specifying the types of administrative costs to be charged to the
grant; (2) review administrative costs and other costs charged to the grants for eligibility and appropriateness
during the onsite monitoring; and (3) sample and review HUD’s Line of Credit Control System draws support
for administrative cost eligibility and appropriateness. (Audit Memorandum: 2013-KC-0801).

8 The total “other” audits, questioned costs, and funds put to better use amounts include any American Recovery and
   Reinvestment Act of 2009 (two audits) type audits conducted in the “other” area. The writeups for these audits may be
   shown in chapter 5 of this semiannual report.




                                                                                                                                43
SEMIANNUAL REPORT TO CONGRESS




       REVIEW OF HUD’S OFFICE OF LABOR RELATIONS
       HUD OIG audited the Office of Labor Relations deposit account to determine whether (1) controls used
       to administer and distribute restitution payments were adequate and (2) the correct workers received the
       restitution payments.
           Labor Relations violated the Miscellaneous Receipts Act when it retained liquidated damages, which
       should have been transferred to the U.S. Treasury.  It also indefinitely retained in its deposit account funds
       categorized as unclaimed funds, unfound depositors, and unfound workers.  As a result, more than $1.3
       million in funds was withheld from use by various programs within the Federal Government.
           Labor Relations mismanaged project deposit funds; specifically, it did not conduct a recurring
       reconciliation of the deposit account.  It also expended $20,000 to cover Civic Lofts project payments, which
       was more than the balance for the project deposit.  As a result, its deposit account balance did not reconcile
       with the balance maintained by the Office of the Chief Financial Officer and the Treasury.
           Labor Relations did not (1) pay the Internal Revenue Service (IRS) 2010 taxes withheld from the
       employee’s wage restitution in a timely manner and (2) properly address the employer’s share of the taxes.  As
       a result, it delayed paying the IRS more than $200,000 for the 2010 employee’s share of the taxes and could owe
       the IRS an additional $40,000 for the employer’s share of the taxes.
           Labor Relations found workers that were deceased or incarcerated, and it paid wage restitution to
       individuals other than these workers. As a result, it paid nearly $12,000 to individuals who were not the
       workers.
           OIG recommended that HUD (1) properly dispose of the more than $1.3 million in funds for liquidated
       damages, unclaimed funds, unfound depositors, and unfound workers; (2) develop a policy for workers that
       are found to be deceased or incarcerated and complete a monthly reconciliation; (3) remit employees’ share
       of taxes quarterly; and (4) seek recovery of nearly $12,000 that Labor Relations paid to individuals other than
       workers. (Audit Report: 2013-HA-0001)




44
CHAPTER SEVEN OTHER SIGNIFICANT AUDITS AND INVESTIGATIONS




                                                     45
SEMIANNUAL REPORT TO CONGRESS




               EIGHT         LEGISL ATION, REGUL ATION,
                             AND OTHER DIRECTIVES



       Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part of the
       Office of Inspector General’s (OIG) responsibilities under the Inspector General Act. During this 6-month reporting
       period, OIG has committed approximately 270 hours to reviewing 90 issuances. The draft directives consisted of 6
       notices of funding availability, 60 mortgagee letters and notices, and 24 other directives. OIG provided comments
       on 44 (49 percent) and nonconcurred with 3 of these draft directives. During this 6-month period, OIG reviewed
       and commented on various departmental clearance items. Selected reviews are summarized below.




       NOTICES AND POLICY ISSUANCES

       SINGLE-FAMILY HOUSING
       Reverse mortgage - Through the Reverse Mortgage Stabilization Act of 2013, the Federal Housing
       Administration (FHA) was given the authority to make needed structural changes to the reverse mortgage
       program via mortgagee letter instead of through the lengthy rule-making process. During this semiannual
       period, OIG reviewed mortgagee letters with program changes to stabilize the program and improve the health
       of the Mortgage Mutual Insurance Fund due to significant claims paid out from associated losses. Some of
       these changes included establishing new principal limit factors; requiring property charges to be set aside for
       the payment of mandatory obligations, such as property taxes and flood and hazard insurance; and establishing
       new limitations on the amount of mortgage proceeds that can be advanced at loan closing or during the first
       12-month disbursement period after loan closing. This change was implemented through Mortgagee Letters
       2013-27 and 2013-33.
           In addition, OIG reviewed a mortgagee letter with an attached guide that provided instructions on the
       financial assessment that must be performed on borrowers before approval of an FHA-insured home equity
       conversion mortgage (HECM). The guide provides policy requirements on (1) performing the credit history,
       cash flow, and residual income analyses; (2) evaluating extenuating circumstances and compensating
       factors; (3) evaluating the results of the financial assessment to determine eligibility for the reverse mortgage;
       (4) determining whether funding sources for property charges from HECM proceeds will be required; (5)
       completing a financial assessment worksheet; and (6) verifying information. Mortgagee Letter 2013-28 is
       effective for reverse mortgage case numbers assigned on or after January 13, 2014.




46
                                                                   CHAPTER EIGHT LEGISLATION, REGULATION AND OTHER DIRECTIVES




Loss mitigation - OIG has conducted a number of audits of FHA’s Preforeclosure Sale Program. The audits
identified weaknesses with the Program, namely in the area of participant eligibility and documentation. In
March 2013, the U.S. Department of Housing and Urban Development (HUD) submitted for review a mortgagee
letter establishing updated preforeclosure and deed in lieu of foreclosure requirements. The mortgagee letter
described (1) documentation requirements for verifying assets, income, and expenses; (2) use of the deficit
income test; (3) the elimination of the financial hardship Program requirement for a service member who
has received permanent change of station orders; and (4) validation requirements for appraisals. Mortgagee
Letter 2013-23 was published July 9 with an implementation date no later than October 1, 2013, for approved
preforeclosure transactions. However, Mortgagee Letter 2013-34 announced that the implementation of the
“PFS [Program] participation requirement” in Mortgagee Letter 2013-23 has been delayed until further notice.


Risk management - As part of HUD’s efforts to strengthen the risk management practices of FHA, HUD
published a final rule in 2010, revising its regulations pertaining to FHA approval of mortgage lenders. That
final rule increased the net worth requirement for FHA-approved lenders and mortgagees, eliminated HUD’s
approval of loan correspondents, and amended the general standards for lenders and mortgagees. During the
last semiannual period, OIG reviewed a proposed notice changing the loan-to-value (LTV) financing available
to qualified borrowers of FHA-insured loans. This notice proposes to set a 95 percent maximum LTV for FHA-
insured loans over $625,000, with certain exemptions. FHA’s annual fiscal year 2012 report to Congress on the
financial status of the FHA Mutual Mortgage Insurance Fund reported a decline from fiscal year 2011 in the
Fund’s statutorily mandated capital reserve ratio and cited FHA’s decision to continue taking steps to improve
the Fund’s short- and long-term outlook. This notice requesting comment was published on February 6, 2013;
however, the final implementation notice has not been published.


Underwriting - OIG reviewed a mortgagee letter establishing minimum underwriting standards and criteria for
evaluating borrowers who have experienced an economic event, as defined in the mortgagee letter, that resulted
in a severe reduction in income due to job loss or other circumstances. FHA is allowing for the consideration
of borrowers who have experienced an economic event and can document that (1) certain credit impairments
were the result of the loss of employment or significant loss of household income beyond the borrower’s
control, (2) the borrower has demonstrated full recovery from the event, and (3) the borrower has completed
housing counseling. The guidance in Mortgagee Letter 2013-26, published August 15, 2013, is effective for case
numbers assigned on or after August 15, 2013, through September 30, 2016. During the last semiannual period,
OIG reviewed two proposed mortgagee letters pertaining to updated guidance on underwriting requirements
in handling collection and disputed accounts. The draft mortgagee letters provide requirements for when a
borrower’s collection and disputed accounts are to be included in the calculation of a borrower’s debt-to-income
ratios. Specifically, Mortgagee Letter 2013-24 amended the guidance on collection and disputed accounts and
clarified guidance on judgments. This mortgagee letter was issued on August 15, 2013, and is effective for all case
numbers assigned on or after October 15, 2013. Also, Mortgagee Letter 2013-25 provides updates to chapters 1
and 2 in FHA’s TOTAL Mortgage Scorecard User Guide. This guidance is effective for all case numbers assigned
on or after October 15, 2013.




                                                                                                                         47
SEMIANNUAL REPORT TO CONGRESS




      COMMUNITY PLANNING AND DEVELOPMENT
      HUD published a notice on August 2, 2013, announcing additional guidance for Hurricane Sandy grantees.
      This notice broadened the waiver permitting tourism industry activities for New York to expedite the State’s
      economic recovery efforts. It also allowed the use of uncapped income limits in all of the most impacted
      counties in New Jersey to ensure that low- and moderate-income households in those areas have equal access
      to Disaster Recovery funds.
           Congress mandated changes to the HOME Investment Partnerships Program in the Consolidated and
      Further Continuing Appropriations Act of 2012. The Act requires participating jurisdictions to (1) repay HOME
      funds invested in projects that are not completed within 4 years of the commitment date unless a waiver is
      given by HUD, (2) commit fiscal year 2012 HOME funds only when a project has been properly underwritten
      and market conditions examined to ensure that there is adequate need for the HOME project, (3) convert any
      fiscal year 2012 home-ownership units to HOME-assisted rental units if they are not sold within 6 months, and
      (4) provide fiscal year 2012 HOME funds only to community housing development organizations that have
      demonstrated that they have staff with demonstrated development experience.
           HUD OIG generally agreed with the proposed changes but included additional changes that it believes will
      strengthen the program. On July 24, 2013, HUD published the final rule to amend the HOME program, which
      incorporated the mandated congressional changes.
           On September 28, 2009, OIG issued a report (2009-AT-0001), which stated that HUD’s cumulative
      technique for assessing deadline compliance and a first-in, first-out method for HOME commitments and
      expenditures conflicted with section 218(g) of the HOME Investment Partnership Act, which requires the
      identification of HOME commitments and expenditures by the program funding year to which they relate.
      Section 218(g) requires that grantees commit grant funds under the HOME program within 24 months of
      receipt. HUD compared the cumulative commitment amount with the cumulative allocation amount and
      deemed the jurisdiction compliant with section 218(g) as long as the cumulative commitment amount was
      equal to the cumulative commitment allocation amount. HUD would recapture funds if the cumulative
      commitment amount was less than the cumulative allocation amount. OIG disagreed with this method of
      calculating compliance and in May 2011, requested a decision from the U.S. Government Accountability Office
      (GAO).
           On July 18, 2013, GAO concurred with HUD OIG’s reported findings, and agreed that HUD failed to
      recapture funds not committed by grantees after 24 months and that HUD must take steps to identify and
      recapture funds that remained uncommitted after the statutory commitment deadline and reallocate the
      funds in accordance with the Act.



      OFFICE OF HEALTHCARE PROGRAMS
      On April 30, 2013, HUD issued an amendment to its September 7, 2012, final rule that revised the applicability
      date to July 12, 2013, to allow more time for impacted parties to transition to the new requirements. The final
      rule updated the regulations to reflect current policy and practices, improve accountability, and strengthen
      risk management in the program. This final rule addresses recommendations from an audit report issued in
      2002 (2002-KC-0002). Affected parties recently implemented changes to documents used in the closing of
      Section 232 loans. These changes also resolved recommendations in the 2002 audit report.




48
                                                                                               CHAPTER NINE AUDIT RESOLUTION




           NINE      AUDIT RESOLUTION




In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
Urban Development (HUD) management agree upon needed actions and timeframes for resolving audit
recommendations. Through this process, OIG hopes to achieve measurable improvements in HUD programs
and operations. The overall responsibility for ensuring that the agreed-upon changes are implemented rests with
HUD managers. This chapter describes significant management decisions with which OIG disagrees. It also
contains a status report on HUD’s implementation of the Federal Financial Management Improvement Act of
1996 (FFMIA). In addition to this chapter on audit resolution, see appendix 3, table B, “Significant Audit Reports
for Which Final Action Had Not Been Completed Within 12 Months After the Date of the Inspector General’s
Report.”




AUDIT REPORTS ISSUED BEFORE START OF THE PERIOD
WITH NO MANAGEMENT DECISION AS OF SEPTEMBER 30, 2013

HUD LACKED ADEQUATE CONTROLS TO ENSURE THE TIMELY COMMITMENT AND
EXPENDITURE OF HOME FUNDS, ISSUE DATE: SEPTEMBER 28, 2009
HUD OIG audited HUD’s HOME Investment Partnerships Program (HOME). The OIG report included
a recommendation that the HUD Office of Community Planning and Development (CPD) establish and
implement controls to ensure that field offices require participating jurisdictions to close out future HOME
activities within a timeframe that will permit reallocation and use of the funds for eligible activities in time to
avoid losing them to recapture by the U.S Treasury under provisions of Public Law 101-510. 
    OIG rejected three management decisions proposed by CPD to address the recommendation because
they did not provide for the establishment and implementation of all of the controls that are needed to
address the recommendation. CPD has not responded to OIG’s follow-up about the need for a management
decision for this recommendation.
    OIG also recommended that CPD obtain a formal legal opinion from HUD’s Office of General Counsel
regarding whether


  •	 HUD’s cumulative technique for assessing compliance with commitment deadlines is consistent with and an
    allowable alternative to the 24-month commitment required by 42 U.S.C. (United States Code) 12748 and




                                                                                                                        49
SEMIANNUAL REPORT TO CONGRESS




         •	 HUD’s first-in, first-out (FIFO) method for assessing compliance with HOME expenditure requirements is
           consistent with and an allowable alternative to the 8-year recapture deadline pursuant to Public Law 101-
           510, codified at 31 U.S.C. 1552.


           CPD obtained a legal opinion from the Assistant General Counsel for Community Development on March 5,
       2010. The legal opinion supports the Department’s use of the cumulative approach and FIFO accounting method.
       Based on this legal opinion, CPD does not plan to implement OIG’s recommendation to discontinue use of the FIFO
       method to account for the commitment and expenditure of HOME funds or the cumulative technique for assessing
       deadline compliance.
           OIG requested reconsideration of the opinion. On June 10, 2010, HUD’s General Counsel and Chief Financial
       Officer provided additional information regarding HUD’s recapture requirements of the HOME program statute and
       CPD’s use of cumulative accounting and the FIFO method for financial management.
           HUD explained that CPD’s use of cumulative accounting in its financial management represents a reasonable
       interpretation of the statutory duties imposed on the HUD Secretary and addresses the complex administrative
       challenges inherent in managing the HOME Investment Trust. HUD also explained that obligations and expenditures
       under the HOME program are accounted for on a FIFO basis by fund type instead of by fiscal year and that CPD,
       in enforcing the obligation and expenditure requirements, looks to total cumulative obligations and expenditures
       instead of accounting for them by fiscal year. Based on the Chief Financial Officer’s financial analysis, given the
       origin of these requirements and the fundamental nature of this block grant program, HUD believed that the
       FIFO accounting method for obligations and expenditures by fund type was consistent with Federal accounting
       requirements and had no objection to the total cumulative obligations and expenditures methods used for assessing
       compliance with the 24-month commitment and 5-year expenditure requirements.
           OIG continues to disagree with CPD’s use of the FIFO method for recognizing commitments and expenditures
       that participating jurisdictions make against their HOME appropriations and maintains that CPD’s cumulative
       method for determining recapture amounts is not consistent with the requirement cited at 42 U.S.C. 12748 for
       recapturing funds not committed by statutory deadline dates. The FIFO accounting method understates amounts
       due to be recaptured by Treasury when appropriation accounts are canceled pursuant to 31 U.S.C. 1552. The
       cumulative method potentially understates recaptures that HUD makes pursuant to 42 U.S.C. 12748. OIG submitted
       a request to the U.S. Government Accountability Office (GAO) for an appropriation law opinion on HUD’s use of the
       cumulative method.
           Another issue is whether HUD’s accounting for formula grants (for example, the FIFO accounting method)
       comply with Federal accounting requirements for maintaining the U.S. Standard General Ledger and general
       appropriations law. The accounting issues require review for compliance with Federal accounting standards
       and financial system requirements. Since OIG’s last semiannual report date, GAO has issued an opinion, which
       agreed with OIG’s assessment that HUD’s cumulative method violated statutory requirements, and the Office of
       Management and Budget (OMB) assessed HUD’s FIFO method and agreed with OIG that the method violated Federal
       accounting requirements. Based on prior management decisions between OIG and HUD, HUD has 90 days from
       the date of receipt of GAO and OMB opinions to provide revised management decisions outlining the corrective
       actions that it will take to comply with the opinions that its cumulative and FIFO methods violate statutory or Federal
       accounting requirements. (Audit Report: 2009-AT-0001)




50
                                                                                                  CHAPTER NINE AUDIT RESOLUTION




SHEA MORTGAGE, INC., ALLOWED THE RECORDING OF PROHIBITED RESTRICTIVE
COVENANTS, ISSUE DATE: SEPTEMBER 26, 2012
HUD OIG audited Shea Mortgage’s Federal Housing Administration (FHA) Single Family Housing program to
determine the extent to which Shea Mortgage failed to prevent the recording of prohibited restrictive covenants
or potential liens in connection with FHA-insured loans. Shea Mortgage did not follow HUD requirements at 24
CFR (Code of Federal Regulations) 203.41(a)(3)(iv) and 203.41(b) when it underwrote loans that had executed
and recorded agreements between Shea Homes and the FHA borrower, containing prohibited restrictive
covenants in connection with FHA-insured properties. As a result, 600 uninsurable loans obtained FHA
mortgage insurance (29 claim loans and 571 active loans), placing the FHA insurance fund at unnecessary risk
for potential losses.
    The OIG report included recommendations that the HUD Office of Single Family Housing require Shea
Mortgage to (1) reimburse the FHA insurance fund for nearly $1.5 million in actual losses resulting from the
amount of claims and associated expenses paid on 11 loans that contained prohibited restrictive covenants; (2)
support the eligibility of nearly $2.6 million in claims paid or execute an indemnification agreement requiring
any unsupported amounts to be repaid for claims paid on 19 loans, for which HUD has paid claims but has not
sold the properties; and (3) remove prohibited restrictive language or execute an indemnification agreement
that prohibits it from submitting claims on 27 active loans with prohibited restrictive covenants in the amount of
more than $7.7 million, thereby putting nearly $5.1 million to better use.
    OIG rejected three management decisions proposed by Housing because they were not consistent with
HUD regulations and prior HUD reviews and determinations. OIG has had discussions with Housing regarding
the recommendations in question but has not reached an agreeable management decision.
    Housing explained that, while it agrees that Shea Mortgage permitted antispeculative agreements in the
form of restrictive covenants in violation 24 CFR 203.41(b), it considers the violations technical, not rising to the
level of materiality warranting indemnification. In previous reviews, Housing determined that the presence of
prohibited restrictive covenants is a material statute violation, stating that such properties are “not eligible for
FHA mortgage insurance.” However, Housing does not intend to hold Shea Mortgage accountable for losses
stemming from FHA loans that, by definition, are uninsurable under FHA regulations. Housing believes that
indemnification should be used only for underwriting deficiencies that negatively impact the loan.
    OIG continues to disagree with Housing’s determination that prohibited restrictive covenants do not
warrant indemnification. The use of prohibited restrictive covenants is a systemic, widespread issue that
requires more specific attention. The recommendations in question were based on HUD’s own precedent and
determinations that prohibited restrictive covenants are a serious, material deficiency. The FHA loans identified
in the audit memorandum were determined to be ineligible for FHA insurance; therefore, any loss or claim tied
to the loans identified represents an unnecessary loss to HUD’s FHA insurance fund.
    Another issue is the determination of funds to be put to better use with regard to active loans that were
originated with prohibited restrictive covenants. Housing agreed during initial discussions; however, the
management decision maintained that the amount of funds to be put to better use should be $0. OIG continues
to disagree, explaining that if the lender agrees and provides documentation showing that all unallowable
restrictions have been removed and ensures compliance, the amount of funds to be put to better use of nearly
$5.1 million applies as the corrective action ensures that the loans in question are eligible for FHA insurance and
follow HUD rules and regulations. However, if the lender refuses or fails to adequately remove all unallowable
restrictions, indemnification would be the appropriate remedy, and the potential loss of nearly $5.1 million




                                                                                                                            51
SEMIANNUAL REPORT TO CONGRESS




       would be put to better use as the loans in question would not be supported by FHA mortgage insurance. Both
       issues were referred to the Deputy Secretary on March 16, 2013, and his decision was pending as of September
       30, 2013. (Audit Memorandum: 2012-LA-1801)



       STANDARD PACIFIC MORTGAGE, INC., ALLOWED THE RECORDING OF PROHIBITED
       RESTRICTIVE COVENANTS, ISSUE DATE: FEBRUARY 5, 2013
       HUD OIG audited Standard Pacific’s FHA Single Family Housing program to determine the extent to which
       Standard Pacific failed to prevent the recording of prohibited restrictive covenants or potential liens in
       connection with FHA-insured loans. Standard Pacific did not follow HUD requirements at 24 CFR 203.41(a)
       (3)(iv) and 203.41(b) when it underwrote loans that had executed and recorded agreements between Standard
       Pacific Homes and the FHA borrower, containing prohibited restrictive covenants in connection with FHA-
       insured properties. As a result, 90 uninsurable loans obtained FHA mortgage insurance (28 claim loans and 62
       active loans), placing the FHA insurance fund at unnecessary risk for potential losses.
           The OIG report included recommendations that the HUD Office of Single Family Housing require Standard
       Pacific to (1) reimburse the FHA insurance fund for more than $1.5 million in actual losses resulting from the
       amount of claims and associated expenses paid on 15 loans that contained prohibited restrictive covenants; (2)
       support the eligibility of nearly $1.4 million in claims paid or execute an indemnification agreement requiring
       any unsupported amounts to be repaid for claims paid on 13 loans, for which HUD has paid claims but has not
       sold the properties; and (3) remove prohibited restrictive language or execute an indemnification agreement
       that prohibits it from submitting claims on 5 active loans with prohibited restrictive covenants in the amount of
       nearly $879,000, thereby putting nearly $545,000 to better use.
           OIG rejected two of the management decisions proposed by Housing because they were not consistent with
       HUD regulations and prior HUD reviews and determinations. OIG has had discussions with Housing regarding
       the recommendations in question but has not reached an agreeable management decision.
           Housing explained that, while it agrees that Standard Pacific permitted antispeculative agreements in the
       form of restrictive covenants in violation of 24 CFR 203.41(b), it considers the violations technical, not rising to
       the level of materiality warranting indemnification. In previous reviews, Housing determined that the presence
       of prohibited restrictive covenants is a material statute violation, stating that such properties are “not eligible
       for FHA mortgage insurance.” However, Housing does not intend to hold Standard Pacific accountable for
       losses stemming from FHA loans that, by definition, are uninsurable under FHA regulations. Housing believes
       that indemnification should be used only for underwriting deficiencies that negatively impact the loan. In
       this instance, we agreed with Housing that 27 of the 28 loans contained a mitigating document, rendering the
       prohibited restrictive covenants not enforceable. However, one loan did not contain the mitigating document
       and was in violation of HUD’s rules governing restrictive covenants.
           OIG continues to disagree with Housing’s determination that prohibited restrictive covenants do not
       warrant indemnification. The use of prohibited restrictive covenants is a systemic, widespread issue that
       requires more specific attention. The recommendations in question were based on HUD’s own precedent and
       determinations that prohibited restrictive covenants are a serious, material deficiency. The FHA loans identified
       in the audit memorandum were determined to be ineligible for FHA insurance; therefore, any loss or claim tied
       to the loans identified represents an unnecessary loss to HUD’s FHA insurance fund.
           Another issue is the determination of funds to be put to better use with regard to active loans that were
       originated with prohibited restrictive covenants. Housing agreed during initial discussions; however, the




52
                                                                                                         CHAPTER NINE AUDIT RESOLUTION




management decision maintained that the amount of funds to be put to better use should be $0. OIG continues
to disagree, explaining that if the lender agrees and provides documentation showing that all unallowable
restrictions have been removed and ensures compliance, the amount of funds to be put to better use of
more than $392,000 applies as the corrective action ensures that the loans in question are eligible for FHA
insurance and follow HUD rules and regulations. However, if the lender refuses or fails to adequately remove
all unallowable restrictions, indemnification would be the appropriate remedy, and the potential loss of more
than $392,000 would be put to better use as the loans in question would not be supported by FHA mortgage
insurance. The issues related to Standard Pacific were referred to the Deputy Secretary on September 30, 2013;
however, the broader issue of the prohibited restrictive covenants was referred to the Deputy Secretary on March
15, 2013, in conjunction with our audit of Shea Mortgage, which had similar disagreements, and his decision was
pending as of September 30, 2013. (Audit Memorandum: 2013-LA-1801)



HUD’S PROPOSED HOME REGULATIONS GENERALLY ADDRESSED SYSTEMIC
DEFICIENCIES, BUT FIELD OFFICE MONITORING AND DATA VERIFICATION NEED
IMPROVEMENT, ISSUE DATE: FEBRUARY 12, 2013
HUD OIG audited HUD’s HOME program in response to the Consolidated and Further Continuing
Appropriations Act of 2012, P.L. 112-155, and to improve HUD’s execution of and accountability for its fiscal
responsibility. Section 232 of the Act provided congressional direction specifically with respect to programs and
activities administered by CPD and actions necessary to improve data quality, data management, and grantee
oversight and accountability.9
    The objective was to determine whether HUD’s proposed regulation10 changes and controls would mitigate
the systemic deficiencies identified in prior OIG audit reports.11 During the review, OIG rolled up the results
of 77 OIG-issued audit reports on HUD’s HOME program and identified 10 systemic HOME deficiency areas.
OIG determined that if properly implemented, HUD’s proposed changes to HOME regulations and controls
should mitigate the systemic deficiencies identified in prior HUD OIG audit reports with the exception of (1) the
program office’s oversight of grantee monitoring and (2) validating the reliability of HOME data.
    CPD program officials’ oversight of field office monitoring and grantee compliance required improvement
because the quality management review process they relied on failed to identify systemic monitoring flaws and
officials did not use onsite monitoring data to assess monitoring efforts. As a result, officials could not ensure
that monitoring was complete and effective and may have missed opportunities to identify systemic issues
requiring corrective action, such as seldom- or never-monitored and longstanding noncompliant grantees.
    Although CPD officials had improved controls over HOME data in HUD’s Integrated Disbursement and
Information System (IDIS), they lacked a complete process for validating the data. They focused their efforts on
training, moving the database to a Web-based system, and implementing system controls to improve grantee
compliance and data reliability. However, the HOME data were not fully validated, and the reliability of the data
as a whole was unknown. With hundreds of grantees and thousands of subgrantees, reliable data are critical in
overseeing the program, identifying high-risk grantees to monitor, and responding to public and congressional
requests regarding the program.




9 “ The Secretary shall address the problems identified by the Inspector General of the Department in audits and audit reports
  since 2006, including ongoing audits, with respect to such programs and activities.”
10 The final rule was issued July 24, 2013.
11 The audit scope generally covered the period between January 2006 and January 2012.




                                                                                                                                  53
SEMIANNUAL REPORT TO CONGRESS




           The OIG report included recommendations that the Acting Assistant Secretary for Community Planning
       and Development (1) develop and implement procedures to oversee and assess the effectiveness of field
       offices’ monitoring efforts and (2) develop and implement a quality control system to validate the accuracy and
       reliability of HOME data in IDIS.
           HUD CPD did not accept OIG’s findings or recommendations that CPD develop and implement procedures
       to assess the effectiveness and completeness of monitoring efforts (finding 1) and on June 24, 2013, provided
       management decisions that stated, “No action will be taken.” HUD CPD provided management decisions for
       finding 2 on June 20, 2013, that stated, “No action will be taken,” although HUD did agree to add a specific,
       mandatory question to the HOME Monitoring Exhibits for Homeowner Rehabilitation Projects, Homebuyer
       Projects, and Rental Projects as part of its management decision for recommendation 2B.
           OIG rejected HUD CPD’s proposed management decisions on September 6, 2013, because OIG believes its
       findings are substantiated and that a “No action will be taken” stance is not acceptable. Congress has tasked OIG
       and HUD to increase controls over the HOME program. Program officials could not show that monitoring efforts
       were effective and complete. As a result, (1) the fraud risk for grantees that were seldom or never monitored was
       not known and may not have been mitigated; (2) systemic deficiencies may not have been tested, identified,
       and mitigated; (3) findings may not have been resolved in a timely manner; and (4) continually noncompliant
       grantees may not have been identified and appropriate corrective action may not have been taken to preserve
       the integrity of the program and conserve HUD resources.
           At a minimum, CPD officials’ oversight should provide reasonable assurance that known instances of
       noncompliance are addressed and corrected. Finding 1 was based in part on the fact that CPD officials did
       not know and did not show that the 591 HOME compliance and performance findings reported to Congress
       had been resolved. OIG reported finding 2 because HUD uses IDIS to monitor compliance; prior OIG audit
       reports showed that IDIS data were not reliable; and during the review, CPD officials did not have auditable and
       verifiable procedures to show that HOME IDIS data were verified and reliable.
           Consequently, program officials’ oversight of field office monitoring efforts was insufficient. OIG attributed
       this condition to reliance on ineffective quality management reviews and the lack of procedures to evaluate
       monitoring results in the Grants Management Process database.
           OIG and HUD CPD continue to disagree over OIG’s findings and recommendations that CPD develop and
       implement procedures to assess the effectiveness and completeness of monitoring efforts and (2) develop and
       implement a quality control system to validate the accuracy and reliability of HOME data in IDIS. Both issues
       are being referred to the Deputy Secretary. (Audit Report: 2013-BO-0001)



       GENERALLY, HUD’S HURRICANE DISASTER RECOVERY PROGRAM ASSISTED THE
       GULF COAST STATES’ RECOVERY; HOWEVER, SOME PROGRAM IMPROVEMENTS ARE
       NEEDED, ISSUE DATE: MARCH 28, 2013
       HUD OIG audited HUD’s State Community Development Block Grant (CDBG) Hurricane Disaster Recovery program
       for hurricanes that hit the Gulf Coast States from August 2005 through September 2008. The audit objective was to
       assess the program overall. Specifically, OIG wanted to (1) determine what had been accomplished using the funding
       and the funds remaining to be spent; (2) compare actual versus projected performance; and (3) identify best practices,
       issues, and lessons to be learned.
           The Gulf Coast States had made progress in recovering from the presidentially declared disasters as a result of
       several hurricanes. Although the States had made progress, based on OIG’s prior audits and a review of the program’s




54
                                                                                                     CHAPTER NINE AUDIT RESOLUTION




data, there have been some lessons to be learned regarding deadlines, program guidance, information system technology
acquisitions, procurements, and homeowner’s insurance. If HUD makes needed changes, it should improve the effectiveness
and efficiency of the program.
    The OIG report included recommendations that HUD’s Director of the Office of Block Grant Assistance (1) work with
the States to ensure that they promptly budget all of the remaining unbudgeted funds, (2) work with Congress and the States
to explore options to spend the remaining funds promptly, and (3) adopt a best practice to address the issue of homeowner’s
insurance for homes assisted with disaster funds to ensure that the Federal funds invested in the homes are protected.
    OIG rejected the management decisions for the three recommendations. For the first two recommendations, the
Deputy Assistant Secretary for Grant Programs agreed with the finding recommendation but recommended that the finding
be closed effective the date of the memorandum. In an August 9, 2013, phone conversation, which included the Deputy
Assistant Secretary, HUD CPD staff, and the Fort Worth OIG Regional Inspector General and Assistant Regional Inspector
General for Audit, HUD indicated that since Congress did not require an expenditure deadline for Hurricanes Katrina, Rita,
Wilma, Gustav, Ike, and Dolly, CPD lacks statutory authority to require that the funds be budgeted or expended by a set date.
Further, CPD is proactively working with grantees to ensure that the funds are budgeted and spent in a timely manner. CPD
also stated that it would not work with Congress to set an expenditure deadline for these disasters as it did not believe doing
so would be proper or feasible.
    HUD OIG is reluctant to close the two recommendations as “final action completed” as the States have funds that have
not been budgeted or spent. Although CPD has made progress in reducing the amount of unbudgeted and unspent funds
and is working with its disaster grantees, all Disaster Recovery funds have not been budgeted or spent. As of June 2013, CPD’s
Disaster Recovery Grants Reporting system showed that for Hurricanes Katrina, Rita, and Wilma, the Gulf Coast States have
budgeted nearly $19.5 billion of the nearly $19.7 billion available. For the same period, for Hurricanes Gustav, Ike, and Dolly,
States have budgeted more than $4 billion of the more than $4.3 billion provided. Thus, a total of more than $23.5 billion of
the $24 billion has been budgeted. Further, as of June 2013, CPD’s Disaster Recovery Grants Reporting system showed that
for Hurricanes Katrina, Rita, and Wilma, the Gulf Coast States spent nearly $17.7 billion of the nearly $19.7 billion available.
For the same period for Hurricanes Gustav, Ike, and Dolly, States have spent nearly $1.5 billion of the more than $4.3 billion
provided. Thus, a total of more than $19.1 billion of the $24 billion has been spent.
    During the August 9, 2013, phone conversation, the Regional Inspector General for Audit agreed to close the
recommendations if the Deputy Assistant Secretary agreed to revise the management decisions to include language stating
that CPD would provide OIG with monthly reports showing updated obligation and expenditure amounts. As of September
4, 2013, revised management decisions had not been provided.
    For the third recommendation, CPD disagreed with the finding recommendation to adopt a best practice to address
the issue of homeowner’s insurance for homes assisted with disaster funds to ensure that the Federal funds invested in the
homes are protected. CPD’s position is that the purpose of the Disaster Recovery program is to ensure that funds benefit low-
to moderate-income persons. CPD stated that to require insurance as part of eligibility screening may exclude people from
assistance. It further stated that it does not have the regulatory or statutory authority to require insurance coverage.
    OIG’s recommendation was not that CPD require insurance as part of the eligibility screening as asserted in its
memorandum. While its proposed training and technical assistance may be beneficial, OIG upholds its conclusion that
Disaster Recovery funds used to rebuild disaster-impacted homes are at risk if the homes are not insured by the homeowners
against future storm damage. It is also OIG’s belief that CPD needs to adopt a best practice for homeowner’s insurance. Based
on OIG’s observations, the State of Mississippi had the best practice. Mississippi required a property covenant on an assisted




                                                                                                                                   55
SEMIANNUAL REPORT TO CONGRESS




       property, which required insurance and clearly informed the property owner that if insurance was not obtained on the
       assisted property, future Federal assistance would not be provided. Further, OIG believes that the Department has the
       regulatory authority to enact regulations to oversee and protect the disaster funds.
            During the August 9, 2013, phone conversation, the Deputy Assistant Secretary and OIG were unable to reach
       agreement. However, the Deputy Assistant Secretary agreed to revise the language in the proposed management
       decision and resend it to OIG in an attempt to to reach agreement. OIG has not received a revised management
       decision. However, OIG’s position remains that a best practice needs to be adopted to address implementation of
       homeowner’s insurance requirements to protect the Federal funds invested in the homes. (Audit Report: 2013-FW-
       0001)



       FOLLOW-UP OF THE INSPECTIONS AND EVALUATIONS DIVISION ON ITS INSPECTION OF
       THE STATE OF LOUISIANA’S ROAD HOME ELEVATION INCENTIVE PROGRAM
       HOMEOWNER COMPLIANCE (IED-09-002, MARCH 2010), ISSUE DATE: MARCH 29, 2013
       HUD OIG conducted a follow-up review regarding its recommendations made to HUD pertaining to its
       inspection of the State of Louisiana’s Road Home Elevation Incentive program, IED-09-002, issued in March
       2010. The objective of the review was to determine whether the State of Louisiana had implemented the four
       recommendations in the March 2010 report.
            OIG agreed to close three of the four recommendations cited in the March 2010 report. For the remaining
       recommendation regarding the recovery of $3.8 million awarded to 158 noncompliant homeowners,
       documentation showed that the State had recovered less than $201,000 of the awarded funds. As of August
       31, 2012, the State’s documentation showed that a total of 24,042 homeowners either were noncompliant,
       including those who had not elevated their homes; were nonresponsive; or did not provide sufficient supporting
       documentation. Therefore, the State did not have conclusive evidence that the $698.5 million in CDBG
       Hurricane Disaster Recovery program funds had been used to elevate homes. As a result, this recommendation
       remains open and has been revised based on OIG’s follow-up review due to the increased noncompliance
       among homeowners who received elevation grants.
            OIG recommended that HUD CPD require the State to (1) enforce program remedies for noncompliance
       as stated in grant agreements, starting with the recovery of $437.3 million in elevation grant funds from the
       15,027 homeowners who did not elevate their homes within 3 years of the grant agreement date and the State
       had not collected any of the funds (recommendation 1A); (2) determine whether the 8,462 homeowners who
       did not respond to its monitoring survey used the $245 million in elevation grant funds to elevate their homes
       or recover these funds from the noncompliant homeowners (recommendation 1B); (3) obtain documentation
       to validate whether the 553 homeowners who received $16 million in grant funds elevated their homes or
       recover these funds from the noncompliant homeowners (recommendation 1C); (4) enforce its grant review
       and recovery procedures to ensure that homeowners comply with the terms of their elevation grant agreements
       (recommendation 1D); and (5) reimburse the uncollectible elevation grant funds from non-Federal funds
       (recommendation 1E).
            On July 26, 2013, OIG obtained HUD’s CPD management decisions for all five recommendations. HUD’s
       Deputy Assistant Secretary for Grant Programs agreed with OIG recommendations 1A-D, stating that “CPD will
       continue to ensure program remedies are enforced.” Additionally, CPD provided the following recommended
       proposed actions:
            a.	 The State will work with HUD on proposed action plan amendments targeted to individuals who have
                not complied with elevation requirements but who have completed the required rehabilitation of their
                home.




56
                                                                                              CHAPTER NINE AUDIT RESOLUTION




    b.	 Within two weeks of the action plan amendment approval/disapproval, the State will launch its
          final compliance notifications, requiring homeowners to demonstrate compliance within 120 days.
          Homeowners that fail to meet the compliance deadline will be turned over to the State’s Attorney
          General’s Office for collections.
    c.	   The State will implement a comprehensive grant collections policy inclusive of additional remedies for
          homeowners unable to repay their full grant amount within the prescribed timelines. The policy offers
          these homeowners the option to repay the entire amount due, repay with a 10-year promissory note,
          submit an alternative payment request based on income and relevant circumstances, or a identify a
          settlement amount depending on the homeowner’s income (the State is in the process of establishing
          details for this approach).
    d.	 Within one year of the date of this management decision, the State must identify all non­compliant
          households and, excluding those homeowners with [Hazard Mitigation Grant Program] (HMGP)
          applications, must reimburse its line of credit from non-Federal funds for the amount associated with
          non-compliant households.


    Regarding recommendation 1E, CPD disagreed but proposed the following recommended action:


    CPD will continue to ensure program remedies are enforced. Once the State has exhausted all efforts to
    recapture elevation grant funds from non-compliant homeowners and contractors, the State will have
    satisfied its due diligence in executing its recapture and recovery procedures. The State will undertake the
    actions identified in Finding Recommendation 1A to obtain repayment, as applicable, from non-compliant
    actions.


    On the same day (July 26, 2013) OIG received the proposed management decision, CPD’s Deputy Assistant
Secretary for Special Needs Programs responded to the State of Louisiana, concurring with the State’s action
plan amendments 58, 59, and 60 for disaster recovery CDBG supplemental funding. Specifically, the State’s
amendment 60 allowed homeowners who received a grant under the Road Home Incentive Elevation Program to
demonstrate that they used those funds to either elevate or rehabilitate their home.
    OIG disagrees with all five proposed management decisions due to concerns with CPD’s approval of the
State’s amendment 60.


    •	    OIG takes exception to amendment 60 because the elevation incentive agreement indicated that the
          funds were intended to assist the homeowners only to elevate their homes. If the funds were not used
          for that purpose, the funds must be repaid to the State.
    •	    OIG believes that CPD’s changing the scope of work for the expired elevation incentive agreements,
          entered into as early as 2006, to now allow homeowners to rehabilitate their homes is overriding the
          intent of the program and unfair to the homeowners who either elevated their homes or paid back the
          funds.
    •	    CPD’s approval of amendment 60 leaves those homeowners potentially exposed to home destruction
          again since those homes were not elevated. More importantly, this is more than an issue of
          homeowners repaying funds. These homes remain vulnerable against future storms, and scarce
          resources were used for an alternative purpose.
    •	    Finally, OIG is concerned with CPD’s completion of the management decision process. On July 26,
          2013, OIG received CPD’s proposed management decision. The management decision indicated that




                                                                                                                        57
SEMIANNUAL REPORT TO CONGRESS




                HUD would work with the State on proposed action plan amendments, giving the impression that it
                was still working with the State to reach an agreement on what actions should be taken. However, CPD
                concurred with the amendments on the same day it provided a proposed management decision to OIG.
                This action demonstrates a lack of good faith between the two organizations. Thus, OIG is left with no
                choice but to nonconcur on the proposed management decision.


           OIG acknowledges CPD’s and the State’s efforts. However, it cannot overlook the expired 3-year
       compliance period and that the Road Home Elevation Incentive homeowners had not elevated the homes,
       were nonresponsive, or did not provide sufficient documentation. Therefore, the State did not have conclusive
       evidence that the $698.5 million in CDBG Disaster Recovery funds had been used to elevate homes.
           On September 17, 2013, OIG referred the recommendations to HUD’s Delegated Authority over CPD
       programs because we could not resolve the five recommendations with the Deputy Assistant Secretary for Grant
       Programs. (Audit Memorandum: 2013-IE-0803)




       SIGNIFICANTLY REVISED MANAGEMENT DECISIONS
       Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information concerning the
       reasons for any significant revised management decisions made during the reporting period. During the current
       reporting period, there were significant revised management decisions on eight audits.



       THE CITY OF ATLANTA ENTERED INCORRECT COMMITMENTS INTO HUD’S
       INTEGRATED DISBURSEMENT AND INFORMATION SYSTEM FOR ITS HOME
       PROGRAM, ISSUE DATE: SEPTEMBER 28, 2009
       HUD OIG audited the City of Atlanta’s HOME program to determine whether the City accurately entered
       commitments into IDIS for HOME-funded activities. The audit identified more than $6.8 million in incorrect
       commitment entries that the City made to IDIS. The incorrect entries masked a shortfall of more than $3.9
       million that was subject to recapture by HUD. The recaptures, which resulted from a failure of City staff to
       implement adequate controls, will deprive City residents of services that the HOME program was intended to
       provide. The incorrect entries also undermined the integrity of IDIS and of reports HUD generated from the
       system to monitor the City’s compliance with the 24-month statutory commitment requirement.
           OIG initially recommended that the Director of HUD’s Atlanta Office of Community Planning and
       Development recapture nearly $4 million in funds not committed by the 24-month statutory deadline
       (recommendation 1B). On November 5, 2009, OIG and the Director reached a management decision to require
       the City to reimburse this amount or if the City provides documentation to support the eligibility of any portion
       thereof, CPD will consult with OIG before final action is taken. After reaching this decision, the Director and
       the CPD headquarters office concluded that more than $1.3 million of the recommended recapture should be
       allowed because it was associated with commitments for a locally funded substitute activity that HUD allowed
       the City to enter into IDIS to replace other ineligible HOME expenditures that HUD disallowed during a previous
       monitoring review. On March 28, 2011, OIG rejected the proposed revised management decision because the
       commitments were not supported by a legally binding contract executed before the commitment deadline and




58
                                                                                               CHAPTER NINE AUDIT RESOLUTION




because while working with HUD to resolve this matter, OIG learned that the City had duplicate commitments
in IDIS for this activity. The duplication consisted of the commitment entry for the substitute activity and the
existing commitments for the ineligible activities the substitute activity was to replace.
    After rejecting the proposed revised management decision, OIG spent considerable time obtaining,
reviewing, and assessing information from CPD, including two meetings with the Deputy Assistant Secretary for
Grant Programs. Late in this process, CPD agreed with our determination that the information system contained
duplicate commitments for the questioned activity. However, CPD said it had not issued clear instructions to the
City on how to make adjustments in IDIS for the disallowed cost. CPD maintained that by not requiring the City
to cancel the projects or informing the City that its commitments were overstated in IDIS, HUD denied the City
the opportunity to fully meet the deadline. Based on that explanation, OIG concluded that it is not reasonable to
pursue recapturing from the City amounts that were caused by a lack of clear HUD requirements and directions.
Therefore, OIG requested that CPD submit a revised management decision based on its explanation. On July
18, 2013, OIG agreed with CPD’s proposed revised management decision to recapture more than $2.6 million of
the more than $3.9 million shortfall and to allow the balance that totaled more than $1.3 million. (Audit Report:
2009-AT-1013)



ACORN ASSOCIATES, INC., NEW ORLEANS, LA, MATERIALLY FAILED TO USE ITS LEAD
ELIMINATION ACTION PROGRAM GRANT FUNDS APPROPRIATELY, ISSUE DATE: 
NOVEMBER 8, 2010
HUD OIG found that ACORN Associates inappropriately expended more than $3.2 million from its fiscal years
2004 and 2005 grants for the elimination of lead poisoning in its housing program.  It paid program funds
of more than $3 million to affiliate and nonaffiliate organizations without properly procuring their services
and did not include the funds in a HUD-approved grant budget.  For its 2004 and 2005 grants, Associates
failed to (1) properly procure the services of 19 affiliate and 20 nonaffiliate organizations through free and
open competition, (2) retain records and files documenting the basis for contractor selection, (3) justify the
lack of competition and basis for the award cost, (4) ensure that it obtained the lowest, most reasonable cost,
and (5) enter into a contract with each organization that performed an activity to accomplish grant goals. 
Additionally, it did not have adequate supporting documentation for nearly $218,000 in disbursements to 11
affiliate and 4 nonaffiliate organizations.
    Also, program funds were not used for approved purposes.  ACORN Associates used nearly $1.2 million
in program funds for purposes not identified in its grant applications’ detailed budgets.  The unapproved
uses included campaign services, grant fund-raising activities, lead-based paint remediation work, payroll
taxes and workmen’s compensation insurance, communication services, and financial- and audit-related
expenditures for services performed by affiliate organizations and more than $16,000 disbursed to its
nonaffiliate organizations.  Further, more than $600 in improper expenses for bank service fees was disbursed
from program funds.  The nearly $1.2 million in program funds used for unapproved purposes was associated
with and included in the $3.2 million expended without being properly procured.  The repayment of total
questioned costs will not exceed the amount of the funds drawn from Associates’ 2004 and 2005 grants.
    OIG recommended that the Director of HUD’s Office of Healthy Homes and Lead Hazard Control require
Associates to (1) provide procurement documentation or reimburse HUD from non-Federal funds more
than $3.2 million in program funds, (2) provide documentation or reimburse HUD from non-Federal funds
nearly $218,000 in program funds, and (3) reimburse HUD from non-Federal funds nearly $1.2 million for




                                                                                                                        59
SEMIANNUAL REPORT TO CONGRESS




       the unapproved and improper use of program funds.  OIG also recommended that the Director withdraw
       Associates’ ability to draw down the more than $750,000 in program funds remaining in its grants. HUD’s
       original management decision agreed with OIG’s recommendations. 
           In July 2012, ACORN Associates filed for bankruptcy.  On April 26, 2013, HUD submitted a revised
       management decision, along with supporting documentation, requesting concurrence on its decision to write
       off more than $3.2 million and terminate collection activities due to the debt’s being uncollectible.  On May 1,
       2013, OIG concurred with the revised management decision. (Audit Report: 2011-CH-1002)



       ADDITIONAL DETAILS TO SUPPLEMENT OUR REPORT ON HUD’S FISCAL YEARS 2010
       AND 2009 FINANCIAL STATEMENTS, ISSUE DATE: NOVEMBER 15, 2010 (AUDIT
       REPORT: 2011-FO-0003)
       As part of the fiscal year 2009 Consolidated Financial Statement Audit, OIG reported12 that IDIS did not comply with
       Federal financial management requirements. The noncompliance was due to the system’s arbitrarily liquidating
       obligations on a FIFO basis, regardless of the budget fiscal year funding source. OIG reported that the process did not
       comply with Federal financial accounting and Federal appropriations laws and FFMIA. CPD and HUD took exception
       to OIG’s position based upon a legal opinion received from HUD’s Office of General Counsel.
           During fiscal year 2010, CPD hired a contractor to determine whether the FIFO method used by IDIS complied
       with the requirements of FFMIA. While the review found that IDIS provided the required data to HUD’s core financial
       management system, the review itself had limitations. The contractor (1) improperly excluded IDIS as part of HUD’s
       financial management system and subject to the requirements of FFMIA, (2) did not support its conclusion that FIFO
       complied with Federal systems requirements with criteria or procedures, and (3) did not consider the FIFO mismatch
       effect before data were posted to the core financial system. Consequently, OIG continued to report13 that IDIS did not
       comply with the Federal financial management system requirements of FFMIA due to the use of the FIFO method for
       liquidating obligations. CPD and HUD continued to take exception with OIG’s position.
           In fiscal year 2011, OIG requested a legal decision and opinion from GAO regarding the use of FIFO that was
       later amended to request an opinion on the cumulative method of determining compliance with the HOME
       24-month commitment statute. After the request was made, management decisions were due for the fiscal year
       2010 consolidated financial statement audit recommendations regarding the use of FIFO. An impasse was reached
       between HUD and OIG regarding the recommendations, and after referring them to senior HUD management, OIG
       and HUD agreed that CPD would provide a revised management decision after OIG received the legal decision and
       opinion from GAO.  OIG continued to report that IDIS did not comply with FFMIA in fiscal years 2011 and 2012.14
           During the fiscal year 2013 consolidated financial statement audit, OMB advised HUD to cease the use of FIFO.
       Additionally, GAO published its legal decision and opinion on July 17, 2013, in favor of OIG’s position.  Due to these
       events and according to the original management decision, CPD had to revise its management decision to adequately
       address the OIG recommendations.  CPD’s revision included a plan to overhaul the grants management system,
       IDIS, and to remove the use of the FIFO method when liquidating obligations.  This overhaul is not expected to be
       completed until fiscal year 2015.  OIG anticipates the deficiency to exist and the recommendations to remain open
       until the system overhaul is completed.

       12 A
           udit Report number 2010-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2009 and 2008
          Financial Statements, issued November 16, 2009
       13 A
           udit Report number 2011-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2010 and 2009
          Financial Statements, issued November 15, 2010
       14 A
           udit Report number 2012-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2011 and
          2010 Financial Statements, issued November 15, 2011, and Audit Report number 2013-FO-0003, Additional Details To
          Supplement Our Report on HUD’s Fiscal Years 2012 and 2011 Financial Statements, issued November 15, 2012




60
                                                                                                 APPENDIX THREE CHARTS




PIONEER CIVIC SERVICES DID NOT PROPERLY ADMINISTER ITS SUPPORTIVE
HOUSING PROGRAM AND HOUSING OPPORTUNITIES FOR PERSONS WITH AIDS
GRANTS, ISSUE DATE:  SEPTEMBER 30, 2011
OIG issued an audit report entitled “Pioneer Civic Services, Inc., Peoria, IL, Did Not Properly Administer
Its Supportive Housing Program and Housing Opportunities for Persons With AIDS Grants.”  OIG found
that Pioneer did not effectively administer its Program and Housing Opportunities for Persons With AIDS
(HOPWA) grants in accordance with HUD’s and other Federal requirements.  Specifically, Pioneer did
not ensure that (1) its housing units met HUD’s habitability standards and local code and (2) Riverside
Apartments, a single-room occupancy rooming house for chronically homeless persons with HIV-AIDS,
and its four-unit apartment building (Perry Street) met Federal and State accessibility requirements.
Further, Pioneer inappropriately used funds from its Program and HOPWA grants to pay ineligible and
unsupported expenses.  However, it generally provided services to program participants who were
homeless with two exceptions.  As a result, HUD lacked assurance that more than $483,000 in funds from
its Program and HOPWA grants was used for eligible activities and to maintain its housing units in decent,
safe, and sanitary condition.
    OIG recommended that the Director of HUD’s Chicago Office of Community Planning and
Development require Pioneer to (1) certify that the applicable violations have been corrected for the 30
housing units cited; (2) reimburse HUD $187,000 from non-Federal funds for the housing units that failed
to meet HUD’s habitability standards and local code; (3) implement adequate procedures and controls to
ensure that all of its units meet local and HUD habitability standards to prevent funds from its Program
and HOPWA grants from being spent over the next year on units that do not comply with applicable
requirements; (4) ensure that its inspector is properly trained on HUD’s habitability standards and local
code; (5) discontinue funding for the operation of Riverside Apartments until Pioneer submits written
confirmation that the applicable accessibility code violations cited have been corrected; and (6) implement
adequate procedures and controls to ensure that the Perry Street building, including the one accessible
housing unit, complies with applicable accessibility requirements.  OIG also recommended that the
Director of HUD’s Chicago Office of Community Planning and Development require Pioneer to (1) provide
documentation to support the eligibility of nearly $94,000 in Program and HOPWA grant expenditures
and reimburse HUD nearly $203,000 from non-Federal funds for ineligible expenses, (2) develop and
implement adequate procedures and controls to ensure that funds from its Program and HOPWA grants
are used only for eligible activities, and (3) implement adequate procedures and controls to ensure that it
serves participants who are eligible to receive benefits from the Program.
    HUD’s original management decision, dated February 17, 2012, agreed with the recommendations. 
OIG concurred with the management decision on February 22, 2012.  On April 3, 2013, HUD submitted
a revised management decision and requested closure of the recommendations because Pioneer no
longer operated.  HUD provided documentation of Pioneer’s dissolution and its approval to write off and
terminate collection activities.  Therefore, on April 8, 2013, OIG concurred with the revised management
decision. (Audit Report: 2011-CH-1017)




                                                                                                                   61
SEMIANNUAL REPORT TO CONGRESS




       AMERICAHOMEKEY, INC., DALLAS, TX, DID NOT FOLLOW HUD-FHA LOAN
       REQUIREMENTS IN UNDERWRITING 13 OF 20 MANUFACTURED HOME LOANS, ISSUE
       DATE: SEPTEMBER 30, 2011
       HUD OIG issued an audit entitled “AmericaHomeKey, Inc., Dallas, TX, Did Not Follow HUD-FHA Loan
       Requirements in Underwriting 13 of 20 Manufactured Home Loans.”  The mortgage company underwrote
       13 loans that were ineligible for FHA insurance. When the report was issued, four of the ineligible loans
       had defaulted and conveyed, and HUD had incurred losses of nearly $514,000 on the resale. In addition,
       HUD paid nearly $24,000 in claims for four of the ineligible loans. OIG recommended that HUD recover the
       losses, and HUD agreed to request AmericaHomeKey to indemnify it for the four loans. An indemnification
       agreement would make the mortgage company responsible for any losses incurred on the loans and allow
       HUD to pursue reimbursement for the losses. OIG concurred with the management decision on February
       14, 2012.
           HUD recovered $191,000 in a settlement due in part to the audit report and in part to other civil
       enforcement actions. However, since AmericaHomeKey went out of business and settled, there was no
       indemnification agreement. HUD submitted a revised management decision on May 23, 2013, to close the
       finding, and OIG concurred with this revised management decision on May 28, 2013. (Audit Report: 2011-
       FW-1016)



       JOHN CALVIN MANOR VIOLATED ITS REGULATORY AND LOAN AGREEMENTS WITH
       HUD AND INAPPROPRIATELY MADE SALARY PAYMENTS TO ITS BOARD PRESIDENT,
       ISSUE DATE: JANUARY 20, 2012
       HUD OIG audited John Calvin Manor of Lee’s Summit, MO, to determine whether the property violated its
       regulatory and loan agreements with HUD.
           The property violated its regulatory and loan agreements with HUD by improperly spending restricted
       funds, defaulting on its mortgage payment, and failing to submit financial statements to HUD. In addition, it
       inappropriately made salary payments to its board president.
           Among other things, OIG recommended that HUD develop a plan with the property to reestablish and
       fully fund its reserve for replacement account and debt service reserve account. The underfunded amounts
       totaled more than $278,000 and more than $41,000, respectively. In its original management decision, HUD
       agreed with both recommendations and sent a letter to the board and agent requesting them to develop
       a written plan to reestablish and fully fund the reserve for replacement and debt service reserve accounts
       within 36 months. HUD submitted a revised management decision because the Section 202 mortgage was
       prepaid on September 27, 2013. Therefore, the requirement for a reserve for replacement account and debt
       service reserve account that was set forth in the regulatory agreement was no longer in effect as the regulatory
       agreement was required only as long as the Section 202 loan was active. Therefore, there is no longer any
       active business document requiring either account. On September 30, 2013, OIG agreed with the revised
       significant management decisions. (Audit Report: 2012-KC-1001)




62
                                                                                                      APPENDIX THREE CHARTS




THE EAST ST. LOUIS HOUSING AUTHORITY DID NOT PROPERLY MANAGE OR
REPORT ON RECOVERY ACT CAPITAL FUNDS, ISSUE DATE: MARCH 2, 2012
HUD OIG audited the East St. Louis Housing Authority’s American Recovery and Reinvestment Act of
2009 (ARRA) Public Housing Capital Fund program to determine whether the Authority (1) complied with
applicable procurement requirements and properly managed its ARRA contracts, (2) properly drew down and
expended funds for eligible activities, and (3) properly reported its ARRA activities.
    The Authority (1) improperly awarded ARRA-funded contracts, (2) improperly approved change orders,
(3) did not enforce the fair labor standards prevailing wage rate requirements in its contracts, (4) paid for an
ARRA contract before receiving HUD approval to obligate or expend the funds, (5) improperly drew down all
of its administrative fees, and (6) reported incomplete and inconsistent information on the number of jobs
created and the amounts expended on ARRA contracts.  
    Among other things, OIG recommended that HUD require the Authority to (1) support that nearly
$1.9 million in ARRA contracts and change orders was granted at a reasonable cost and repay any amount
determined to be unreasonable. In its original management decision, HUD agreed to review documentation
submitted by the Authority and require repayment to the U.S. Treasury from non-Federal funds for the
amount that could not be supported. HUD submitted a revised management decision because after working
extensively with the Authority to establish price reasonableness for the contracts at issue, HUD concluded that
the Authority does not have the capacity to conduct an analysis of the sort that would satisfy the conditions of
the recommendations. Accordingly, HUD will take actions to establish price reasonableness for the change
orders and will require repayment of any amount in excess of the amount determined to be reasonable. On
July 9, 2013, OIG agreed with the revised significant management decisions.
    In addition, OIG recommended that the Authority collect nearly $47,000 in overpaid funds from its
contractor and return these funds to the U.S. Treasury. In its original management decision, HUD agreed to
review documentation regarding the profits and require return of any amounts not supported as allowable.
HUD submitted a revised management decision because it determined that the amount required to be repaid
was more than $39,000, and it entered into a repayment agreement with the Authority for that amount. On
June 17, 2013, OIG agreed with the revised significant management decision.
    Further, OIG recommended that HUD obtain evidence documenting compliance with the Section 3
numeric goals. In its original management decision, HUD agreed to obtain and review evidence documenting
compliance or determine why compliance was not possible. HUD submitted a revised management
decision because the Authority provided documentation of efforts to meet the Section 3 goal as well as why
it was not feasible to meet the goal in its entirety. HUD requested that OIG remove the unsupported costs
from the system and close the recommendation. On June 27, 2013, OIG agreed with the revised significant
management decision. (Audit Report: 2012-KC-1002)




                                                                                                                       63
SEMIANNUAL REPORT TO CONGRESS




       THE MANAGEMENT AND BOARD OF COMMISSIONERS OF THE HOUSING
       AUTHORITY OF CITY OF PORT ARTHUR, TX, FAILED TO EXERCISE THEIR FIDUCIARY
       RESPONSIBILITIES, ISSUE DATE: JUNE 1, 2012
       HUD OIG issued an audit report entitled “The Management and Board of Commissioners of the Housing
       Authority of City of Port Arthur, TX, Failed To Exercise Their Fiduciary Responsibilities.” For recommendation
       3F, HUD’s Office of Housing Voucher Programs initially agreed on August 28, 2012, that the Authority must
       support or repay nearly $1.1 million to HUD from non-Federal funds. On February 13, 2013, HUD performed
       an onsite visit at the Housing Authority, determined that the Authority could support the amounts charged to
       the program, and submitted a revised management decision to that effect on June 26, 2013. OIG concurred
       with the revised management decision on June 27, 2013. 
           For recommendation 3G, HUD’s Office of Housing Voucher Programs initially agreed on August 28, 2012,
       that the amounts in the audit report represented ineligible amounts and agreed to require the Authority
       to repay nearly $350,000 to HUD from non-Federal funds. HUD performed an onsite visit on February 13,
       2013, to review these costs. HUD agreed that the Authority did not have written contracts but stated that
       according to HUD’s Office of General Counsel, an implied contract existed that bound the Authority and
       HUD, making the costs eligible rather than ineligible as reported in the audit. Further, HUD indicated that
       while the Authority did not engage in sound practices for the execution of its contracts and invoicing, it did
       provide adequate documentation to support the expenditure of the nearly $350,000. HUD submitted a revised
       management decision on June 26, 2013. Based on HUD’s onsite review, testing, and legal opinion, on June 27,
       2013, OIG concurred with the revised management decision that the Authority had adequately supported the
       costs. (Audit Report: 2012-FW-1008)




       SIGNIFICANT MANAGEMENT DECISION WITH WHICH OIG DISAGREES
       During the reporting period, there was one report in which the OIG disagreed with the significant
       management decision.



       GENERALLY, HUD’S HURRICANE DISASTER RECOVERY PROGRAM ASSISTED THE
       GULF COAST STATES’ RECOVERY; HOWEVER, SOME PROGRAM IMPROVEMENTS ARE
       NEEDED, ISSUE DATE: MARCH 28, 2013
       HUD OIG audited HUD’s State CDBG Hurricane Disaster Recovery program for hurricanes that hit the Gulf
       Coast States from August 2005 through September 2008. The audit objective was to assess the program
       overall. Specifically, OIG wanted to (1) determine what had been accomplished using the funding and the
       funds remaining to be spent; (2) compare actual versus projected performance; and (3) identify best practices,
       issues, and lessons to be learned.
           The Gulf Coast States had made progress in recovering from the presidentially declared disasters as a
       result of several hurricanes. Although the States had made progress, based on OIG’s prior audits and a review
       of the program’s data, there have been some lessons to be learned regarding deadlines, program guidance,
       information system technology acquisitions, procurements, and homeowners’ insurance. If HUD makes
       needed changes, it should improve the effectiveness and efficiency of the program.




64
                                                                                                     APPENDIX THREE CHARTS




    Among other things, OIG recommended that HUD’s Director of the Office of Block Grant Assistance
develop and issue guidance that defines the public law categories of disaster relief, housing, infrastructure,
long-term recovery, and economic revitalization and describes how these categories fit within the State
CDBG program categories to ensure consistency, alleviate confusion, provide better assurance that the funds
are used for their intended purpose, and allow for comparisons and evaluations based on the public law
categories (recommendation 2C).
    CPD disagreed with the recommendation; however, OIG’s understanding is that CPD did define in
the Federal Register for Hurricane Sandy assistance the following terms: “housing,” “infrastructure,” and
“economic revitalization.” However, CPD had not defined the terms “disaster assistance” and “long-term
recovery” and is not tracking information by the public law categories. Although OIG continues to believe
that having this information would allow for better reporting and consolidation of results, it closed the
recommendation. (Audit Report: 2013-FW-0001)




FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT OF 1996
HUD did not substantially comply with FFMIA during fiscal year 2013.  HUD had made limited progress in
bringing its financial management systems into compliance with FFMIA.  For this reason, HUD’s financial
management systems continued to not meet current requirements.  HUD’s systems were not operated in an
integrated fashion and linked electronically to efficiently and effectively provide the agencywide financial
system support necessary to carry out the agency’s mission and support the agency’s financial management
needs.
    HUD’s financial systems, many of which were developed and implemented before the issue date of
current standards, were not designed to provide the range of financial and performance data currently
required.  HUD has been working to replace its current core financial management system since fiscal year
2003. The previous project, the HUD Integrated Financial Management Improvement Project (HIFMIP), was
based on plans to implement a solution to replace two of the applications currently used for core processing.
In March 2012, work on HIFMIP was stopped. Project sponsorship was transferred from the Office of the
Chief Financial Officer to the Deputy Secretary. The Deputy Secretary and a working group comprised of the
Offices of the Chief Financial Officer, Chief Information Officer, and Chief Procurement Officer reassessed the
Department’s options and determined that the planned HIFMIP solution was not a viable option. As a result,
the HIFMIP effort was canceled. HUD spent more than $35 million on the failed HIFMIP project.
    In the fall of 2012, HUD determined that it would reevaluate alternatives for meeting HUD’s original
program objectives. As a result of that decision, the New Core Project was created to move HUD forward to
implement a new core financial system. The New Core Project has the same scope as HIFMIP, to replace, at
a minimum, the functionality of two of the applications currently used for core processing during the initial
phase of the project. On July 30, 2013, HUD signed an interagency agreement with the Bureau of Public Debt
(BPD) to obtain full Federal shared services. Full service leverages BPD’s financial management, procurement,
human resources, and travel applications. BPD will support full transaction processing to operate these
systems. The Department concluded that this option provided the most value to HUD by leveraging modern
technologies in cloud computing and by reducing implementation risks. In September 2013, the Department
began the definition stage of the project to determine what business process changes will be required as a
result of the transition.




                                                                                                                      65
SEMIANNUAL REPORT TO CONGRESS




           FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when
       an agency has not met the intermediate target dates established in its remediation plan required by FFMIA. 
       At the end of 2013, HUD reported that 5 of the 39 financial management systems were not in substantial
       compliance with FFMIA.  These five systems are (1) Ginnie Mae Financial Accounting System, (2) IDIS, (3)
       Facilities Integrated Resources Management System (FIRMS), (4) HUD Procurement System (HPS), and (5)
       Small Purchase System (SPS). 
           The FIRMS application does not interface with any other HUD system as required for a property
       management system. Currently, HUD uses a manual process to track and account for the acquisition,
       depreciation, and disposition of fixed assets. Although steps were taken and efforts were under way to address
       the issue in fiscal year 2013, FIRMS was not fully operational in fiscal year 2013. HUD anticipates remediating
       the FIRMS issue by February 2014. Therefore, FIRMS did not comply with the requirements of FFMIA for fiscal
       year 2013.
           HUD acquired a new application, HUD Integrated Acquisition Management System (HIAMS), to replace
       HPS and SPS on September 30, 2010. The HIAMS application went live on October 1, 2011. The HIAMS
       implementation used a phased approach; therefore, HPS and SPS were still operational and used during fiscal
       year 2012. OIG performed a limited review of the implementation of HIAMS during fiscal year 2012 and found
       that obligation balances in HIAMS were inaccurate and did not match the balances in HUD’s Centralized
       Accounting Program System (HUDCAPS). Because HPS and SPS did not contain the same level of contract
       data that is required in HIAMS, the Office of the Chief Procurement Officer developed a data cleanup and
       transfer process that used a combination of electronic and manual migration of data from the legacy systems
       to HIAMS. Due to the legacy systems’ limitations in capturing subaccount line data, the contracting officials
       used hardcopy award documents to manually enter the appropriate subaccount line data into the HIAMS
       application. Discrepancies were identified, and HUD initiated a reconciliation process to correct the data
       within HIAMS. As a result of the data discrepancies between the HIAMS and HUDCAPS applications, the
       HIAMS application did not comply with the requirements of FFMIA for fiscal year 2012.
           HUD asserted that the data discrepancies between the HIAMS and HUDCAPS applications were resolved
       in September 2013. OIG is working to verify this assertion.
           During fiscal year 2013, OIG performed a review of HUDCAPS and determined that the application
       was noncompliant with FFMIA requirements. To be FFMIA compliant, a core financial application or an
       application performing core financial functions must comply with core financial system requirements. The
       core financial system requirements state that the agency core financial system must contain automated
       processes to perform payment management functions. HUDCAPS does not import or update vendor
       data in accordance with requirements and does not meet all accounts payable, invoicing, disbursing, and
       payment follow-up requirements related to how payments are processed. For instance, HUDCAPS does not
       record full or partial receipt and acceptance of goods and services by document line item, perform matching
       options that match invoices to obligations, receive reports and acceptance data, and validate invoice period
       of performance and invoice delivery and performance dates and is not being used to calculate the payment
       amount, including discounts, interest, and penalties. Therefore, HUDCAPS does not meet the core financial
       system requirements for the payment management function, making it noncompliant with FFMIA. HUD did
       not declare the HUDCAPS application non-FFMIA-compliant.




66
                                                                                                APPENDIX THREE CHARTS




    Although HUD certified 34 individual systems as compliant with Federal financial management systems
requirements, HUD had not performed independent reviews of all of its financial management systems
in accordance with OMB Circular A-127 in the last 4 years. Instead, HUD relied upon the results of OMB
Circular A-123 and Federal Information Security Management Act (FISMA) annual internal control reviews
for individual applications. In fiscal year 2013, OIG determined that HUD’s information security program had
significant deficiencies and many areas of the program were not FISMA compliant. Collectively and in the
aggregate, systems deficiencies continued to exist.




                                                                                                                 67
SEMIANNUAL REPORT TO CONGRESS




 APPENDIX ONE                   PEER REVIEW REPORTING


       BACKGROUND
       The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203), section 989C,
       requires inspectors general to report the latest peer review results in their semiannual reports to Congress.
       The purpose in doing so is to enhance transparency within the government. Both the Office of Audit and
       Office of Investigation are required to undergo a peer review of their individual organizations every 3 years.
       The purpose of the review is to ensure that the work completed by the respective organizations meets the
       applicable requirements and standards. The following is a summary of the status of the latest round of peer
       reviews for the organization.


       OFFICE OF AUDIT

       PEER REVIEW CONDUCTED ON HUD OIG
       The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), received
       a grade of pass (the highest rating) on the peer review report issued by the U.S. Department of Education
       Inspector General on September 28, 2012.  There were no recommendations included in the System Review
       Report. The report stated:


            In our opinion, the system of quality control in effect for the year ended March 31, 2012, for the audit
            organization of the HUD OIG has been suitably designed and complied with to provide the HUD OIG with
            reasonable assurance of performing and reporting in conformity with applicable professional standards
            in all material respects. Federal audit organizations can receive a rating of pass, pass with deficiencies, or
            fail. The HUD OIG has received a peer review rating of pass.



       PEER REVIEW CONDUCTED BY HUD OIG ON DOD
       HUD OIG conducted an external peer review of the U.S. Department of Defense (DoD) OIG, Office of Audit,
       and issued a final report November 13, 2012. DoD OIG received a peer review rating of pass (with a scope
       limitation). There are no outstanding recommendations. A copy of the external quality control review report
       can be viewed at www.dodig.mil/pubs/reviews.html.



       OFFICE OF INVESTIGATION

       PEER REVIEW CONDUCTED ON HUD OIG
       The most recent peer review of the Office of Investigation was conducted in 2011 by the U.S. Department of
       Health and Human Services OIG. The results of the peer review found HUD OIG compliant (the highest
       rating) with the quality of standards established by the inspector general community and the attorney general
       guidelines.


       PEER REVIEW CONDUCTED BY HUD OIG ON SSA OIG
       HUD OIG conducted an external peer review of the U.S. Social Security Administration (SSA) OIG, Office of
       Investigation, and issued a final report on August 12, 2013. HUD OIG determined that SSA OIG complied with
       applicable quality standards.




68
                                                                                 APPENDIX TWO AUDIT REPORTS ISSUED




APPENDIX 2         AUDIT REPORTS ISSUED



INTERNAL REPORTS
AUDIT REPORTS

CHIEF FINANCIAL OFFICER

2013-DP-0007        Information System Control Weaknesses Identified in the Hyperion Application System,
                    09/30/2013.

CHIEF INFORMATION OFFICER

2013-DP-0006        Weaknesses Identified in HUD’s Fiscal Year 2012 Security Program, 09/12/2013.

COMMUNITY PLANNING AND DEVELOPMENT

2013-AT-0002        HUD’s Office of Community Planning and Development Had Established and
                    Implemented a Risk Assessment Process Adequate for Evaluating Grants Administered or
                    Carried Out by Subrecipients, 08/26/2013.
2013-AT-0003        Economic Development Programs Lacked Adequate Controls To Ensure Program
                    Effectiveness, 09/03/2013. Questioned: $2,251,838; unsupported: $2,251,838; better use:
                    $5,162,630.
2013-NY-0003        HUD Officials Did Not Always Monitor Grantee Compliance With the CDBG Timeliness
                    Spending Requirement, 07/19/2013. Better use: $8,379,012.

FAIR HOUSING AND EQUAL OPPORTUNITY

2013-KC-0002        HUD Did Not Enforce the Reporting Requirements of Section 3 of the Housing
                    and Urban Development Act of 1968 for Public Housing Authorities, 06/26/2013.
                    Questioned: $26,025,191; unsupported: $26,025,191.

HOUSING

2013-AT-0001        The Office of Housing Had Not Fully Developed Formal Risk Based Procedures
                    for Postendorsement Underwriting Reviews of Multifamily and Healthcare Loans,
                    05/13/2013.
2013-KC-0001        FHA Had Adequately Reduced Mortgage Insurance Claims for Funds Held by Lenders,
                    05/08/2013.
2013-KC-0003        HUD Did Not Have Effective Controls To Ensure That Lenders Reported Defaults
                    Accurately and in a Timely Manner, 09/10/2013.
2013-KC-0004        HUD Paid Claims That Lacked Contact or Collection Activities With Coborrowers,
                    09/18/2013. Better use: $191,000,000.
2013-LA-0001        HUD Did Not Always Follow Monthly Accounting Report Requirements and Did Not
                    Collect Net Cash for Multifamily Projects With HUD-Held Mortgages, 05/03/2013.
2013-LA-0002        FHA Paid Claims for Approximately 4,457 Preforeclosure Sales That Did Not Meet
                    Minimum Net Sales Proceeds Requirements, 09/05/2013. Better use: $6,898,518.




                                                                                                              69
SEMIANNUAL REPORT TO CONGRESS




      OFFICE OF DEPARTMENTAL OPERATIONS AND COORDINATION

      2013-HA-0001                  HUD’s Oversight of the Wage Restitution and Deposit Account Needs Improvement,
                                    04/16/2013. Questioned: $11,897; unsupported: $11,897; better use: $1,307,337.

      PUBLIC AND INDIAN HOUSING

      2013-HA-0002                  HUD’s Office of Public and Indian Housing Did Not Announce Additional Funding,
                                    Publish Awards, and Justify Score Changes for Its HOPE VI Revitalization Grants,
                                    06/07/2013.
      2013-KC-0005                  HUD Had Made Progress in Reducing Oversubsidization in the Housing Choice Voucher
                                    Program, but the Problem Continued To Exist, 09/23/2013. Better use: $1,128,000.
      2013-NY-0002                  HUD Can Improve Public Housing Agencies Use of Housing Choice Vouchers by
                                    Consistently Implementing All Utilization Protocols and Improving Controls, 07/18/2013.
                                    Better use: $1,961,078.
      2013-PH-0004                  HUD’s Oversight of Its Moving to Work Demonstration Program Needs Improvement,
                                    09/27/2013.

      AUDIT-RELATED MEMORANDUMS15

      CHIEF FINANCIAL OFFICER

      2013-IE-0804                  Evaluation of HUD’s Property Inventory System, 09/27/2013.

      GOVERNMENT NATIONAL MORTGAGE ASSOCIATION

      2013-IE-0805                  Evaluation of Ginnie Mae’s Managed Data Center Sole-Source Requisition, 09/30/2013.

      HOUSING

      2013-LA-0803                  Reviews of Six FHA Lenders Demonstrated That HUD Needs To Strengthen Its Oversight
                                    of Prohibited Restrictive Covenants, 09/23/2013.
      2013-LA-0804                  Corrective Action Verification, Underwriting Review of 15 Lenders, Report 2011-CF-1801,
                                    09/24/2013.

      LEAD HAZARD CONTROL

      2013-KC-0801                  Healthy Homes Needs To Strengthen Its Controls Over Lead Hazard Control Grant
                                    Administrative Costs, 04/18/2013.



      EXTERNAL REPORTS
      AUDIT REPORTS

      COMMUNITY PLANNING AND DEVELOPMENT

      2013-AT-1004                  The City of Sarasota Did Not Always Properly Administer Its NSP2, Sarasota, FL,
                                    04/25/2013.
      2013-AT-1005                  The City of Rocky Mount Did Not Properly Administer Its HOME Investment Partnerships
                                    Program, Rocky Mount, NC, 05/02/2013. Questioned: $322,595; unsupported: $313,286.
      2013-AT-1006                  The Puerto Rico Housing Finance Authority Did Not Always Comply With HOME
                                    Requirements, San Juan, PR, 07/23/2013. Questioned: $89,331; unsupported: $89,331;
                                    better use: $18,684,292.



     15 The memorandum format is used to communicate the results of reviews not performed in accordance with generally
         accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
         requests for information, to report on the results of a survey, or to report the results of civil actions or settlements.




70
                                                                             APPENDIX TWO AUDIT REPORTS ISSUED




2013-AT-1008   The City of West Palm Beach Did Not Always Properly Administer Its HOME Program,
               West Palm Beach, FL, 09/30/2013. Questioned: $1,878,764; unsupported: $1,246,770;
               better use: $1,216,576.
2013-BO-1002   The City of Worcester Did Not Properly Administer Its CDBG Program, Worcester, MA,
               07/29/2013. Questioned: $6,336,944; unsupported: $3,927,630; better use: $153,268.
2013-CH-1002   The City of Toledo Lacked Adequate Controls Over Its CDBG-Funded Code Violation
               Abatement Program, Toledo, OH, 06/07/2013. Questioned: $105,591; unsupported:
               $23,719.
2013-CH-1006   The State of Michigan Lacked Adequate Controls Over Its NSP Under the American
               Recovery and Reinvestment Act of 2009, Lansing, MI, 09/15/2013. Questioned: $238,525;
               unsupported: $183,532.
2013-CH-1008   Community Advocates Did Not Properly Administer Its Program and Recovery Act Grant
               Funds, Milwaukee, WI, 09/17/2013. Questioned: $1,710,568; unsupported: $1,710,568.
2013-CH-1010   The City of Toledo Did Not Always Administer Its CDBG-R Program in Accordance With
               HUD’s and Its Own Requirements., Toledo, OH, 09/30/2013. Questioned: $74,018;
               unsupported: $58,958.
2013-DE-1002   A Hotline Complaint About CARE Housing, Inc., Was Not Substantiated, Fort Collins, CO,
               08/13/2013.
2013-FW-1008   The City of New Orleans Did Not Have Adequate Financial and Programmatic Controls
               To Ensure That It Expended and Reported Funds in Accordance With Program
               Requirements, New Orleans, LA, 09/24/2013. Questioned: $294,757; unsupported:
               $159,987; better use: $465,506.
2013-KC-1002   The State Did Not Monitor the City of Cedar Rapids’ Voluntary Property Acquisition
               Program in Accordance With Its Approved Disaster Recovery Action Plans, Des Moines,
               IA, 05/06/2013.
2013-LA-1004   The City of San Bernardino Did Not Administer Its CDBG and CDBG-Recovery Act
               Programs in Accordance With HUD Rules and Regulations, San Bernardino, CA,
               04/23/2013. Questioned: $7,805,349; unsupported: $7,588,889.
2013-LA-1006   The City of Santa Ana Did Not Administer NSP2 Funds in Accordance With HUD Rules
               and Requirements, Santa Ana, CA, 06/17/2013. Questioned: $669,632; better use:
               $375,742.
2013-LA-1007   The County of Santa Barbara Did Not Comply With HOME Investment Partnerships
               Program Requirements, Santa Barbara, CA, 07/09/2013. Questioned: $3,555,101;
               unsupported: $3,110,602.
2013-LA-1009   The City of Hawthorne Inappropriately Used Nearly $1.6 Million in HOME Funds for
               Section 8 Tenants, Hawthorne, CA, 09/13/2013. Questioned: $1,595,113.
2013-LA-1010   The City of Hawthorne Did Not Administer Its CDBG Program Cost Allocations
               in Accordance With HUD Rules and Requirements, Hawthorne, CA, 09/20/2013.
               Questioned: $1,674,891; unsupported: $1,640,863.
2013-NY-1006   Nassau County Did Not Administer It’s HOME Investment Partnerships Program in
               Accordance With HUD Requirements, Nassau County, NY, 05/13/2013. Questioned:
               $2,616,945; unsupported: $2,538,415; better use: $31,470.
2013-NY-1008   The Lower Manhattan Development Corporation Generally Administered CDBG Disaster
               Recovery Assistance Funds in Accordance With HUD Regulations, New York, NY,
               07/18/2013.




                                                                                                           71
SEMIANNUAL REPORT TO CONGRESS




     2013-NY-1009               Essex County’s HOME Investment Partnerships Program Was Not Always Administered
                                in Compliance With Program Requirements and Federal Regulations, Essex County, NJ,
                                08/09/2013. Questioned: $1,270,548; unsupported: $1,195,578; better use: $18,652,668.
     2013-NY-1010               The City of Auburn Did Not Always Administer Its CDBG Program in Accordance With
                                HUD Requirements, Auburn, NY, 09/26/2013. Questioned: $1,126,987; unsupported:
                                $1,126,987; better use: $2,451,645.

     HOUSING

     2013-AT-1007               Lighthouse Inn, an Assisted Living Facility Insured Under Section 232, Violated Its
                                Executed Regulatory Agreement, Pompano Beach, FL, 09/13/2013. Questioned:
                                $366,087; unsupported: $208,154.
     2013-CH-1007               Independent Bank Generally Complied With HUD’s Quality Control and Underwriting
                                Requirements, Ionia, MI, 09/17/2013.
     2013-CH-1011               The Michigan State Housing Development Authority Did Not Follow HUD’s Requirements
                                Regarding the Administration of Its Program, Lansing, MI, 09/30/2013. Questioned:
                                $2,120,791; unsupported: $1,033,753; better use: $31,148,477.
     2013-DE-1001               Utah Housing Corporation Did Not Always Properly Determine Borrower Eligibility
                                for FHA’s Preforeclosure Sale Program, West Valley City, UT, 05/15/2013. Questioned:
                                $1,758,069; unsupported: $1,539,699.
     2013-DE-1003               The Retreat at Church Ranch Did Not Submit the Management Agent Certification to
                                HUD for Approval and Did Not Maintain Complete and Accurate Books of Account,
                                Westminster, CO, 09/10/2013. Questioned: $119,218; unsupported: $119,218.
     2013-KC-1003               The Temtor Housing Development Commission Disbursed Project Funds for Ineligible
                                and unsupported Expenses, St. Louis, MO, 08/08/2013. Questioned: $718,588;
                                unsupported: $316,883.
     2013-LA-1005               All Western Mortgage Did Not Fully Comply With FHA Program Requirements
                                Concerning Outside Employment and Timeliness of Quality Control Reviews, Las Vegas,
                                NV, 05/22/2013.
     2013-LA-1008               The Lending Company, Inc., Did Not Always Comply With FHA Underwriting and Quality
                                Control Program Requirements, Phoenix, AZ, 08/20/2013. Questioned: $712,593;
                                unsupported: $5,450; better use: $55,439,896.
     2013-PH-1003               Madison Park North Apartments Generally Ensured That Procurement and Reserve for
                                Replacement Requirements Were Met, Baltimore, MD, 04/19/2013.
     2013-PH-1006               The State of Maryland Generally Administered Its Emergency Mortgage Assistance
                                Program According to Applicable HUD Requirements, Crownsville, MD, 08/08/2013.
     2013-SE-1002               Volunteers of America’s Whispering Pines Senior Village Generally Used and Reported Its
                                Green Retrofit Recovery Act Funds in Accordance With HUD and Recovery Act Rules and
                                Regulations, Estacada, OR, 04/25/2013.

     LEAD HAZARD CONTROL

     2013-SE-1003               The City of Spokane Did Not Always Appropriately Procure, Match, or Report Funds in
                                Accordance With Lead Hazard Control and Recovery Act Requirements, Spokane, WA,
                                04/26/2013. Questioned: $2,568,959; unsupported: $2,568,959.




72
                                                                                  APPENDIX TWO AUDIT REPORTS ISSUED




PUBLIC AND INDIAN HOUSING

2013-BO-1003       The Housing Authority of the City of Lowell Did Not Always Operate Its Public Housing
                   and Recovery Act Capital Fund Programs in Compliance With HUD Regulations and
                   Its Own Policies, Lowell, MA, 09/04/2013. Questioned: $11,593,909; unsupported:
                   $11,593,909.
2013-CH-1003       The Stark Metropolitan Housing Authority Did Not Follow HUD’s Requirements and Its
                   Own Policies Regarding the Administration of Its Program, Canton, OH, 07/15/2013.
                   Questioned: $10,881,904; unsupported: $4,522,232; better use: $320,501.
2013-CH-1004       The Inkster Housing Commission Did Not Follow HUD’s Requirements and Its Own
                   Policies Regarding the Administration of Its Programs, Inkster, MI, 08/01/2013.
                   Questioned: $648,485; unsupported: $457,092; better use: $324,523.
2013-CH-1005       The Warren Metropolitan Housing Authority Did Not Adequately Enforce HUD’s
                   Housing Quality Standards, Lebanon, OH, 08/30/2013. Questioned: $30,524; better use:
                   $584,761.
2013-CH-1009       The Flint Housing Commission Did Not Always Administer Its Grant in Accordance With
                   Recovery Act, HUD’s, and Its Own Requirements, Flint, MI, 09/27/2013. Questioned:
                   $960,904; unsupported: $956,560; better use: $21,861.
2013-CH-1012       The Hamtramck Housing Commission Did Not Administer Its Grant in Accordance
                   With Recovery Act, HUD’s, and Its Own Requirements, Hamtramck, MI, 09/30/2013.
                   Questioned: $244,876; unsupported: $123,046; better use: $327.
2013-DE-1004       The Adams County Housing Authority Did Not Properly Use its Disposition Sales
                   Proceeds, Commerce City, CO, 09/26/2013.
2013-DE-1005       The Jefferson County Housing Authority Did Not Properly Use Its Disposition Sales
                   Proceeds, Wheat Ridge, CO, 09/30/2013. Questioned: $1,126,974; better use: $5,496,367.
2013-FW-1004       The Housing Authority of the City of El Paso Did Not Follow Recovery Act Obligation
                   Requirements or Procurement Policies, El Paso, TX, 04/12/2013. Questioned: $8,553,115;
                   unsupported: $5,874,417.
2013-FW-1005       The Executive Director and Board of Commissioners of the Grants Housing Authority
                   Mismanaged the Authority, Grants, NM, 05/14/2013. Questioned: $64,843.
2013-FW-1006       The Management and Board of Commissioners of the Harris County Housing Authority
                   Mismanaged the Authority, Houston, TX, 06/19/2013. Questioned: $27,892,454;
                   unsupported: $23,361,275.
2013-FW-1007       The City of Eagle Pass Housing Authority Generally Followed Recovery Act Public
                   Housing Capital Fund Requirements, Eagle Pass, TX, 08/14/2013.
2013-NY-1007       Authority Officials Generally Administered Recovery Act Funds in Accordance With
                   Requirements but Budgetary and Procurement Controls Had Weaknesses, New
                   Brunswick, NJ, 06/21/2013. Questioned: $265,020; unsupported: $265,020.
2013-PH-1004       The Blair County Housing Authority Generally Followed HUD’s Housing Choice Voucher
                   Program Regulations, Hollidaysburg, PA, 06/27/2013.
2013-PH-1005       The Charleston-Kanawha Housing Authority Needs To Improve Its Housing Quality
                   Standards Inspections and Apply Correct Payment Standards When Calculating Housing
                   Assistance Payments, Charleston, WV, 07/17/2013. Questioned: $37,387; better use:
                   $3,432,149.
2013-SE-1004       Home Forward Generally Complied With Moving to Work Housing Choice Voucher
                   Requirements, Portland, OR, 08/08/2013.




                                                                                                               73
SEMIANNUAL REPORT TO CONGRESS




      AUDIT-RELATED MEMORANDUMS16

      COMMUNITY PLANNING AND DEVELOPMENT

      2013-AT-1801               Complaint Review – Apalachicola, FL’s Small Cities CDBG Program, 05/02/2013.

      GENERAL COUNSEL

      2013-CF-1801               Final Civil Action: Fraudulent Expenses Paid from CDBG Funds, New York, NY,
                                 06/04/2013. Questioned: $311,968; better use: $623,936.
      2013-CF-1802               Final Civil Action: Judgment of Civil Money Penalty Imposed on Realtor for
                                 Preforeclosure Scheme, Upland, CA, 07/11/2013. Better use: $40,000.
      2013-LA-1804               Final Civil Action: Settlement of Allegations of Failing To Fully Comply With HUD NSP
                                 Requirements and Submitting False Certifications to HUD, Mesa, AZ, 08/20/2013. Better
                                 use: $7,500.
      2013-PH-1803               Review of the Philadelphia Housing Authority’s Compliance with Federal Lobbying
                                 Disclosure Requirements and Restrictions, Philadelphia, PA, 04/26/2013.
      2013-PH-1805               Final Civil Action: Civil Money Penalty Imposed on Borrower for Violation of Home Equity
                                 Conversion Mortgage Principal Residency Requirement, Washington, DC, 09/20/2013.
                                 Better use: $5,000.

      HOUSING

      2013-DE-1801               Interim Memorandum Report on Wyoming Housing Opportunities Association’s Village
                                 Creek Townhomes’ 51 FHA Mortgage Defaults, Cheyenne, WY, 08/16/2013.
      2013-LA-1802               Pulte Mortgage LLC, Allowed the Recording of Prohibited Restrictive Covenants,
                                 Englewood, CO, 04/18/2013. Questioned: $21,774,889; unsupported: $11,865,597; better
                                 use: $1,359,876.
      2013-LA-1803               CTX Mortgage Company LLC Allowed the Recording of Prohibited Restrictive Covenants,
                                 Dallas, TX, 04/18/2013. Questioned: $13,261,173; unsupported: $7,975,892; better use:
                                 $892,032.
      2013-PH-1804               Review of the Administration of HUD Funds by Brownsville Apartments, Brownsville, PA,
                                 07/22/2013. Questioned: $848,615; unsupported: $709,753.

      PUBLIC AND INDIAN HOUSING

      2013-FW-1802               The Idabel Housing Authority Did Not Comply With HUD Requirements, Idabel, OK,
                                 06/21/2013. Questioned: $180,379; unsupported: $180,379.
      2013-FW-1803               The City of Brackettville Housing Authority Failed To Properly Operate Its Low Rent
                                 Program But Generally Oversaw Its Capital Fund Grants Properly, Brackettville, TX,
                                 09/18/2013. Questioned: $29,506; unsupported: $12,357; better use: $2,307.
      2013-FW-1804               The Kenner Housing Authority Did Not Administer Its Housing Choice Voucher Program
                                 in Compliance With Portability Requirements, Kenner, LA, 09/24/2013. Questioned:
                                 $185,021; unsupported: $171,572.
      2013-FW-1805               The Malakoff Housing Authority Did Not Have Sufficient Controls Over Its Public Housing
                                 Programs, Including Its Recovery Act Funds, Malakoff, TX, 09/26/2013. Questioned:
                                 $577,367; unsupported: $224,352.




     16 The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
         government audit standards, to close out assignments with no findings and recommendations, to respond to requests for
         information, to report on the results of a survey, or to report the results of civil actions or settlements.




74
                                                                                        APPENDIX THREE TABLES




       APPENDIX 3                  TABLES



TABLE A

AUDIT REPORTS ISSUED BEFORE THE START OF PERIOD WITH
NO MANGEMENT DECISION AT 09/30/2013
*Significant audit reports described in previous semiannual reports



  REPORT NUMBER & TITLE                        REASON FOR LACK OF MANAGEMENT DECISION    ISSUE DATE

  * 2009-AT-0001 HUD Lacked Adequate
  Controls to Ensure the Timely Commit-        See chapter 9, page 49.                    09/28/2009
  ment and Expenditure of HOME funds

  * 2012-LA-1801 Shea Mortgage, Inc.,
  Allowed the Recording of Prohibited          See chapter 9, page 51.                     09/26/2012
  Restrictive Covenants, Aliso Viejo, CA

  * 2013-LA-1801 Standard Pacific Mort-
  gage, Inc., Allowed the Recording of
                                               See chapter 9, page 52.                     02/05/2013
  Prohibited Restrictive Covenants, Irvine,
  CA

  2013-BO-0001 HUD’s Proposed HOME
  Regulations Generally Addressed
  Systemic Deficiencies, but Field Office      See chapter 9, page 53.                     02/12/2013
  Monitoring and Data Validation Need
  Improvement

  2013-FW-0001 Generally, HUD’s Hur-
  ricane Disaster Recovery Program As-
  sisted the Gulf Coast States’ Recovery;      See chapter 9, page 54.                     03/28/2013
  However, Some Program Improvements
  Are Needed

  2013-IE-0803 Follow-up of the Inspec-
  tions and Evaluations Division on Its
  Inspection of the State of Louisiana’s
                                               See chapter 9, page 56.                     03/29/2013
  Road Home Elevation Incentive Program
  Homeowner Compliance (IED-09-002,
  March 2010)




                                                                                                         75
SEMIANNUAL REPORT TO CONGRESS




TABLE B

Significant audit reports for which final action had not been completed
within 12 months after the date of the Inspector General’s report


                                                                                                DECISION
 REPORT NUMBER REPORT TITLE                                                        ISSUE DATE                FINAL ACTION
                                                                                                DATE

                      Housing Authority of the City of Tupelo, Housing Pro-
 2002-AT-1002                                                                      07/03/2002   10/31/2002   07/01/2015
                      grams Operations, Tupelo, MS

                      Nationwide Survey of HUD’s Office of Housing Section
 2002-KC-0002                                                                      07/31/2002   11/22/2002   Note 1
                      232 Nursing Home Program

                      Corporacion Para el Fomento Economico de la Ciudad
 2005-AT-1013         Capital Did Not Administer Its Independent Capital Fund      09/15/2005   01/11/2006   Note 1
                      in Accordance With HUD Requirements, San Juan, PR
                      HUD’s Controls over the Reporting, Oversight, and Moni-
 2006-NY-0001         toring of the Housing Counseling Assistance Program          06/08/2006 01/08/2007     10/01/2015
                      Were Not Adequate

                      The Columbus Housing Authority Improperly Expended
 2006-KC-1013                                                                      08/30/2006 10/17/2006     11/30/2014
                      and Encumbered Its Public Housing Funds, Columbus, NE

                      Assessment of HUD’s Compliance With OMB Memoran-
 2006-DP-0802         dum M-06-16, “Protection of Sensitive Agency Informa-        09/21/2006   11/24/2006   09/30/2014
                      tion”

                      HUD Can Improve Its Use of Residual Receipts To Reduce
 2007-KC-0002                                                                      01/29/2007   01/29/2007   Note 1
                      Housing Assistance Payments

                      HUD Did Not Recapture Excess Funds from Assigned
 2007-KC-0003                                                                      04/30/2007   08/27/2007   Note 1
                      Bond-Financed Projects

                      The Cathedral Foundation of Jacksonville Used More
 2007-AT-1010         Than $2.65 Million in Project Funds for Questioned Costs,    08/14/2007   12/03/2007   04/10/2017
                      Jacksonville, FL
                      State of Louisiana, Road Home Program, Funded 418
 2008-AO-1002         Grants Coded Ineligible or Lacking an Eligibility Determi-   01/30/2008   05/12/2008   Note 1
                      nation, Baton Rouge, LA

                      HUD Lacked Adequate Controls Over the Physical Condi-
 2008-AT-0003                                                                      05/14/2008   09/10/2008   10/31/2014
                      tion of Section 8 Voucher Program Housing Stock

                      Review of Selected FHA Major Applications’ Information
 2008-DP-0004                                                                      06/12/2008   10/08/2008   Note 1
                      Security Controls

                      The Housing Authority of the City of Calexico Did Not
 2008-LA-1012         Comply With Public Housing Program Rules and Regula-         07/01/2008   10/14/2008   12/31/2013
                      tions, Calexico, CA




76
                                                                                                 APPENDIX THREE TABLES




                                                                                          DECISION
REPORT NUMBER REPORT TITLE                                                   ISSUE DATE                FINAL ACTION
                                                                                          DATE

               Orchard Court Multifamily Project Was Not Properly Man-
2009-BO-1002                                                                 11/06/2008   01/16/2009   01/27/2014
               aged in Accordance with HUD Regulations, Bath, ME

               State of Louisiana, Road Home Program, Did Not Ensure
2009-AO-1001   That Road Home Employees Were Eligible To Receive Ad-         05/05/2009   09/16/2009   Note 1
               ditional Compensation Grants, Baton Rouge, LA
               State of Louisiana, Road Home Program, Did Not Ensure
2009-AO-1002   That Multiple Disbursements to a Single Damaged Resi-         05/05/2009   09/16/2009   Note 1
               dence Address Were Eligible, Baton Rouge, LA
               The City of East Cleveland Did Not Adequately Manage Its
2009-CH-1008   HOME Investment Partnerships and CDBG Programs, East          05/11/2009   09/08/2009 07/31/2014
               Cleveland, OH
               The City of Rome Did Not Administer Its Economic
2009-NY-1012   Development Activity in Accordance With HUD Require-          05/20/2009 09/23/2009     01/30/2032
               ments, Rome, NY

               Review of Implementation of Security Controls Over
2009-DP-0005                                                                 06/11/2009   11/17/2009   12/31/2014
               HUD’s Business Partners

               The Housing Authority of the City of Terre Haute Failed To
               Follow Federal Requirements and Its Employment Con-
2009-CH-1011                                                                 07/31/2009   11/24/2009   01/01/2030
               tract Regarding Nonprofit Development Activities, Terre
               Haute, IN

               HUD Subsidized an Estimated 2,094 to 3,046 Households
2009-KC-0001                                                                 08/14/2009   03/31/2011   Note 1
               That Included Lifetime Registered Sex Offenders

               HUD Lacked Adequate Controls To Ensure the Timely
2009-AT-0001                                                                 09/28/2009 03/18/2011     Note 3
               Commitment and Expenditure of HOME funds

               The State of Iowa Misspent CDBG Disaster Assistance
2010-KC-1001   Funds and Failed To Check for Duplicate Benefits, Des         03/10/2010   09/13/2010   Note 2
               Moines, IA
               The City of East St. Louis Did Not Properly Allocate Salary
               and Building Expenses or Properly Document Its Process
2010-KC-1003                                                                 03/26/2010   07/22/2010   Note 1
               To Secure a Consulting Services Contract, East St. Louis,
               IL

               The Housing Authority of Whitesburg Mismanaged Its
2010-AT-1003                                                                 04/28/2010   08/26/2010   11/29/2035
               Operations, Whitesburg, KY

               Sasha Bruce Youthwork, Incorporated, Did Not Support
2010-PH-1008                                                                 05/11/2010   11/03/2010   Note 1
               More Than $1.9 Million in Expenditures, Washington, DC

               The Puerto Rico Department of Housing Failed To Prop-
2010-AT-1006   erly Manage Its HOME Investment Partnerships Program,         06/11/2010   10/08/2010   Note 2
               San Juan, PR




                                                                                                                  77
SEMIANNUAL REPORT TO CONGRESS




                                                                                               DECISION
 REPORT NUMBER REPORT TITLE                                                       ISSUE DATE                FINAL ACTION
                                                                                               DATE

                      The DuPage Housing Authority Inappropriately Admin-
 2010-CH-1008         istered Its Section 8 Project-Based Voucher Program,        06/15/2010   10/08/2010   07/31/2014
                      Wheaton, IL
                      The Housing Authority, City of Wilson, Lacked the Capac-
 2010-AT-1007         ity To Effectively Administer Recovery Act Funds, Wilson,   07/27/2010   11/24/2010   11/27/2013
                      NC
                      The Puerto Rico Department of Housing Did Not Ensure
 2010-AT-1011         Compliance With HOME Program Objectives, San Juan,          08/25/2010   12/06/2010   Note 1
                      PR
                      HUD Was Not Tracking Almost 13,000 Defaulted HECM
 2010-FW-0003         Loans With Maximum Claim Amounts of Potentially More        08/25/2010   12/03/2010   Note 2
                      Than $2.5 Billion

                      HUD’s Office of Single Family Housing’s Management
 2010-LA-0002                                                                     09/15/2010   01/13/2011   Note 2
                      Controls Over Its Automated Underwriting Process

                      The City of East St. Louis Awarded Block Grant Program
 2010-KC-1008         Funds to Recipients Without Adequately Verifying Their      09/28/2010   01/26/2011   Note 1
                      Eligibility, East St. Louis, IL

                      HUD Needs To Improve Controls Over Its Administration
 2010-HA-0003                                                                     09/30/2010   01/27/2011   Note 1
                      of Completed and Expired Contracts

                      The City of Flint Lacked Adequate Controls Over Its
                      HOME Program Regarding Community Housing Develop-
 2011-CH-1001         ment Organizations’ Home-Buyer Projects, Subrecipients’     10/13/2010   02/03/2011   Note 2
                      Activities, and Reporting Accomplishments in HUD’s
                      System, Flint, MI

                      Additional Details to Supplement Our Report on HUD’s
 2011-FO-0003                                                                     11/15/2010   08/08/2011   06/15/2015
                      Fiscal Years 2010 and 2009 Financial Statements

                      The City of Binghamton Did Not Always Administer Its
 2011-NY-1004         Section 108 Loan Program in Accordance With HUD Re-         12/21/2010   04/20/2012   Note 2
                      quirements, Binghamton, NY
                      The District of Columbia Did Not Administer Its HOME
 2011-PH-1005         Program in Accordance With Federal Requirements,            12/23/2010   04/22/2011   Note 1
                      Washington, DC
                      The City of Cleveland Lacked Adequate Controls Over Its
                      HOME Investment Partnerships Program and American
 2011-CH-1003                                                                     12/27/2010   04/26/2011   04/01/2014
                      Dream Downpayment Initiative-Funded Afford-A-Home
                      Program, Cleveland, OH
                      The Municipality of Arecibo Charged the HOME Program
 2011-AT-1802         With Expenditures That Did Not Meet Program Objectives, 01/27/2011       05/26/2011   Note 1
                      Arecibo, PR




78
                                                                                               APPENDIX THREE TABLES




                                                                                        DECISION
REPORT NUMBER REPORT TITLE                                                 ISSUE DATE                FINAL ACTION
                                                                                        DATE

               The State of Indiana’s Administrator Lacked Adequate
               Controls Over the State’s HOME Investment Partnerships
2011-CH-1004                                                               01/31/2011   05/25/2011   10/15/2013
               Program and American Dream Downpayment Initiative-
               Funded First Home/PLUS Program, Indianapolis, IN
               The City of East St. Louis Did Not Properly Manage
2011-KC-1001   Housing Rehabilitation Contracts Funded by the CDBG         02/09/2011   06/09/2011   Note 1
               Program, East St. Louis, IL
               The DuPage Housing Authority Inappropriately Admin-
2011-CH-1006   istered Its Section 8 Housing Choice Voucher Program,       03/23/2011   07/28/2011   07/31/2014
               Wheaton, IL
               The Missouri Housing Development Commission Did Not
               Always Disburse Its Tax Credit Assistance Program Funds
2011-KC-1003                                                               04/01/2011   07/29/2011   Note 1
               in Accordance With Recovery Act Requirements, Kansas
               City, MO
               The East Orange Revitalization and Development Cor-
2011-NY-1009   poration Did Not Always Comply With HOME Program            04/07/2011   08/03/2011   07/01/2015
               Requirements and Federal Regulations, East Orange, NJ

               The Municipality of Mayaguez Did Not Ensure Compli-
2011-AT-1006                                                               04/08/2011   08/05/2011   Note 1
               ance With HOME Program Objectives, Mayaguez, PR

               The City of Buffalo Did Not Always Administer Its CDBG
2011-NY-1010   Program in Accordance With HUD Requirements, Buffalo,       04/15/2011   01/25/2012   11/15/2013
               NY
               The State of Mississippi Generally Ensured That Disburse-
2011-AO-1005   ments to Program Participants Were Eligible and Sup-        04/18/2011   08/16/2011   Note 1
               ported, Jackson, MS
               The Office of Healthcare Programs Could Increase Its
2011-FW-0002   Controls To More Effectively Monitor the Section 232        04/26/2011   08/17/2011   12/30/2013
               Program
               The State of Michigan Lacked Adequate Controls Over
               Its NSP Regarding Awards, Obligations, Subgrantees’
2011-CH-1008                                                               06/03/2011   11/30/2011   Note 2
               Administrative Expenses and Procurement, and Reporting
               Accomplishments, Lansing, MI
               The Lafayette Parish Housing Authority Violated HUD Pro-
2011-AO-0001   curement Requirements and Executed Unreasonable and         06/22/2011   10/13/2011   12/31/2013
               Unnecessary Contracts

               The City of Dunkirk Used CDBG Recovery Act Funding for
2011-NY-1802                                                               07/14/2011   11/10/2011   Note 2
               an Ineligible Activity, Dunkirk, NY

               The City of Compton Did Not Administer Its HOME Pro-
2011-LA-1016   gram in Compliance With HOME Requirements, Comp-            08/18/2011   12/15/2011   04/01/2014
               ton, CA




                                                                                                                79
SEMIANNUAL REPORT TO CONGRESS




                                                                                               DECISION
 REPORT NUMBER REPORT TITLE                                                       ISSUE DATE                FINAL ACTION
                                                                                               DATE

                      The City of Buffalo Did Not Always Disburse Homeless-
 2011-NY-1016         ness Prevention and Rapid Re-Housing Program Funds in       09/22/2011   01/25/2012   Note 2
                      Accordance With Regulations, Buffalo, NY
                      The Idaho Housing and Finance Association Did Not Al-
 2011-SE-1008         ways Comply With HOME Investment Partnerships Project 09/23/2011         01/18/2012   Note 2
                      and Cost Eligibility Regulations, Boise, ID

                      The Municipality of San Juan Did Not Properly Manage Its
 2011-AT-1018                                                                     09/28/2011   01/12/2012   Note 2
                      HOME Investment Partnerships Program, San Juan, PR

                      The City of Cleveland Lacked Adequate Controls Over Its
                      HOME Investment Partnerships Program-Funded Hous-
 2011-CH-1014                                                                     09/29/2011   01/26/2012   02/28/2014
                      ing Trust Fund Program Home-Buyer Activities, Cleveland,
                      OH
                      The Springfield Metropolitan Housing Authority Did Not
 2011-CH-1015         Administer Its Grant in Accordance With Recovery Act and 09/30/2011      01/24/2012   05/01/2015
                      HUD Requirements, Springfield, OH

                      The City of New York Charged Questionable Expenditures
 2012-NY-1002                                                                     10/18/2011   02/16/2012   Note 2
                      to Its HPRP, New York, NY

                      The City of Syracuse Did Not Always Administer Its CDBG
 2012-NY-1003         Program in Accordance With HUD Requirements, Syra-          10/25/2011   02/22/2012   Note 2
                      cuse, NY
                      HUD Needed to Improve Its Use of Its Integrated Dis-
 2012-PH-0001         bursement and Information System To Oversee Its CDBG        10/31/2011   02/28/2012   Note 2
                      Program

                      Additional Details To Supplement Our Report on HUD’s
 2012-FO-0003                                                                     11/15/2011   05/10/2012   04/01/2014
                      Fiscal Years 2011 and 2010 Financial Statements

                      HUD Did Not Adequately Support the Reasonableness
 2012-LA-0001         of the Fee-for-Service Amounts or Monitor the Amounts       11/16/2011   03/27/2012   02/27/2015
                      Charged

                      City of Modesto Did Not Always Comply With NSP2 Re-
 2012-LA-1003                                                                     12/22/2011   04/05/2012   Note 2
                      quirements, Modesto, CA

                      The Shelby County Housing Authority Mismanaged Its
 2012-AT-1007                                                                     01/26/2012   05/25/2012   12/31/2013
                      HUD-Funded Programs, Memphis, TN

                      The Saginaw Housing Commission Did Not Administer Its
 2012-CH-1002         Grant in Accordance With Recovery Act, HUD’s, and Its       01/26/2012   06/04/2012   05/31/2014
                      Requirements, Saginaw, MI
                      MetLife Bank’s Scottsdale, AZ, Branch Office Did Not Fol-
 2012-LA-1004         low FHA-Insured Loan Underwriting and Quality Control       01/26/2012   05/18/2012   Note 2
                      Requirements




80
                                                                                              APPENDIX THREE TABLES




                                                                                       DECISION
REPORT NUMBER REPORT TITLE                                                ISSUE DATE                FINAL ACTION
                                                                                       DATE

               Information System Deficiencies Noted During FHA’s Fis-
2012-FO-0004                                                              01/27/2012   05/21/2012   Note 2
               cal Year 2011 Financial Statement Audit

               HUD Controls Did Not Always Ensure That Home Equity
2012-PH-0004   Conversion Mortgage Loan Borrowers Complied With           02/09/2012   06/08/2012   Note 2
               Program Residency Requirements
               Audit Report on the Fiscal Year 2011 Review of Informa-
2012-DP-0001   tion Systems Controls in Support of the Financial State-   02/14/2012   07/02/2012   Note 2
               ments Audit
               The City of Syracuse Did Not Always Administer Its Eco-
2012-NY-1007   nomic Development Initiative Program in Accordance         02/21/2012   06/12/2012   Note 2
               With HUD Requirements, Syracuse, NY
               The State of Indiana’s Administrator Lacked Adequate
               Controls Over the State’s HOME Investment Partner-
2012-CH-1004                                                              02/24/2012   06/22/2012   Note 2
               ships Program Regarding CHDOs’ Activities and Income,
               Indianapolis, IN
               The East St. Louis Housing Authority Did Not Properly
2012-KC-1002   Manage or Report on Recovery Act Capital Funds, East St.   03/02/2012   06/29/2012   04/30/2014
               Louis, IL
               The State of Texas Did Not Follow Requirements for Its
2012-FW-1005   Infrastructure and Revitalization Contracts Funded With    03/07/2012   07/05/2012   12/31/2013
               CDBG Disaster Recovery Program Funds, Austin, TX

               Bank of America Corporation, Foreclosure and Claims
2012-FW-1802                                                              03/12/2012   07/09/2012   Note 2
               Process Review, Charlotte, NC

               The City of Los Angeles Did Not Expend Brownfields Eco-
               nomic Development Initiative and Section 108 Funds for
2012-LA-1005                                                              03/13/2012   09/19/2012   03/13/2014
               the Goodyear Industrial Tract Project in Accordance With
               HUD Requirements, Los Angeles, CA
               Mountain CAP of WV, Inc., Did Not Administer Its HPRP
2012-PH-1008   in Accordance With Applicable Recovery Act and HUD         03/15/2012   07/12/2012   Note 2
               Requirements, Buckhannon, WV
               Cuyahoga Metropolitan Housing Authority Did Not Oper-
2012-CH-1006   ate Its Section 8 Housing Choice Voucher Program Ac-       03/29/2012   07/18/2012   12/31/2013
               cording to HUD’s Requirements, Cleveland, OH
               The State of Michigan Lacked Adequate Controls Over Its
2012-CH-1007   Use of NSP Funds Under the HERA for a Project, Lansing,    03/30/2012   07/26/2012   Note 2
               MI

               Amar Plaza Was Not Administered in Accordance With
2012-LA-1006                                                              05/21/2012   09/17/2012   09/19/2014
               HUD Rules and Regulations, La Puente, CA

               The Municipality of Bayamón Did Not Always Ensure
2012-AT-1009   Compliance With HOME Investment Partnerships Pro-          05/23/2012   09/18/2012   Note 2
               gram Requirements, Bayamon, PR




                                                                                                               81
SEMIANNUAL REPORT TO CONGRESS




                                                                                                DECISION
 REPORT NUMBER REPORT TITLE                                                        ISSUE DATE                FINAL ACTION
                                                                                                DATE

                      The Management and Board of Commissioners of the
 2012-FW-1008         Housing Authority of the City of Port Arthur Failed To       06/01/2012   09/22/2012   03/31/2014
                      Exercise Their Fiduciary Responsibilities, Port Arthur, TX

                      Los Angeles Neighborhood Housing Services Did Not Al-
 2012-LA-1007                                                                      06/05/2012   09/21/2012   09/23/2014
                      ways Properly Administer Its NSP2 Grant, Los Angeles, CA

                      The City of Phoenix Did Not Always Comply With Pro-
 2012-LA-1008         gram Requirements When Administering Its NSP1 and            06/15/2012   10/15/2012   10/01/2013
                      NSP2 Grants, Phoenix, AZ
                      The Lower Manhattan Development Corporation Ap-
 2012-NY-1010         proved Invoices That Were Not Always Consistent With         07/27/2012   12/04/2012   Note 2
                      Subrecipient Agreements, New York, NY

                      The Jefferson Parish Housing Authority Violated Federal
 2012-AO-1002                                                                      07/30/2012   12/31/2012   03/19/2014
                      Regulations, Marrero, LA

                      Weststar Mortgage Corporation Did Not Comply With
 2012-FW-1012         HUD FHA Single Family Requirements for 10 Loans Re-          08/02/2012   12/31/2012   Note 2
                      viewed, Albuquerque, NM
                      The Hammond Housing Authority Did Not Administer Its
 2012-CH-1009         Recovery Act Grants in Accordance With Recovery Act,         08/03/2012   11/30/2012   11/22/2013
                      HUD’s, and Its Own Requirements, Hammond, IN
                      Prince George’s County Generally Did Not Administer
 2012-PH-1011         Its HOME Program in Accordance With Federal Require-         08/03/2012   11/30/2012   11/30/2013
                      ments, Largo, MD
                      Washington State Generally Complied With Lead Haz-
 2012-SE-1005         ard Control Grant and Recovery Act Requirements but          08/09/2012   10/05/2012   10/01/2013
                      Charged Excessive Administrative Costs, Olympia, WA

                      The City of Elizabeth Did Not Always Administer Its CDBG
 2012-NY-1011                                                                      08/15/2012   12/07/2012   12/06/2013
                      Program in Accordance With Regulations, Elizabeth, NJ

                      The Aurora Housing Authority Did Not Administer Its
 2012-CH-1010         Grant in Accordance With Recovery Act, HUD, and Its          09/05/2012   01/03/2013   12/31/2013
                      Own Requirements, Aurora, IL

                      HUD Did Not Effectively Oversee and Manage the Receiv-
 2012-KC-0003                                                                      09/05/2012   01/15/2013   12/31/2014
                      ership of the East St. Louis Housing Authority

                      Little Haiti Did Not Fully Comply With Federal Rules When
 2012-AT-1015                                                                      09/06/2012   01/03/2013   01/03/2014
                      Administering NSP2, Miami, FL

                      The State of Louisiana Generally Complied With Recovery
 2012-FW-1014                                                                      09/07/2012   02/08/2013   10/25/2013
                      Act HPRP, Baton Rouge, LA

                      Innotion Enterprises, Inc., Did Not Always Comply With Its
 2012-LA-1010                                                                      09/12/2012   01/10/2013   12/10/2013
                      REO Contract Requirements, Las Vegas, NV

                      Bankers Mortgage Group Loan Originations Did Not
 2012-LA-1011         Comply With FHA-Insured Loan Documentation Require-          09/13/2012   01/10/2013   11/15/2013
                      ments, Woodland Hills, CA




82
                                                                                              APPENDIX THREE TABLES




                                                                                       DECISION
REPORT NUMBER REPORT TITLE                                                ISSUE DATE                FINAL ACTION
                                                                                       DATE

               FHA Paid Claims for Approximately 11,693 Preforeclosure
2012-KC-0004                                                              09/18/2012   01/14/2013   12/17/2013
               Sales that Did Not Meet FHA Requirements

               HUD Did Not Always Enforce REO M&M III Program Re-
2012-LA-0003                                                              09/18/2012   01/09/2013   12/17/2013
               quirements

               HUD Did Not Ensure Public Housing Agencies’ Use of
2012-LA-0004   Property Insurance Recoveries Met Program Require-         09/21/2012   12/19/2012   01/01/2014
               ments

               Shea Mortgage, Inc., Allowed the Recording of Prohibited
2012-LA-1801                                                              09/26/2012   03/01/2013   Note 3
               Restrictive Covenants, Aliso Viejo, CA

               The Stark Metropolitan Housing Authority Did Not Always
2012-CH-1011   Administer Its Grant in Accordance With Recovery Act,      09/27/2012   01/15/2013   01/15/2014
               HUD’s, and Its Own Requirements, Canton, OH
               The Saginaw Housing Commission Did Not Always Ad-
               minister Its Section 8 Housing Choice Voucher Program
2012-CH-1012                                                              09/27/2012   01/07/2013   01/01/2023
               in Accordance With HUD’s and Its Own Requirements,
               Saginaw, MI
               The Flint Housing Commission Did Not Always Administer
2012-CH-1013   Its Grants in Accordance With Recovery Act, HUD’s, and     09/27/2012   01/24/2013   06/27/2014
               Its Own Requirements, Flint, MI

               HUD’s Oversight of Recovery Act-Funded Housing Pro-
2012-FO-0006                                                              09/27/2012   03/05/2013   11/29/2013
               grams

               The City of St. Louis Did Not Effectively Manage Its Re-
2012-KC-1006                                                              09/27/2012   01/25/2013   10/31/2013
               covery Act Funding, St. Louis, MO

               HUD’s Office of Community Planning and Development
2012-CH-0801   Needs To Improve Its Tracking of HOME Investment Part-     09/28/2012   02/13/2013   11/30/2013
               nerships Program Technical Assistance Activities
               Mortgage Now Inc. Did Not Always Comply With HUD’s
2012-CH-1014   Underwriting and Quality Control Requirements, Shrews-     09/28/2012   01/25/2013   01/24/2014
               bury, NJ
               A Summary of the Foreclosure and Claims Process
2012-CH-1803   Reviews for Five Mortgage Servicers That Engaged in Im-    09/28/2012   01/30/2013   04/30/2014
               proper Foreclosure Practices, Washington, DC

2012-DP-0005   Review of Controls Over HUD’s Mobile Devices               09/28/2012   12/18/2012   11/08/2014

               Village of Spring Valley Hotline Complaint Federal Hous-
2012-NY-1802   ing Finance Agency, Complaint number Z-12-0445-1,          09/28/2012   01/28/2003   01/27/2014
               Village of Spring Valley, NY
2012-CH-1015   Allen Mortgage, LLC, Did Not Comply With HUD Require-      09/30/2012   02/04/2013   01/25/2014
               ments for Underwriting FHA Loans and Fully Implement
               Its Quality Control Program in Accordance With HUD’s
               Requirement, Centennial Park, AZ




                                                                                                               83
SEMIANNUAL REPORT TO CONGRESS



Significant audit reports issued within the past 12 months that were described
in previous semiannual reports for which final action had not been completed
as of September 30, 2013

  REPORT                                                                  ISSUE        DECISION     FINAL
                        REPORT TITLE
  NUMBER                                                                  DATE         DATE         ACTION

 2013-PH-1001         Luzerne County Did Not Properly Evaluate, Un-      10/31/2012   01/31/2013   01/30/2014
                      derwrite, and Monitor a High-Risk Loan, Wilkes-
                      Barre, PA
 2013-PH-1002         The City of Baltimore Did Not Administer Its       11/09/2012   02/08/2013   02/08/2014
                      Homelessness Prevention and Rapid Re-Hous-
                      ing Program Grant According to Recovery Act
                      Requirements, Baltimore, MD
 2013-FO-0003         Additional Details To Supplement Our Report        11/15/2012   05/15/2013   12/31/2014
                      on HUD’s Fiscal Years 2012 and 2011 Financial
                      Statements
 2013-AT-1001         The Municipality of Ponce Did Not Always           11/30/2012   03/29/2013   03/14/2014
                      Ensure Compliance With HOME Investment
                      Partnerships Program Requirements, Ponce, PR
 2013-NY-1001         The City of Albany CDBG Recovery Act Program,      12/06/2012   04/03/2013   04/02/2014
                      Albany, NY


 2013-PH-0002         HUD Policies Did Not Always Ensure That Bor-       12/20/2012   04/19/2013   12/19/2013
                      rowers Complied With Program Residency
                      Requirements
 2013-SE-1001         The Idaho Housing and Finance Association Did      12/21/2012   12/21/2012   Note 2
                      Not Always Comply With HOME Investment
                      Partnerships Program Match and Compliance
                      Monitoring Requirements, Boise, ID
 2013-CH-0001         HUD Did Not Always Provide Adequate Over-          01/04/2013   05/03/2013   12/01/2013
                      sight of Its Assisted Living Conversion Program


 2013-FO-0004         Information System Deficiencies Noted Dur-         01/15/2013   08/22/2013   03/31/2014
                      ing Federal Housing Administration’s Fiscal Year
                      2012 Financial Statement Audit
 2013-LA-1801         Standard Pacific Mortgage, Inc., Allowed the       02/05/2013   06/04/2013   Note 3
                      Recording of Prohibited Restrictive Covenants,
                      Irvine, CA
 2013-NY-1004         The City of Paterson Had Weaknesses in the         02/25/2013   04/15/2013   04/08/2014
                      Administration of Its Housing Opportunities for
                      Persons with AIDS Program, Paterson, NJ




84
                                                                                                             APPENDIX THREE TABLES




  REPORT                                                                     ISSUE            DECISION          FINAL
                        REPORT TITLE
  NUMBER                                                                     DATE             DATE              ACTION

 2013-DP-0004         Technical Security Control Weaknesses in Se-         02/28/2013        06/26/2013        03/31/2014
                      lected Ginnie Mae Applications


 2013-FW-1001         The Cherokee Nation Generally Administered Its       03/12/2013        06/28/2013        05/31/2014
                      Recovery Act Funds According to Requirements,
                      Tahlequah, OK
 2013-LA-1003         Bay Vista Methodist Heights Violated Its Agree-      03/14/2013        05/15/2013        05/14/2014
                      ment With HUD When Administering Its Trust
                      Funds, San Diego, CA
 2013-AT-1003         The Municipality of Arecibo Did Not Always En-       03/22/2013        06/14/2013        05/31/2014
                      sure Compliance With CDBG Program Require-
                      ments, Arecibo, PR




AUDITS EXCLUDED:
84 audits under repayment plans
30 audits under debt claims collection processing, formal judicial review, investigation, or legislative solution


NOTES:
1 Management did not meet the target date. Target date is over 1 year old.
2 Management did not meet the target date. Target date is under 1 year old.
3 No Management decision




                                                                                                                              85
SEMIANNUAL REPORT TO CONGRESS



TABLE C


Inspector General-issued reports with questioned and unsupported costs
at 09/30/2013 (thousands)

                                                                                  NUMBER
                                                                                                    QUESTIONED           UNSUPPORTED
  AUDIT REPORTS                                                                   OF AUDIT
                                                                                                        COSTS                 COSTS
                                                                                  REPORTS

          For which no management decision had been made by
 A1                                                                                 17                    733,073              284,825
          the commencement of the reporting period

          For which litigation, legislation, or investigation was
 A2                                                                                  5                      8,960                 5,299
          pending at the commencement of the reporting period

          For which additional costs were added to reports in
 A3                                                                                  -                       7,956                 7,815
          beginning inventory


 A4       For which costs were added to noncost reports                              0                            0                    0



 B1       Which were issued during the reporting period                             47                    167,488               127,290



 B2       Which were reopened during the reporting period                            0                            0                    0


 SUBTOTALS (A + B)                                                                    69                     917,477              425,229

 C                                                                                  2117                   46,957                35,167
          For which a management decision was made during the
          reporting period

          (1) Dollar value of disallowed costs:                                      918                    12,498                 7,131

          	         Due HUD                                                         14                      33,051               26,628
                                                                                     219
                                                                                                             1,408                1,408
          (2) Dollar value of costs not disallowed


 D                                                                                   5                      8,960                 5,299
          For which a management decision had been made not
          to determine costs until completion of litigation, legisla-

 E                                                                                  43                    861,560              384,763
          For which no management decision had made by the
          end of the reporting period
                                                                                < 134 >20              < 800,109 >20        < 324,848 >20



17 Fifteen audit reports also contain recommendations with funds to be put to better use.
18 Six audit reports also contain recommendations with funds due program participants.
19 Seven audit reports also contain recommendations with funds agreed to by management.
20 The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.




86
                                                                                                                        APPENDIX THREE TABLES



TABLE D


Inspector General-issued reports with recommendations that funds be put
to better use at 09/30/2013 (thousands)


                                                                                                       NUMBER
                                                                                                                              DOLLAR
  AUDIT REPORTS                                                                                        OF AUDIT
                                                                                                                               VALUE
                                                                                                       REPORTS

 A1                                                                                                      11                      803,503
          For which no management decision had been made by the
          commencement of the reporting period

 A2                                                                                                       4                        17,375
          For which litigation, legislation, or investigation was pending at the
          commencement of the reporting period

 A3                                                                                                       -                        92,416
          For which additional costs were added to reports in beginning inventory

 A4                                                                                                       0                              0
          For which costs were added to noncost reports

 B1                                                                                                      31                      357,567
          Which were issued during the reporting period

 B2                                                                                                       0                              0
          Which were reopened during the reporting period


 SUBTOTALS (A + B)                                                                                       46                    1,270,861

 C                                                                                                       1221                    828,500
          For which a management decision was made during the reporting period

          (1) Dollar value of recommendations that were agreed to by management:
                                                                                                          5                      826,569
          	         Due HUD
                                                                                                          6                         1,623
          	         Due program participants
                                                                                                          322                         308
          (2) Dollar value of recommendations that were not agreed to by
          management

 D                                                                                                        4                        17,375
          For which a management decision had been made not to determine costs
          until completion of litigation, legislation, or investigation

 E                                                                                                       30                      424,986
          For which no management decision had made by the end of the reporting
          period
                                                                                                       < 44 >23               < 359,516 >23


21 Fifteen audit reports also contain recommendations with questioned costs.
22 Three audit reports also contain recommendations with funds agreed to by management.
23 The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.




                                                                                                                                             87
SEMIANNUAL REPORT TO CONGRESS




EXPLANATIONS OF TABLES C AND D



The Inspector General Act Amendments of 1988 require inspectors general and agency heads to report cost data on
management decisions and final actions on audit reports. The current method of reporting at the “report” level rather than
at the individual audit “recommendation” level results in misleading reporting of cost data. Under the Act, an audit “report”
does not have a management decision or final action until all questioned cost items or other recommendations have a
management decision or final action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve and complete action on audit
recommendations. For example, certain cost items or recommendations could have a management decision and
repayment (final action) in a short period of time. Other cost items or nonmonetary recommendation issues in the same
audit report may be more complex, requiring a longer period of time for management’s decision or final action. Although
management may have taken timely action on all but one of many recommendations in an audit report, the current “all or
nothing” reporting format does not recognize their efforts.
     The closing inventory for items with no management decision in tables C and D (line E) reflects figures at the report
level as well as the recommendation level.




88
                                                 OIG TELEPHONE DIRECTORY




OIG TELEPHONE DIRECTORY



Office of Audit

HEADQUARTERS 		  Washington, DC						202-708-0364
OFFICE OF AUDIT						



REGION 1/2	   		New York, NY	 					212-264-4174
				Albany, NY						518-462-2892
				Boston, MA						617-994-8380
				Buffalo, NY						716-551-5755
				Hartford, CT						860-240-4837
				Newark, NJ						973-776-7339


REGION 3			         Philadelphia, PA						215-656-0500
				Baltimore, MD						410-962-2520
				Pittsburgh, PA						412-644-6372
				Richmond, VA						804-771-2100



REGION 4			         Atlanta, GA	   					404-331-3369
				Greensboro, NC						336-547-4001
				Jacksonville, FL						904-232-1226
				Knoxville, TN						865-545-4400
				Miami, FL						305-536-5387
				San Juan, PR						787-766-5540


REGION 5			         Chicago, IL						312-353-7832
				Columbus, OH						614-469-5745
				Detroit, MI						313-226-6280



REGION 6			         Fort Worth, TX						817-978-9309
				Baton Rouge, LA						225-448-3976
				Houston, TX						713-718-3199
				New Orleans, LA						504-671-3715
				Albuquerque, NM						505-346-7270
				Oklahoma City, OK					405-609-8606
				San Antonio, TX						210-475-6800




                                                                    89
SEMIANNUAL REPORT TO CONGRESS



REGION 7/8/10		 Kansas City, KS						913-551-5870
				St. Louis, MO						314-539-6339
				Denver, CO						303-672-5452
				Seattle, WA						206-220-5360



REGION 9			                     Los Angeles, CA						213-894-8016
				Las Vegas, NV						702-336-2100
				Phoenix, AZ						602-379-7250
				San Francisco, CA					415-489-6400
				


Office of Investigation
HEADQUARTERS 		 Washington, DC						202-708-0390
OFFICE OF
INVESTIGATION						



REGION 1/2			                   New York, NY						212-264-8062
				Boston, MA						617-994-8450	
				Hartford, CT						860-240-4800
				Manchester, NH						603-666-7988
				Newark, NJ						973-776-7355



REGION 3			                     Philadelphia, PA						215-430-6758
				Baltimore, MD						410-209-6533
				Pittsburgh, PA						412-644-6598
				Richmond, VA						804-822-4890
				Washington, DC						202-287-4100



REGION 4			                     Atlanta, GA	   					404-331-5001
				Birmingham, AL						205-745-4314
				Columbia, SC						803-451-4318
				Greensboro, NC						336-547-4000
				Jackson, MS						601-965-4700
				Memphis, TN						901-554-3148
				Miami, FL						305-536-3087
				Nashville, TN						615-736-2332
				San Juan, PR						787-766-5868
				Tampa, FL						813-228-2026


REGION 5			                     Chicago, IL						312-353-4196
				Cleveland, OH						216-357-7800




90
                                                        OIG TELEPHONE DIRECTORY



				Columbus, OH						614-469-6677
				Detroit, MI						313-226-6280
				Grand Rapids, MI						313-226-6280
				Indianapolis, IN						317-226-5427
				Minneapolis-St. Paul, MN					612-370-3130



REGION 6			            Fort Worth, TX						817-978-5440
				Baton Rouge, LA						225-448-3941
				Houston, TX						713-718-3221
				Little Rock, AR						501-324-5931
				New Orleans, LA						504-671-3700
				Oklahoma City, OK					405-609-8603
				San Antonio, TX						210-475-6822


REGION 7/8/10		 Denver, CO						303-672-5350
				Billings, MT						406-247-4080
				Kansas City, KS						913-551-5866
				Salt Lake City, UT						801-524-6090
				St. Louis, MO						314-539-6559
				Denver, CO						206-220-5380

REGION 9		       	     Los Angeles, CA						213-894-0219
				Las Vegas, NV						702-366-2144
				Phoenix, AZ						602-379-7252
				Sacramento, CA						916-930-5691
				San Francisco, CA					415-489-6683

Joint Civil Fraud Division
AUDIT 				Kansas City, KS						913-551-5429

INVESTIGATION		        Kansas City, KS	   					913-551-5866


						




                                                                            91
SEMIANNUAL REPORT TO CONGRESS




ACRONYMS LIST
     ARRA................................................................American Recovery and Reinvestment Act of 2009
     BPD..................................................................Bureau of Public Debt
     CDBG...............................................................Community Development Block Grant
     CDBG-R...........................................................Community Development Block Grant-Recovery Act
     CFR...................................................................Code of Federal Regulations
     CID...................................................................Criminal Investigation Division (Internal Revenue Service)
     CPD..................................................................Office of Community Planning and Development
     DOJ..................................................................U.S. Department of Justice
     FBI....................................................................Federal Bureau of Investigation
     FEMP................................................................Federal Emergency Management Program
     FFMIA...............................................................Federal Financial Management Improvement Act of 1996
     FHA..................................................................Federal Housing Administration
     FHFA................................................................Federal Housing Finance Agency
     FIFO.................................................................first-in, first-out
     FIRMS..............................................................Facilities Integrated Resources Management System
     FISMA..............................................................Federal Information Security Management Act
     GAO.................................................................U.S. Government Accountability Office
     HECM...............................................................home equity conversion mortgage
     HIAMS..............................................................HUD Integrated Acquisition Management System
     HIFMIP.............................................................HUD’s Integrated Financial Management Improvement Project
     HOME..............................................................HOME Investment Partnerships Program
     HOPWA...........................................................Housing Opportunities for Persons With AIDS
     HPS..................................................................HUD Procurement System
     HUD.................................................................U.S. Department of Housing and Urban Development
     HUDCAPS........................................................HUD’s Centralized Accounting Program System
     IDIS..................................................................Integrated Disbursement and Information System
     IRS....................................................................Internal Revenue Service
     LMDC...............................................................Lower Manhattan Development Corporation
     LTV...................................................................loan to value
     NCDF...............................................................National Center for Disaster Fraud
     NSP2................................................................Neighborhood Stabilization Program 2
     OI......................................................................Office of Investigation
     OIG...................................................................Office of Inspector General
     OMB.................................................................Office of Management and Budget
     PERMS.............................................................Performance Measurement System
     PHA..................................................................public housing agency
     PIH...................................................................Office of Public and Indian Housing
     SPS...................................................................Small Purchase System
     U.S.C................................................................United States Code
     USPIS...............................................................U.S. Postal Inspection Service




92
                                                                                                     REPORTING REQUIREMENTS




REPORTING REQUIREMENTS
The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the Inspector
General Act of 1988, are listed below.



SOURCE-REQUIREMENT	PAGES


Section 4(a)(2)-review of existing and proposed legislation and regulations.	                                           46

Section 5(a)(1)-description of significant problems, abuses, and deficiencies
relating to the administration of programs and operations of the Department.	                                         8-44

Section 5(a)(2)-description of recommendations for corrective action with
respect to significant problems, abuses, and deficiencies.	                                                             49

Section 5(a)(3)-identification of each significant recommendation described in
previous Semiannual Report on which corrective action has not been completed.	                      Appendix 3, table B, 76

Section 5(a)(4)-summary of matters referred to prosecutive authorities and the
prosecutions and convictions that have resulted.	                                                                     8-44

Section 5(a)(5)-summary of reports made on instances where information or
assistance was unreasonably refused or not provided, as required by Section 6(b)(2)
of the Act.	                                                                                                 No instances

Section 5(a)(6)-listing of each audit report completed during the reporting period,
and for each report, where applicable, the total dollar value of questioned and
unsupported costs and the dollar value of recommendations that funds be put to
better use.	                                                                                                Appendix 2, 69

Section 5(a)(7)-summary of each particularly significant report.	                                                     8-44

Section 5(a)(8)-statistical tables showing the total number of audit reports and
the total dollar value of questioned and unsupported costs.	                                        Appendix 3, table C, 86

Section 5(a)(9)-statistical tables showing the total number of audit reports and the
dollar value of recommendations that funds be put to better use by management.	                    Appendix 3, table D, 87

Section 5(a)(10)-summary of each audit report issued before the commencement
of the reporting period for which no management decision had been made by the
end of the period.	                                                                                 Appendix 3, table A, 75

Section 5(a)(11)-a description and explanation of the reasons for any significant
revised management decisions made during the reporting period.	                                                         58

Section 5(a)(12)-information concerning any significant management decision
with which the Inspector General is in disagreement.	                                                                   64

Section 5(a)(13)-the information described under section 05(b) of the Federal
Financial Management Improvement Act of 1996.	                                                                          65




                                                                                                                        93
     FRAUD ALERT
     Every day, loan modification and foreclosure rescue scams rob vulnerable homeowners of their money and their
     homes. The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General, is the
     Department’s law enforcement arm and is responsible for investigating complaints and allegations of mortgage
     fraud. Following are some of the more common scams:



     COMMON LOAN MODIFICATION SCAMS

     Phony counseling scams: The scam artist says that he or she can negotiate a deal with the lender to modify
     the mortgage — for an upfront fee.


     Phony foreclosure rescue scams: Some scammers advise homeowners to make their mortgage payments
     directly to the scammer while he or she negotiates with the lender. Once the homeowner has made a few
     mortgage payments, the scammer disappears with the homeowner’s money.


     Fake “government” modification programs: Some scammers claim to be affiliated with or approved by the
     government. The scammer’s company name and Web site may appear to be a real government agency, but the
     Web site address will end with .com or .net instead of .gov.


     Forensic loan audit: Because advance fees for loan counseling services are prohibited, scammers may sell
     their services as “forensic mortgage audits.” The scammer will say that the audit report can be used to avoid
     foreclosure, force a mortgage modification, or even cancel a loan. The fraudster typically will request an
     upfront fee for this service.


     Mass joinder lawsuit: The scam artist, usually a lawyer, law firm, or marketing partner, will promise that he
     or she can force lenders to modify loans. The scammers will try to “sell” participation in a lawsuit against the
     mortgage lender, claiming that the homeowner cannot participate in the lawsuit until he or she pays some
     type of upfront fee.


     Rent-to-own or leaseback scheme: The homeowner surrenders the title or deed as part of a deal that will let
     the homeowner stay in the home as a renter and then buy it back in a few years. However, the scammer has
     no intention of selling the home back to the homeowner and, instead, takes the monthly “rent” payments and
     allows the home to go into foreclosure.


     Remember, only work with a HUD-approved housing counselor to understand your options for assistance.
     HUD-approved housing counseling agencies are available to provide information and assistance. Call 888-
     995-HOPE to speak with an expert about your situation. HUD-approved counseling is free of charge.


     If you suspect fraud, call the U.S. Department of Housing and Urban Development, Office of Inspector General.




94
                                                  APPENDIX THREE CHARTS




REPORT
Report fraud, waste, and mismanagement
  in HUD programs and operations by


      Faxing the OIG hotline: 202-708-4829
   Emailing the OIG hotline: hotline@hudoig.gov



          Sending written information to
   Department of Housing and Urban Development
           Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410


                      Internet:
      http://www.hudoig.gov/hotline/index.php


           All information is confidential,
          and you may remain anonymous.




                                                                   95
                   U.S. DEPARTMENT
                   OF HOUSING
                   AND URBAN
                   DEVELOPMENT



Report Number 70
www.hudoig.gov
